<html>
<title> - PROTECTING THE HOMELAND AGAINST MUMBAI-STYLE ATTACKS AND THE THREAT FROM LASHKAR-E-TAIBA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  PROTECTING THE HOMELAND AGAINST MUMBAI-STYLE ATTACKS AND THE THREAT 

                          FROM LASHKAR-E-TAIBA
=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM

                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2013

                               __________

                           Serial No. 113-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
85-686                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania         Loretta Sanchez, California
Jason Chaffetz, Utah                 William R. Keating, Massachusetts
Chris Stewart, Utah                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry Ann Watkins, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Hope Goins, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Joseph W. Pfeifer, Chief of Counterterrorism and Emergency 
  Preparedness, Fire Department of New York:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10
Ms. C. Christine Fair, Ph.D., Assistant Professor, Georgetown 
  University:
  Oral Statement.................................................    13
  Prepared Statement.............................................    17
Mr. Stephen Tankel, Ph.D., Assistant Professor, American 
  University:
  Oral Statement.................................................    25
  Prepared Statement.............................................    28
Mr. Jonah Blank, Ph.D., Senior Political Analyst, The Rand 
  Corporation:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40

                                Appendix

Statement of Brian Michael Jenkins, Senior Advisor to the RAND 
  President, The RAND Corporation................................    59


  PROTECTING THE HOMELAND AGAINST MUMBAI-STYLE ATTACKS AND THE THREAT 
                          FROM LASHKAR-E-TAIBA

                              ----------                              


                        Wednesday, June 12, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:13 a.m., in 
Room 311, Rayburn House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Higgens, and Keating.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittee on Counterterrorism and Intelligence will come to 
order.
    The subcommittee is meeting today to hear testimony 
examining a threat to the homeland from Mumbai-style attacks 
and LeT, an Islamist terrorist organization.
    I now recognize myself for an opening statement.
    On the onset, let me express my apologies for being late. I 
just came from a debate in the Capitol we had on the whole NSA 
issue, which I am sure you have been following in the media, 
and that ran over.
    But I want to thank all of you being here today. This is an 
issue of significant importance.
    I want to thank the Ranking Member for changing his 
schedule to be here and I truly appreciate that and, also, Mr. 
Keating, who comes from Massachusetts, and who personally saw 
the terrible impact of the Boston Marathon bombings.
    So any hearing we have dealing with threats against the 
homeland is extremely significant and the testimony of all of 
you, as experts, is very important today.
    Today, as I mentioned, we are talking about the Pakistani-
based jihadi group known for its 2008 terror attack in Mumbai, 
Lashkar-e-Taiba or LeT.
    We will examine their capability and intent to attack our 
homeland and what measures, for instance, the FDNY, the New 
York City Fire Department, is taking, the other first 
responders are taking to prepare for attacks which use fire as 
a weapon.
    In light of recent news, I will begin by noting that the 
man who scouted targets for the Mumbai attack, which killed 166 
people including six Americans, and planned a later attack 
which sought to behead a Danish journalist, was an American, 
David Headley.
    The DNI, Director of National Intelligence General Clapper, 
has revealed that Headley's terror ties were discovered through 
the same National Security Agency programs that have come under 
criticism in past days.
    I don't want to turn this hearing into a debate on that, 
but I would just ask people on both sides--both sides of the 
aisle, especially my own side of the aisle in Congress, that 
before they rush out and make rash judgments to realize how 
essential this program is, how basically it has been used under 
both administrations. The very significant court jurisdiction 
there is to ensure that they--court oversight there is to 
ensure the Constitution is complied with.
    Let's not rush to name Edward Snowden as any kind of a 
whistle-blower or hero. I think he should be extradited, 
indicted, and convicted.
    Now, returning to our original subject, LeT is designated 
and sanctioned by our Departments of State and Treasury as a 
terror organization.
    LeT is also a proxy of Pakistani Intelligence. I think it 
is important to note that LeT is a terror proxy of Pakistan's 
Inter-Services Intelligence, its ISI, which provides LeT with a 
safe haven and funding to train and prepare for terrorist 
attacks.
    While focused on Pakistan's dispute over Kashmir, an issue 
over which it regularly kills innocent Indian civilians, LeT's 
reach is broad and goes abroad.
    In addition to the 2009 plot in Denmark, LeT supported a 
planned 2002 attack in Australia by means of a trainer sent 
from France. LeT's networks span across South Asia and the 
Persian Gulf into Europe, especially Britain, as well as Canada 
and New Zealand.
    LeT actively recruits Westerners, maintains social media 
sites in colloquial American English and has, since the 1990s, 
sustained support cells here in the United States.
    LeT members were arrested in the homeland as recently as 
2011 when Jubair Ahmad was arrested in Woodbridge, Virginia. 
Eleven LeT members previously had been arrested in Virginia 
back in 2003.
    Suspected LeT operatives are reported to have surveilled 
several identified potential terror targets in this country. 
LeT practices good communication security and is proficient at 
surveillance skills making it a difficult target for our 
intelligence collection efforts, which should be immediately 
increased on this target.
    LeT maintains ties with al-Qaeda. They fight together 
against us in the Afghan provinces of Ghazni, Kunar, and 
Nuristan. LeT terrorists earlier fought our forces in Iraq.
    When our special operators raided Osama bin-Laden's 
compound in Abbottabad, they reportedly recovered 
correspondence between the late al-Qaeda leader and the LeT 
leader, Hafez Saeed.
    Now, I certainly work with other Members on the 
intelligence committee, I believe there is much to be done to 
declassify as many of the documents recovered in Pakistan on 
May 2, 2011, which could well amplify the relationship with 
LeT. That is an on-going process. I think it should be done 
sooner rather than later.
    Given that LeT has killed American civilians in India, 
fights U.S. soldiers in Afghanistan and is operationally active 
in this country, we must consider the possibility of a future 
LeT strike in the homeland.
    I look forward to evaluating that risk with Professors Fair 
and Tankel, America's leading academic experts on LeT.
    I also think we should make it clear to Pakistan that any 
LeT attack upon our homeland, they will bear a responsibility 
for that because of their close relationship between ISI and 
LeT.
    Now, God forbid a Mumbai-style attack were to occur here at 
home. Our first responders would face multiple attackers in 
different locations.
    These terrorists may be exploding bombs, conducting 
assassinations, barricading buildings, seizing hostages, and 
lighting those occupied buildings on fire concurrently and over 
a period of days.
    Without prior coordination, planning, practice, and 
resourcing, State and local officials will face stark dilemmas. 
Governors may have to choose between sending unarmed firemen to 
face active shooters or sending police SWAT teams into fully-
burning buildings.
    Mumbai is perhaps the most notorious use of fire as a 
terror weapon. This tactic was also used in Benghazi on 
September 11 of this year. U.S. embassies in Yugoslavia, 
Honduras, and Islamabad were also burned in 2008, 1988, and 
1979.
    Luckily for our country, and I have a bit of a parochial 
pride here, I believe the Nation's best service--fire service--
and I am sure Mr. Keating and Mr. Higgins will--may voice some 
comment to that, the FDNY is leading the way on preparing such 
a situation. The FDNY works with the FBI, U.S. Special 
Operations Command, the Department of State and foreign 
partners to devise and rehearse best practices to respond to a 
Mumbai-style attack.
    We are eager to learn about these efforts. I look forward 
to Chief Pfeifer's testimony. I encourage the first responders 
to learn about and consider copying these techniques and 
procedures. I look forward to the testimony of all the 
witnesses.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. King. Now it is my privilege to recognize the Ranking 
Member of the subcommittee, who I emphasized changed his 
schedule to be here today, the gentleman from New York, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I would like to thank Chairman Peter King for holding this 
hearing today. I would also like to thank the witnesses for 
their testimony.
    In November 2008, the terror group LeT conducted a 
Fedayeen-style attack in Mumbai. For over 60 hours, terrorists 
armed with firearms and explosives attacked multiple targets 
across Mumbai killing more than 170 people.
    Lashkar-e-Taiba is recognized by the United States 
Government as a foreign terrorist organization. Given that 
there have been Americans that have cooperated with Lashkar-e-
Taiba, the group's connection with al-Qaeda, I agree that a 
threat from that group be examined and evaluated.
    I also agree that we should examine and evaluate Fedayeen-
style attacks. We should look into whether or not groups other 
than Lashkar-e-Taiba are planning these types of attacks.
    There is evidence that al-Qaeda has sought to replicate 
this tactic in the West. We know that al-Qaeda seeks to recruit 
Americans for their plotting and execution of terrorist 
attacks.
    We also know that Hezbollah has a presence in North 
America. Do these groups have a capability to execute a 
Fedayeen-style attack?
    When we look at these kinds of attacks, we need to also see 
that our first responders in New York City and throughout urban 
areas throughout the Nation are able to respond to them in the 
event that these attacks occur.
    Do they have the resources to respond? Do they have the 
access to intelligence that they need to know that a potential 
terrorist plot is being planned? Unfortunately, not all 
jurisdictions are as prepared as they can be.
    In the Buffalo-Niagara region, there are high-impact 
targets. Buffalo is home to the Peace Bridge, one of the 
busiest Northern Border crossings between the United States and 
Canada.
    Over $30 billion of annual commerce travels through the 
Peace Bridge in the Buffalo-Niagara region. A Fedayeen-style 
attack in this area could be catastrophic to critical 
infrastructure.
    Even though we know this area is home to a high-impact 
target--targets, this area is considered--not considered high-
risk enough for State and local officials to receive the 
funding they need under the Urban Area Security Initiative 
program.
    Without this critical funding, local law enforcement 
emergency personnel do not have the ability to sustain the 
advancements they have made since 9/11.
    How can they be expected to protect the area in the event 
of a sophisticated attack such as the Fedayeen if they do not 
have the proper equipment or capabilities?
    Furthermore, local law enforcement--and the Federal 
Government still need improvement with information sharing.
    Earlier this year, a terrorist plot was thwarted by the 
Royal Canadian Mounted Police. Had this plot been successful, 
it could have caused grave disaster in Western New York.
    Unfortunately, the intelligence about this plot was not 
shared with local law enforcement officials in advance of an 
arrest of the alleged terrorist.
    How can first responders be first preventers if they don't 
have the critical information and resources?
    We ask a lot of our first responders. They are the ones 
that know the area best. They know people and places in their 
area better than anyone else. They should have the resources to 
keep us protected from terrorist attacks.
    I thank the Chairman. I look forward to the testimony of 
our witnesses.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             June 12, 2013
    In November 2008, the terrorist group Lashkar-e-Taiba conducted a 
Fedayeen-style attack in Mumbai. For over 60 hours, terrorists armed 
with firearms and explosives attacked multiple targets across Mumbai, 
killing more than 170 people. Lashkar-e-Taiba is recognized by the U.S. 
Government as a foreign terrorist organization. Given that there have 
been Americans that have cooperated with Lashkar-e-Taiba and the 
groups' connection with al-Qaeda, I agree that a threat from that group 
be examined and evaluated.
    I also agree that we should examine and evaluate Fedayeen-style 
attacks. We should look in to whether or not groups other than LeT are 
planning these types of attacks. There has been evidence that al-Qaeda 
has sought to replicate this tactic in the West. We know that al-Qaeda 
seeks to recruit Americans for their plotting and execution of 
terrorist attacks. We also know that Hezbollah has a presence in North 
America. Do these groups have a capability to execute a Fedayeen-style 
attack?
    When we look at these kind of attacks, we need to also see how our 
first responders are able to respond to them in the event that they 
occur. Do they have the resources to respond? Do they have access to 
the intelligence that they need to know that a potential terrorist is 
planning an attack? Unfortunately, not all jurisdictions are prepared 
nor can they be.
    In the Buffalo/Niagara region there are high-impact targets. 
Buffalo is home to the Peace Bridge, one of the busiest crossings at 
the Northern Border. Over $30 billion of annual commerce travels 
through the Peace Bridge in Buffalo/Niagara region. A Fedayeen-style 
attack in this area could be catastrophic to its critical 
infrastructure.
    Even though we know this area is home to high-impact targets, this 
area is not considered ``high-risk'' enough for State and locals in 
this area to receive funding under the Urban Area Security Initiative 
``UASI'' program. Without UASI funding, the local law enforcement and 
emergency personnel do not have the ability to sustain the advancements 
they have made since 9/11. How can they be expected to protect the area 
in the event of a sophisticated attack such as a Fedayeen, if they 
don't have the proper equipment or interoperability capabilities? 
Furthermore, the local law enforcement and the Federal Government still 
need improvement with information sharing.
    Earlier this year, there was a terrorist plot thwarted by the Royal 
Canadian Mounted Police. Had this plot been successful, it could have 
caused grave disaster to Western New York. Unfortunately, the 
intelligence about this plot was not shared with the local sheriff in 
advance of the arrest of the alleged terrorists.
    How can first responders be first preventers if they do not have 
critical resources and information? We ask a lot of our first 
responders. They are the ones that know the area the best. They know 
the people and the places in their areas better than anyone. We should 
trust them and entrust them with the resources they need.

    Mr. King. Thank you, Ranking Member Higgins.
    I would advise other Members of the committee that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    For more than 60 hours in November 2008, the world watched as 
Mumbai--India's entertainment and financial capital--was terrorized by 
attacks on hotels, hospitals, the main railway station, and other 
public places. By the time the siege was over, 10 terrorists had killed 
more than 160 people using automatic weapons and explosives.
    This attack was planned and executed by Lashkar-e-Taiba, a 
Pakistani terrorist organization. The style of attack, the weapons and 
technology used, and the diversity of the targets raised new questions 
for how we should approach counterterrorism and security measures here 
at home--at all levels of government and in the private sector.
    It has become clear that the type of attack carried out in Mumbai--
a ``Fedayeen''-style attack, where small groups engage in combat 
operations, as distinguished from suicide bombings--poses a challenge 
to our soft targets and our law enforcement community.
    As such, it is critical that we study this style of attack, 
evaluate how well DHS engages private-sector partners in efforts to 
secure against such attacks, and review how the private sector acts on 
shared information.
    By examining DHS' outreach to the private sector during and in the 
aftermath of these attacks, we can determine whether it provided 
stakeholders, such as hotels, with actionable information about the 
threat situation, the groups involved, and mitigation measures to be 
implemented. It is also critical that we examine whether the State and 
local jurisdictions are adequately prepared to respond to a Fedayeen-
style attack.
    Support from the Homeland Security Grant Program has been critical 
to the development core capabilities necessary to help State and local 
governments and first responders prepare for and respond to terrorist 
attacks and natural disasters. In recent months, communities across 
America have seen investments in these important grant programs pay 
off. From Hurricane Sandy to the response following the Boston Marathon 
bombings, investments in planning and exercises, interoperable 
emergency communications capabilities, medical surge capacity, and 
other capabilities saved lives and mitigated the damage those disasters 
inflicted.
    Unfortunately, the funding for the Homeland Security Grant Program 
has been reduced significantly under Republican leadership of the 
House. Without this important Federal support, State and local 
governments, which are already struggling to stretch their budgets, may 
not be able to maintain the capabilities, training, planning, and 
expertise developed over the past decade.
    Finally, we must consider the cost of terrorism. In response to the 
events of September 11, Congress enacted the Terrorism Risk Insurance 
Act of 2002. That measure increased the availability of terrorism risk 
insurance to at-risk American businesses by guaranteeing that the 
Government would share some of the losses with private insurers should 
a terrorist attack occur. That act is set to sunset in 2014. I have 
introduced a bill that would extend these provisions, but would add 
some needed improvements. I urge my colleagues on this committee to co-
sponsor this bill.
    The 2008 Mumbai attack showed the vulnerability and the economic 
devastation a Fedayeen-style attack could have on businesses. We must 
recognize that small businesses and others that suffer an economic loss 
due to a terrorist act should not have to shoulder that burden alone 
and should not have to rely on the kindness of charity.

    Mr. King. We are very pleased today to have a distinguished 
panel of witnesses before us on what I believe to be a very 
vital topic.
    We have Chief Joseph Pfeifer who is the chief of 
counterterrorism and emergency preparedness for the Fire 
Department of New York; Dr. Christine Fair, assistant professor 
at Georgetown University; Dr. Stephen Tankel, assistant 
professor at American University; and Mr. Jonah Blank, a senior 
political analyst for the RAND Corporation.
    Our first witness will be Chief Pfeifer, who is the FDNY, 
as I said, chief of counterterrorism and emergency 
preparedness, as well as the city-wide command chief who is 
responsible for commanding responses for major incidents.
    Chief Pfeifer was the first chief of the World Trade Center 
attack in 2001, and he survived the collapse of the towers. 
Unfortunately, his brother did not. Since the attack on the 
World Trade Center, Chief Pfeifer has assessed FDNY's response 
capabilities, identified policy priorities, helped overhaul 
management practices, and developed the FDNY's first strategic 
plan, and terrorism preparedness strategy.
    Chief Pfeifer founded and directs the FDNY Center for 
Terrorism and Disaster Preparedness, and I am proud to call him 
a friend. I recognize Chief Pfeifer for 5 minutes. Joe.

 STATEMENT OF JOSEPH W. PFEIFER, CHIEF OF COUNTERTERRORISM AND 
      EMERGENCY PREPAREDNESS, FIRE DEPARTMENT OF NEW YORK

    Chief Pfeifer. Good morning, Chairman King, Ranking Member 
Higgins, and other distinguished Members of the Subcommittee of 
Counterterrorism and Intelligence.
    My name is Joseph Pfeifer. I am the chief of 
counterterrorism and emergency preparedness for the New York 
City Fire Department. Thank you for this opportunity to speak 
to you today about FDNY's concern and initiatives related to 
the use of fire as a weapon by those who are determined to 
bring harm to the United States.
    The devastating 2008 attack on Mumbai represents a game-
changer. Over 3 days, a city of nearly 14 million people were 
held hostage with 166 people that were murdered in multiple 
locations, introducing a new model for terrorist attacks.
    The salient features of a Mumbai-style attack includes 
multiple terrorists, multiple targets, and multiple modes of 
attacks deployed over a prolonged period to amplify media 
attention. Despite all the violence, the most iconic images 
from that day remains those of the Taj Mahal on fire. The 
pictures of people at the window of the hotel trying to escape 
the flames are reminiscent of 9/11.
    Despite the striking images from that major attack, the 
interest in using fire as either as strategic or tactical 
weapon has not been well understood, and largely ignored to 
date. Yet, it is a weapon that could significantly alter the 
dynamics of a terrorist attack.
    My testimony will focus on two areas: First, understanding 
terrorist use of fire as a weapon; and second, explaining the 
steps we have taken to respond to a Mumbai-style attack.
    Brian Jenkins, a leading expert in terrorism, noted--
notably stated that terrorist attacks are often carefully 
choreographed to attract attention of the electronic media and 
the international press, ``Terrorism is theater.''
    Directing the Mumbai attacks on Pakistan, the mastermind 
asked the terrorists, ``Are you setting the fire or not?''
    He understood the value of fire as a strategic weapon to 
capture the attention of television, and that the world would 
watch. He also created a tactical obstacle between the 
rescuers, and the terrorists, and the hostages.
    The effects of fire, whether intentional or a by-product of 
an attack, can slow or even stop the effects of law enforcement 
and first responders to rescue those that are injured, to 
mitigate the attack, and kill or capture the terrorist.
    In Benghazi, it was not the bullets or the explosives that 
killed U.S. Ambassador Stevens and Sean Smith. Instead, it was 
the fire and smoke from an arson fire deliberately set during 
the attacks. As they attempted to escape an untenable 
atmosphere, they were overcome with blinding and choking smoke.
    Similar to 9/11 in Mumbai, the world was left with another 
image of a building ablaze during a terrorist attack. Following 
this incident, similar arson attacks took place against the 
U.N. Multinational Force in the Sinai Peninsula, as well as the 
U.S. embassy in Tunis.
    Historically, fire also has been a weapon frequently 
mentioned by al-Qaeda as a way to conduct simple attacks in the 
West. They have plotted to drive a gasoline truck into the 
lobby of a high-rise building, cut and ignite natural gas pipes 
in apartment buildings, and set forest fires. One terrorist 
publication went so far as to provide a tutorial on setting 
wildland fires.
    Of particular concern are fires in transportation systems, 
as seen in the February 2007 attack on a train in India, which 
killed 68 people. What we are learning from these events is 
that groups or individuals do not need a great deal of training 
to conduct significant terrorist attacks.
    This became dramatically clear with the horrific attacks on 
the Boston Marathon. Fire presents a qualitatively different 
type of weapon when used in conjunction with other means of 
attacks. Fire and its associated smoke can prove disorientating 
to responders, inhibit police from gaining access to the 
target, and create structural dangers, and can greatly increase 
the number of casualties.
    These factors present complex challenges to 
counterterrorism operations. To address these complex 
challenges, the FDNY has reaffirmed this relationship with 
established partners like NYPD, and has forged new partnerships 
to develop effective techniques, tactics, and procedures.
    Four unique partnerships are worth mentioning. FDNY is 
working with the FBI, New York SWAT Team, to develop procedures 
of joint tactical teams, teams that are comprised of fire 
personnel, security forces operating together in an environment 
with armed terrorists, fire and smoke, and mass casualties.
    Discussions, tabletop exercises have led to two full-scale 
exercises that validated the concept of joint operations and 
tactics. The insights gained with the FBI culminated in the 
inter-agency tactical response model released in June 2012.
    In May of last year, FDNY began collaborating with the 
United States Military Special Operation Forces that 
specialized in rapid solutions to current and anticipated 
problems on the battlefield.
    Not only did this partnership result in a study of tactics 
and a likely outcome of a Mumbai-style attack, but it also 
provided tactics. It also provided our Nation's leading 
counterterrorism forces with the opportunity to confront a 
threat not well understood, and to learn from the Nation's 
leading fire department.
    Following Benghazi, FDNY was asked to advise the Department 
of State's Diplomatic Security Services on the most critical 
features of fire as a weapon. Agents were put through 
firefighting training at the fire academy, introduced how to 
extricate people from a fortified vehicle, and to walk through 
an exercise of a Mumbai-style scenario.
    Here again, the examples where lessons were learned through 
the research of FDNY were leveraged to a greater end. FDNY has 
also worked closely with the London Fire Brigade on 
counterterrorism measures since the 7/7 bombing in 2005.
    In preparation for the 2012 Olympics, FDNY discussed with 
the London Fire Brigade and the Metropolitan Police Services 
possible response scenarios to an active shooter attack 
involving fire in multiple locations.
    In addition, in May 2012, FDNY collaborated with the 
Department of Homeland Security Office of Intelligence Analysis 
to release a document on terrorist interest in using fire as a 
weapon. This document addresses the advantages of using fire 
over other terrorist tactics, potential mass casualty, economic 
damage, and the dangers of this type of an attack in a high-
rise building.
    This hearing is important. It allows the FDNY to share what 
it has learned about this threat posed by a Mumbai-style 
attack. By adapting a multi-disciplined approach to fire as a 
weapon, we have developed real and workable tactics to mitigate 
the attack.
    However, more work and training is needed to be done. Fire, 
emergency medical, law enforcement, and security services must 
continue to work jointly on this threat. The FDNY is committed 
to this continuation of this effort. We urge Congress to 
continue its support, and funding, and leadership in these 
areas.
    Finally, the Federal Government can certainly benefit from 
leveraging the subject-matter expertise of organizations like 
FDNY. The unique partnership we have developed reflects the 
value of the Federal grant programs and other investments made 
in the FDNY, and how these lessons learned can be shared with 
other organizations to keep people safe.
    Thank you again for this invitation to discuss this very 
important homeland security issue.
    [The prepared statement of Mr. Pfeifer follows:]
                Prepared Statement of Joseph W. Pfeifer
                              12 June 2013
                              introduction
    Good morning Chairman McCaul, Chairman King, Ranking Member 
Higgins, and distinguished Members of the Subcommittee for 
Counterterrorism and Intelligence. My name is Joseph Pfeifer and I am 
the chief of counterterrorism for the New York City Fire Department 
(FDNY). Thank you for the opportunity to speak with you today about the 
FDNY's concerns and initiatives related to the use of fire as a weapon 
by those who are determined to bring harm to the United States.
    The use of fire for criminal, gang, and terrorist activities, as 
well as targeting first responders, is not new. Over the past 4 decades 
the FDNY has faced hundreds of intentionally set fires that would often 
target firefighters. However, on March 25, 1990 the unthinkable 
happened. An arsonist with a plastic container of gasoline spread fuel 
on the exit stairs of the ``Happy Land Night Club'' in the Bronx, 
intentionally killing 87 people, foreshadowing even larger events to 
come. The attacks of September 11, 2001 are remembered as the first to 
employ airplanes as weapons of mass destruction, resulting in the loss 
of almost 3,000 people. However, it was the resultant fires, which 
brought down Towers 1 and 2 of the World Trade Center in the deadliest 
attack on American soil. Seven years later, in what is described as a 
``paradigm shift,'' 10 terrorist operatives from Lashkar-e-Taiba 
carried out attacks over 3 days in Mumbai, India in November 2008, 
using a mix of automatic weapons, explosives, and fire.\1\ Each of 
these attacks is remembered for something other than fire yet, in each, 
it was the fire that complicated rescue operations and drastically 
increased the lethality of the attacks.
---------------------------------------------------------------------------
    \1\ New York City Fire Department, Counterterrorism and Risk 
Management Strategy, 2011.
---------------------------------------------------------------------------
    A full understanding of fire as a weapon and implications for 
response are essential for homeland security, as it requires new 
policies and partnerships to address the emerging threat. Fire is an 
attractive weapon for terrorists for several reasons. Igniting a fire 
requires little to no training. Fire and associated smoke can penetrate 
defenses with alarming lethality. Fire makes tactical response more 
difficult. And, the images of fire increases media coverage, capturing 
world attention.\2\ FDNY has been studying this terrorist trend closely 
and, as a result of those efforts, the Department is leading the 
National fire service on this issue.
---------------------------------------------------------------------------
    \2\ The images of buildings on fire with people trapped at the 
windows captured the world's attention and provided a dramatic backdrop 
to the terrorist actions.
---------------------------------------------------------------------------
    Security personnel and emergency responders must rethink the way 
that they prepare and respond to incidents and anticipate the use of 
fire as a weapon, especially when combined with other attack methods. 
My testimony will focus on three areas: (i) Understanding the terrorist 
use of fire as a weapon; (ii) the complexities of responding to multi-
modality attacks involving fire; and (iii) the role the FDNY can play 
in National homeland security efforts.
                     understanding fire as a weapon
    The devastating 2008 attacks in Mumbai, India represent a game-
changer. Over 3 days, a city of nearly 14 million was held hostage 
while 200 people were murdered in multiple locations across the city, 
introducing a new model for terrorist attacks. The nature of the Mumbai 
attack confused those providing tactical response, rescue operations, 
fire extinguishment, and mass casualty care. The attackers employed 
multiple means of attack including: Improvised explosive devices, 
targeted killings (assassination), hostage barricade, building 
takeover, active shooter, kidnapping, and fire. Despite all of the 
violence, the most iconic images from that event remain the fire at Taj 
Mahal Hotel. The pictures of people hanging out the windows of the 
hotel to escape the fire are reminiscent of 9/11.
    Brian Jenkins notably stated in 1974 that ``Terrorist attacks are 
often carefully choreographed to attract the attention of the 
electronic media and the international press . . . Terrorism is 
theater.'' Directing the attack from Pakistan, the mastermind asked the 
terrorists, ``Are you setting the fire or not?'' He understood that the 
fire would capture the attention of the television cameras outside the 
hotel and would create an image the world would watch. In this case 
fire was used as a strategic weapon. Yet it also created a condition 
that complicated the rescue planning and challenged the first 
responders to deal with not only an active-shooter threat inside a 
hostage barricade situation but also one where fire and smoke created a 
second layer of obstacles to the rescue force--one for which they were 
not prepared.
    On September 11, 2012, the first murder of an American ambassador 
since 1988 took place in in Benghazi, Libya. Though firearms, IEDs, and 
military ordinance were used, it was not bullets or explosives that 
killed the U.S. ambassador. It was smoke from an arson fire. During 
that attack of the U.S. mission in Benghazi, which killed two 
Americans, terrorists reportedly linked to Ansar al-Sharia and al-Qaeda 
in the Islamic Maghreb, used fuel from jerry cans to start a fire in 
the main villa, where Ambassador Christopher Stevens was sheltering in 
the designated location with two members of his diplomatic security 
detail. As the three men attempted to escape the untenable atmosphere, 
filled with choking, blinding smoke, the ambassador was separated from 
the one member of the detail who was able to escape through a window. 
Unfortunately, Ambassador Stevens and the other agent did not follow. 
Similar to 9/11 and Mumbai, the world was left with another image of a 
building ablaze during a terrorist attack. Following this incident, 
similar arson attacks took place days after Benghazi against the U.N. 
Multinational Force in the Sinai Peninsula as well as at the U.S. 
Embassy in Tunis, Tunisia.
    While successful attacks are instructive, it is equally important 
to study unrealized terrorist plots that reveal a great deal about 
intentions, motivations, target selection, and desired tactics of our 
adversaries.
  <bullet> Arriving in the United States from the United Kingdom, al-
        Qaeda operative Dhiren Barot carried out reconnaissance for 
        terrorist attacks in New York City and Washington, DC. Part of 
        his research focused on exploiting building vulnerabilities, 
        including gaps in fire protection. He determined that he could 
        cause significant damage to the Prudential Building in Newark, 
        New Jersey and the Citi Corp Building in New York by ramming a 
        loaded gas tanker truck into the lobby and then igniting the 
        fuel.
  <bullet> Another al-Qaeda operative, Brooklyn-born Jose Padilla, 
        determined that a ``dirty bomb'' attack might be too difficult 
        to execute, so instead he planned to set wildfires, as well as 
        ignite high-rise buildings by damaging the gas lines in 
        apartments.
  <bullet> An al-Qaeda cell in the United Kingdom researched means to 
        disable fire suppression systems to increase the impact of a 
        plot that was ultimately disrupted by authorities.
    These failed plots point to a strong interest in the use of fire as 
a weapon by al-Qaeda and those it influences. In its widely 
disseminated English-language Inspire magazine, al-Qaeda in the Arabian 
Peninsula has repeatedly urged aspiring home-grown violent extremists 
to carry out low-tech, high-impact attacks in the United States or 
other Western countries. In one issue of Inspire, self-radicalized 
readers are introduced to various methods of performing an attack, 
including the use of simple ``ember bombs'' to ignite forest fires. 
Equally important, the images from attacks like Mumbai serve as a model 
for others to follow.
    What we are seeing from these events is that a group does not need 
a great deal of training to conduct a dramatic terrorist attack. 
Recently, we witnessed two men at the Boston Marathon kill three 
people, injure 275 others and paralyze the city. The Boston attacks 
serve as an important reminder that attacks need not be sophisticated 
to be deadly. Indeed, a survey of al-Qaeda-inspired attack plots in the 
United States over the past decade reveals a trend remarkable for the 
simplicity of attack plans. Fire as a weapon, by itself or along with 
other tactics, presents significant challenges that first responders 
and security forces must contend with in planning, preparation, and 
drills.
  complexities in responding to multi-modality attacks involving fire
    FDNY research and preparedness efforts on fire as a weapon have 
centered on what is now known as the ``Mumbai-style attack method.'' In 
early 2009, shortly after the Mumbai attack, New York City fire and 
police began tabletop exercises focused on the use of fire in terrorist 
attacks. The salient features of a Mumbai-style attack include: 
Multiple attackers, targets, and weapon types (guns, explosives, and 
fire) deployed over a prolonged operational period leveraging media 
attention to amplify the effects of the attack.\3\ These factors create 
unique challenges for first responders beginning with the ability to 
quickly and accurately gain situational awareness of the nature and 
extent of the attack, the need for multiple command posts to address 
multiple attack sites, and tactics, techniques, and procedures to deal 
with attacks deploying both fire and other attack modalities, e.g., 
active shooter.
---------------------------------------------------------------------------
    \3\ Fire Department in the city of New York, ``Defining a Mumbai-
style Attack,'' Fireguard, April, 2011.
---------------------------------------------------------------------------
    Fire presents a qualitatively different type of attack when used in 
conjunction with other attack means. Fire, and its associated smoke, 
can prove disorienting to a responding force, inhibit ingress to the 
target, create structural dangers and potentially increase the number 
of casualties that the security forces will encounter while trying to 
resolve the situation. These factors present significant challenges to 
counterterrorism operations.
    To address these complex challenges, the FDNY has reaffirmed its 
relationships with established partners like the NYPD, and forged new 
partnerships that add essential expertise to develop effective 
techniques, tactics, and procedures. The results of these initiatives 
are jointly published intelligence bulletins, forward-looking joint 
exercises, and information exchanges that are pushing response models 
forward.
    Several partnerships are worthy of mention: FDNY began meetings 
with FBI's New York SWAT team to explore the idea of joint tactical 
teams simultaneously facing armed terrorists, fire and smoke, victims 
and mass casualties. Discussions and tabletop exercises led to two 
full-scale exercises that tested this concept. The insights gained from 
this 1-year collaboration with the FBI culminated in the Interagency 
Tactical Response Model released in June 2012.
    In May of last year, FDNY began collaboration with the U.S. 
military's Special Operations Forces that specialize in rapid solutions 
to current and anticipated problems on the battlefield. As with the 
FBI, a series of meetings, training modules, and tabletop exercises led 
to the group's February 2013 ``Red Team'' paper on Fire and Smoke as a 
Weapon, envisioning a Mumbai-style attack in a hypothetical Manhattan 
office building in an attempt to gauge emergency responder preparedness 
related to this novel attack method.
    After the Benghazi attacks, FDNY was leveraged to advise the 
Department of State's Diplomatic Security Service, specifically its 
high-threat response team called the Mobile Security Deployment. 
Diplomatic Service agents were briefed on the most critical features of 
fire as a weapon. Agents were then were put through firefighting 
training at the FDNY training academy, including extrication of 
fortified vehicles and a walk-through exercise of a Mumbai-style 
scenario.
    Finally, the FDNY has worked closely with the London Fire Brigade 
on counterterrorism measures since the 7/7 bombings in 2005. In 
preparation for the 2012 Olympics, FDNY discussed with the London's 
fire service and the Metropolitan Police Service possible response 
scenarios to active-shooter attacks involving fire in multiple 
locations.
       leading role of fdny in national homeland security efforts
    As consumers of intelligence, and the first line of defense when 
terrorist attacks occur, emergency responders require the best 
intelligence to carry out their duties across all mission areas. The 
understanding of the threat environment drives training initiatives, 
general awareness, safety protocols, operating procedures, and risk 
management.
    However, the fire service is more than a consumer of intelligence. 
It is also a producer, as well as a non-traditional intelligence 
partner. Firefighters and emergency medical personnel offer unique 
perspectives to more established intelligence partners and law 
enforcement, adding richness and insights in the understanding of the 
vulnerabilities and consequences related to varying threat streams. For 
more than 5 years, FDNY has produced a weekly intelligence product 
called the Watchline, balancing a strategic focus with operational 
relevance to its primary readership: Emergency responders. Fire service 
intelligence serves not only the response community but its 
intelligence partners with the delivery of tailored intelligence on the 
latest threats, trends, events, and innovations that affect these 
groups, including the use of fire as a weapon on the world stage.
    FDNY has also sent one of its officers to the National 
Counterterrorism Center (NCTC) on a 1-year detail where he not only 
receives the latest intelligence and threat data but he also provides 
the intelligence community with fire service subject matter expertise 
on a broad range of issues related to emergency responders. NCTC has 
committed to provide first responders with the best threat intelligence 
so they can operate safely in performing their life-saving mission, and 
recognizes the intrinsic value of this non-traditional partnership.
    In addition, the FDNY collaborates with other partners throughout 
the intelligence community on the production of intelligence products. 
In May 2012, the Department of Homeland Security Office of Intelligence 
and Analysis released Terrorist Interest in Using Fire as a Weapon, 
written in close consultation with FDNY.\4\ Key findings centered on 
the advantages of using fire over other terrorist tactics, potential 
for mass casualties, economic damage, and emergency resource depletion.
---------------------------------------------------------------------------
    \4\ See attachment for a copy of: Terrorist Interest in Using Fire 
as a Weapon, 2012. [The information has been retained in committee 
files.]
---------------------------------------------------------------------------
    Working with the Department of Defense's Combating Terrorism 
Technical Support Office and New Mexico Tech's Energetic Materials 
Research and Testing Center, the FDNY wants to examine the 
vulnerability of high-rise building fire suppression systems. This 
interagency group hopes to construct a fire protection system and 
building mock-up for the purpose of testing blast effects on standpipes 
and sprinklers. Test results could then be used to inform first 
responders, Homeland Security, and the State Department of the level of 
vulnerability of a combination attack of IEDs and fire.
                               conclusion
    This type of interagency and international collaboration by the 
FDNY demonstrates the importance of multi-agency solutions to these 
complex problems. In an era of ever-constraining resources, it is 
critical that organizations such as the FDNY leverage their expertise 
to support broader audiences as we continue to face a dynamic and 
resilient enemy. The recognition of terrorists' interest in the use of 
fire as a weapon and the resulting complexities are important 
considerations for all first responders and security forces.

    Mr. King. Thank you, Chief Pfeifer. With the other 
witnesses, even though technically it is a 5-minute limit, in 
view of the importance of this, and it is a subcommittee 
hearing, if any of you feel you have to go over for a few 
minutes, there is no problem with that at all. Assume Ranking 
Member's agreement.
    Our next witness is Dr. Christine Fair, an assistant 
professor at the Center for Peace and Security Studies within 
Georgetown University's Edmond A. Walsh School of Foreign 
Service. Previously, Dr. Fair served as a senior political 
scientist with the RAND Corporation, a political officer to the 
U.N. Assistance Mission in Afghanistan, and a senior research 
associate, the Center for Conflict Analysis and Prevention.
    Dr. Fair's research focuses on political and military 
affairs in South Asia, and covers a range of security issues in 
Afghanistan, Bangladesh, India, Pakistan, and Sri Lanka. She is 
a member of the International Institute of Strategic Studies, 
Council on Foreign Relations, and serves on the Editorial Board 
of Studies in Conflict in Terrorism.
    Dr. Fair, welcome you today. Look forward to your 
testimony. Thank you.

  STATEMENT OF C. CHRISTINE FAIR, PH.D., ASSISTANT PROFESSOR, 
                     GEORGETOWN UNIVERSITY

    Ms. Fair. Thank you for the privilege to be here again to 
talk about Lashkar-e-Taiba. I have submitted a written 
testimony. I will also draw your attention to the testimony I 
wrote for this committee 2 years ago, and also one in 2009 for 
the Senate Foreign Affairs Committee, looking at al-Qaeda and 
the Taliban.
    I also want to say, Mr. Chairman, I was incredibly grateful 
for the very lucid comments you offered in your opening 
remarks. I wish that more U.S. Government officials would be as 
candid and perspicacious in identifying the threat that 
Pakistan, the myriad Islamist groups that it supports for its 
internal and external goals, but also would add to that list 
the ISI. So I thank you for your clarity on this issue.
    So I want to pick up upon an issue that you yourself began 
with. Lashkar-e-Taiba now, which generally operates under the 
name Jamaat-ud-Dawa, is the most coherent terrorist 
organization operating in and from Pakistan. It enjoys the 
complete unfettered support, not only of Pakistan's 
intelligence agency, but has even enjoyed at certain periods in 
time, financial support from the Punjab government, which is 
the relevant province in which Jamaat-ud-Dawa is situated, as 
most of its infrastructure is actually there.
    Whereas other terrorist organizations have mobilized to 
target the Pakistani state, LeT/Jamaat-ud-Dawa has never done 
so. It has never conducted any operation as an organization 
within Pakistan. Not only that, it is an important domestic 
tool the Pakistani state uses to counter those terrorist 
organizations that have been operating against Pakistan 
citizens and state targets.
    Many times, American analysts will focus on the external 
utility of this organization. I also look at the domestic 
politics of the organization. It is when you look at the 
domestic politics of the organization that you understand how 
important it is to the state, both as a bulwark against these 
other groups, but it is interesting to the extent to which the 
ISI actually props up Jamaat-ud-Dawa domestically.
    If you look at media coverage of recent humanitarian 
disasters, you will always find coverage of Lashkar-e-Taiba's 
so-called humanitarian work. I have done research on this 
issue. They never do what the media actually says they do.
    The reason why they are given this media campaign is 
because the ISI directly points journalists and so forth to 
cover the very small number of camps. So what we find 
consistently is the ISI is trying to prop up the image of this 
organization.
    The reason why it does this is that it wants to cultivate 
support amongst Pakistanis, then uses that support domestically 
to resist American pressure to do something about the 
organization. Pakistan will consistently say that it is doing 
everything that it can to deal with the terrorist problem. That 
is absolute nonsense.
    I want to draw your attention to a report that I co-
authored under the auspices of the Combating Terrorism Center. 
We analyzed 900 biographies of these LeT operatives.
    Many of them have military backgrounds. We see very close 
linkages between them and the Pakistan army, particularly in 
the areas from which they recruit. The vast majority of the LeT 
operatives are coming from the Punjab, which is where the vast 
majority of the Pakistan army infrastructure is located.
    In my testimony, I actually provide a photograph. I was 
recently an election observer in Pakistan. I was missioned to 
go observe in Murree. As our vehicle was going down the road, I 
happened to see a Jamaat-ud-Dawa sign, and it happened to be 
right across the street from the military police station.
    So that photograph is in the testimony. I also provide a 
link to a video that I took of the same. So this idea that 
there is anything but not only tolerance, but complete 
facilitation of the organization is just--it is untenable from 
any point of view.
    You have also, I am sure, have seen the LeT rallies, Hafiz 
Saeed regularly gives interviews to domestic and foreign media. 
When the Pakistanis say that Jamaat-ud-Dawa's not a terrorist 
organization, again, I point to some of the evidence I provided 
in my testimony.
    I provided photographs of their publications; one, ``We 
Mother of the Lashkar-e-Taiba,'' published by the Jamaat-ud-
Dawa publishing outfit.
    Also, I call your attention to their minimum opus, ``Why 
are We Waging Jihad?'' It is a 35-page document that talks 
about, well, frankly, killing people, so putting to rest many 
of the claims that the Pakistanis make.
    I want to think a little bit about what are the extended 
goals of the organization, given that historically it has 
operated largely within South Asia; although, as the Chairman 
noted, also against Americans and our allies in Afghanistan.
    The biographies that we analyze as a part of the Combating 
Terrorism Center effort, shows that Hafiz Saeed and other LeT 
leadership are deeply involved in selecting people for 
training, for selecting them for additional training, and 
ultimately for missioning them.
    This is very definitely a case of leader-led Jihad. You see 
the militants describing how they have had to lobby to the 
leadership organization to get selected for a training, and to 
ultimately be deployed. So this is a very hands-on tactical 
organization.
    But this also raises interesting questions for the threat 
that they pose to the American homeland. Given that they are so 
tightly allied to the ISI, perhaps the most important asset 
that they enjoy is unfettered access to Pakistan itself, right, 
being able to recruit amongst Pakistanis, being able to raise 
money, being able to train wherever they would like to train in 
Pakistan, without any sort of limitation.
    So this does, for me, raise a question: What would it take 
for LeT to actually conduct an attack here as an organization? 
Now, this is very distinct from individuals who have had ties 
with LeT coming back to conduct violence.
    But for LeT to attack the United States on the homeland, 
this would, in my view, require ISI acquiescence. Now, Pakistan 
likes to cultivate plausible deniability.
    I am a fan of doing everything we can to shut down that 
plausible deniability by explaining to the ISI, and quite 
frankly to other Pakistani organizations and the citizenry, 
that if there is an LeT attack here, we will treat it as an act 
of war.
    I don't understand why we indulge the space that Pakistan 
uses for plausible deniability. It does this deliberately.
    So for example--I am sure Dr. Tankel can speak to this as 
well--the Indian Mujahedeen is a proxy organization for 
Lashkar-e-Taiba, so that when the Indian Mujahedeen conduct 
attacks, as those described by Mr. Pfeifer, the Pakistani state 
can put an additional layer of buffer between it and those 
attacks.
    I think we need to do whatever we can, using our tools of 
foreign policy, to really restrict that scope for plausible 
deniability.
    I also am not convinced that LeT can recruit a Pakistani 
with the necessary skills to come here and conduct that sort of 
attack, and getting a visa, for example. However, the Diaspora, 
this is the place where I think we are really most at risk, 
this is also, I think, where the American Government has a lot 
farther to go in terms of the different agency databases that 
allow us to identify and apprehend a potential perpetrator once 
they are here.
    We know the story, the 9/11 bombers either should never 
have gotten a visa, or once they were here, they should have 
been picked up. But the different databases don't talk to each 
other.
    Unfortunately, I fear this is still very much the case. In 
2006 when I was conducting fieldwork in Pakistan on madrassas, 
I came across two Americans, American-Pakistanis from Atlanta, 
that were there held against their will.
    Now obviously, they are a prime target for any sort of 
organization wishing to conduct violence on the United States, 
because they are American citizens. When I came back and 
discussed this matter, I learned that CIA, FBI, the State 
Department, there was no organization that owned responsibility 
for understanding that these people were in Pakistan.
    So if they had been recruited, the only chance of our being 
able to preempt any sort of nefarious designs, would have been 
is if when they were coming through the airport, Border 
Security Police would have detected something. So I do remain 
very fearful that the Diaspora is a source of really important 
human capital that this organization may leverage to harm us.
    I would also like to put out there on the table that we 
kind of consider a larger aperture. Pakistan hosts so many 
militant organizations. Because LeT conducted the Mumbai 
attack, it is very easy to really isolate our attention to that 
particular organization.
    The militant landscape in Pakistan is rapidly evolving. One 
of the consequences of the last 11 years in the war in 
Afghanistan is that groups that were once very parochial have 
become much more globalized. In the same way that the LeT could 
allure or lure in someone from the Diaspora--by the way, I 
don't simply mean American Diaspora. I also mean the European 
Diaspora--or really any country that can have ready access to 
the United States, so can these other groups.
    So I think it is important that while we talk about LeT 
because it is so closely allied to the state, that we also 
remember that it is not the only organization that Pakistan 
deliberately patronizes. So consequently, all of these groups 
in one way or another do pose some potential, particularly when 
interlaced with the Diaspora.
    I would also like to say--I say this somewhat cautiously--
it is not just the militant groups that harm us. The ISI 
operates here. I have detailed some of my own experiences with 
being harassed by the ISI in my testimony.
    I am happy to discuss this. It is, as an American citizen, 
is absolutely outrageous that the ISI intimidates and harasses 
individuals here. I elaborated several situations in my written 
testimony.
    I would also like to put on the table the other concern. We 
are here because we are talking about Lashkar-e-Taiba. But 
times are also changing. There are myriad other kinds of 
organizations of different ideologies that also seek to 
threaten us.
    I have been very dismayed at the inability to have any 
sensible discussion about gun control. I tell my students in my 
class it is actually quite miraculous that these terrorists are 
so obsessed with things like suicide bombing, when they could 
actually be more destructive by availing themselves of the 
munitions available at most Walmarts.
    Yet, we are completely unable to have a discussion about 
gun control in this country. So in some sense, we have just 
been lucky that terrorist organizations haven't decided to 
avail themselves of that particular hole in our domestic 
security.
    So in conclusion, I would like to sort of wrap up by going 
back to Pakistan. I was quite shocked to hear that Secretary 
Kerry again issued a waiver so that all of the various kinds of 
defense cooperation sales could continue to Pakistan 
unfettered.
    I was also surprised that no American news outlet covered 
this. I understand why we need to continue acquiescing to 
Pakistan's coercive demands. But after 2014 when we are no 
longer, you know, basically dependent upon Pakistan, I really 
hope that this chamber, as well as other elements of the U.S. 
Government, will take up a very invigorated, honest, data-
driven assessment of what Pakistan has been.
    It has taken billions of dollars. It has killed our troops. 
It continues to use jihadists under its expanding nuclear 
umbrella as its primary tool of foreign policy. Clearly, this 
policy of financial allurement in conventional weapons, has not 
made Pakistan in any way, shape, or form, more compliant with 
the sorts of things that advance American interests.
    So I encourage you, after 2014, when our dependence upon 
Pakistan diminishes as we withdraw from Afghanistan, that we 
really take another look at this country, and really view it I 
think more in the light of what it is. It has been more of an 
enemy than it has been a friend. Thank you.
    [The prepared statement of Ms. Fair follows:]
                Prepared Statement of C. Christine Fair
                             June 12, 2013
                              introduction
    Thank you for the privilege of sharing my assessment of the risks 
that groups like Lashkar-e-Taiba pose to the American homeland. In 
doing so, I will present a brief update on the organization and its 
likely evolving intentions and capabilities. However, I will also 
encourage you to consider other Pakistan-based terrorist organizations 
as well as the activities of Pakistan's intelligence agency, the ISI, 
here in the United States.
    While Islamist groups continue to pose an undeniable threat, it is 
also important to acknowledge the reality that groups of other 
ideologies and religious commitments also seek to commit violence in 
this country and have done so.\1\ Unfortunately, any terrorist 
organization can easily avail of the permissive environment to obtain 
any range of guns and munitions. In fact, it is surprising that 
terrorist organizations have not perpetrated a Mumbai-like attack given 
that the United States routinely experiences mass killings by lone 
shooters.
---------------------------------------------------------------------------
    \1\ Peter Bergan and Jennifer Rowland, ``Right Wing Extremist 
Terrorism As Deadly a Threat as Al Qaeda?'' CNN.com, August 8, 2012. 
http://www.cnn.com/2012/08/07/opinion/bergen-terrorism-wisconsin.
---------------------------------------------------------------------------
    Returning to Pakistan, as 2014 nears and as the United States 
becomes less dependent upon Pakistan for operations in Afghanistan, I 
hope that that the U.S. Government will seriously consider its options 
with respect to Pakistan. The policy of appeasement through financial 
allurements and conventional military sales has not made Pakistan more 
likely to give up its reliance upon Islamist militants under its ever-
expanding nuclear umbrella. It is difficult to escape the conclusion 
that Pakistan's intelligence agency is responsible for many deaths of 
Americans and our allies in Afghanistan, despite the massive assistance 
the Pakistanis have received ostensibly to support the U.S.-led war on 
terrorism in Afghanistan and beyond. The realities of the past decade 
should be a wake-up call that a new policy is required to contend with 
the threats that Pakistan poses and will pose.
                    lashkar-e-taiba: a brief update
    Lashkar-e-Taiba (LeT), which generally now operates under the name 
Jamaat-ud-Dawa (JuD), is the most organized and coherent terrorist 
organization operating from Pakistan. (For an extensive background on 
the organization and its history of high-profile attacks, see author's 
previous prepared testimony.)\2\ LeT has never attacked any targets 
within the state of Pakistan and has consistently been an ideological 
weapon of Pakistan's government against the largely Deobandi groups (a 
rival Islamist interpretive tradition to that of LeT) that have been 
terrorizing the state and its citizens.\3\ Pakistan's media has 
recently reported that LeT, along with another pro-state militant group 
``Ansarul Islam,'' is about to begin confronting the Pakistani Taliban 
(Tehreek-e-Taliban-Pakistan, or TTP) with violence, The LeT disputes 
this claim, however.\4\ What is not in dispute is that the LeT 
denounces violence committed against the Pakistani state or its 
citizens and criticizes the Deobandi organizations for doing just 
that.\5\
---------------------------------------------------------------------------
    \2\ Please see previous author testimony for a detailed description 
of the organization and the Mumbai 2008 attack. C. Christine Fair, 
``Lashkar-e-Taiba beyond Bin Laden: Enduring Challenges for the Region 
and the International Community.'' Testimony prepared for the U.S. 
Senate, Foreign Relations Committee Hearing on ``Al-Qaeda, the Taliban, 
and Other Extremist Groups in Afghanistan and Pakistan,'' May 24, 2011. 
http://www.foreign.senate.gov/imo/media/doc/Fair_Testimony.pdf; C. 
Christine Fair, ``Antecedents and Implications of the November 2008 
Lashkar-e-Taiba (LeT) Attack Upon Several Targets in the Indian Mega-
City of Mumbai,'' Testimony prepred for the U.S. House of 
Representatives, Homeland Security Committee, Subcommittee on 
Transportation Security and Infrastructure Protection on Mar 11, 2009. 
http://home.comcast.net/christine_fair/pubs/CT-320_Christine_Fair.pdf.
    \3\ C. Christine Fair, ``Lashkar-e-Tayiba and the Pakistani 
State,'' Survival, Vol. 53, No. 4 (August 2011), pp. 1-23.
    \4\ Tahir Khan, ``Cracks appear: TTP braces against militant 
offensive in Mohmand ,'' Pakistan Express Tribune, June 8, 2013. 
tribune.com.pk/story/560674/cracks-appear-ttp-braces-against-militant-
offensive-in-mohmand/.
    \5\ Fair, ``Lashkar-e-Tayiba and the Pakistani State.''
---------------------------------------------------------------------------
    To facilitate LeT's pro-state message countering that of the 
various Deobandi organizations operating in Pakistan and against 
Pakistanis (e.g. Lashkar-e-Jhangvi and the Pakistani Taliban), 
Pakistan's Ministry of Information and the armed force's Interservices 
Public Relations appear to direct Pakistani and international media to 
cover the ostensible relief efforts of JuD and its other alias, Falah 
Insaniat Foundation (e.g. during Pakistan's 2005 earthquake and the 
2010 monsoon-related flood). The media coverage of this humanitarian 
work seemed far in excess of the actual relief activities conducted. 
Subsequent research has shown that the organization did not provide the 
relief that the various media proclaimed.\6\ In essence, this media 
coverage handed the organization a public relations boon they did not 
deserve.
---------------------------------------------------------------------------
    \6\ C. Christine Fair, ``Not at the Forefront of Flood Relief,'' 
ForeignPolicy.com, September 20, 2010. http://afpak.foreignpolicy.com/
posts/2010/09/20/not_at_the_forefront_of_flood_- relief.
---------------------------------------------------------------------------
    In survey work that my colleagues and I have conducted in Pakistan, 
we have found that the various state and non-state efforts to rebrand 
LeT as JuD in Pakistan have been successful. During survey pretesting 
in Pakistan in 2011, we found that Pakistani respondents viewed the two 
organizations as being quite distinct and engaging in different 
activities with the latter being seen more often as providing public 
services.
    As I argued in 2011, this strategy is important. By fostering 
public support for the organization at home, the Pakistani state can 
resist pressure from the United States and others to work against the 
organization.\7\ Under these varied guises, LeT/JuD can continue to 
recruit, raise funds, and support its message of jihad against the 
``external kuffar'' such as the Indians, Americans, Israelis, and so 
forth.\8\ The continued official investment in the organization and 
expanding public presence suggests that the Pakistani state is ever 
more dependent upon this proxy for both domestic and foreign policy 
requirements.
---------------------------------------------------------------------------
    \7\ Fair, ``Lashkar-e-Tayiba and the Pakistani State.''
    \8\ Fair, ``Lashkar-e-Tayiba and the Pakistani State.''
---------------------------------------------------------------------------
    It is important to understand that whereas in some countries 
terrorist organizations arise for a myriad of largely exogenous 
reasons, in Pakistan militant organizations have long been organized 
with the active assistance of the state. In fact, this phenomenon began 
in the earliest days of Pakistan's independence when various parts of 
the provincial and federal governments supported tribal militias in 
their invasion of India in order to seize Kashmir with support from the 
Pakistan army.\9\ Pakistan continues to rely upon Islamist terrorism 
under the security of expanding nuclear umbrella to prosecute its 
foreign policies with increasing impunity. Equally disconcerting for 
U.S. interests, Pakistan is busily expanding its nuclear arsenal with a 
renewed focused upon tactical--battlefield--nuclear weapons.\10\
---------------------------------------------------------------------------
    \9\ See Shuja Nawaz, ``Crossed Swords: Pakistan, Its Army, and the 
Wars Within'' (New York: Oxford University Press, 2008), especially 42-
92; Shuja Nawaz, ``The First Kashmir War Revisited,'' India Review 7, 
no. 2 (April 2008): 115-54; Praveen Swami, India, Pakistan and the 
Secret Jihad: The Covert War in Kashmir, 1947-2004 (London: Routledge, 
2007), 49-75.
    \10\ David O. Smith, ``The US Experience with Tactical Nuclear 
Weapons: Lessons for South Asia,'' The Stimson Center, March 2013. 
http://www.stimson.org/summaries/smith-on-tactical-nuclear-weapons-in-
south-asia-/.
---------------------------------------------------------------------------
    While media accounts characterize LeT activists as being poor and 
poorly educated, the data do not support this claim. In an April 2013 
report which I co-authored under the auspices of the Combatting 
Terrorism Center (CTC) at West Point, my colleagues and I found that 
LeT activists tend to be very well-educated relative to Pakistani males 
in general.\11\ Most of the LeT terrorists in our database came from 
Pakistan's Punjab province with about ten districts accounting for most 
of the recruitment. As shown in Figure 1 below, not only do most of the 
LeT activists come from the Punjab, many of the highest-producing 
districts for militants are also the highest-producing districts for 
the Pakistan army. This likely reflects that the two organizations have 
similar human capital requirements and thus have similar ``target 
markets'' for recruitment.
---------------------------------------------------------------------------
    \11\ Don Rassler, Christine Fair, Anirban Ghosh, Arif Jamal, Nadia 
Shoeb, ``The Fighters of Lashkar-e-Taiba: Recruitment, Training, 
Deployment and Death,'' Combatting Terrorism Center at West Point, 
Occasional Paper Series, Apr 04, 2013. http://www.ctc.usma.edu/wp-
content/uploads/2013/04/Fighters-of-LeT_Final.pdf
---------------------------------------------------------------------------
    That LeT militants and the army officers come from similar 
districts is an important point. Whereas Pakistan routinely claims that 
it cannot manage the various terrorist problems it confronts, it should 
be noted that much of the LeT is based in the Punjab which is also 
where the vast majority of the Pakistan army's infrastructure is 
located: I Corps is in Mangla; II Corps is in Multan; IV Corps is in 
Lahore; XXX Corps is in Gujranwala; XXXI Corps is in Bahawalpur; and X 
Corps is in Rawalpindi. Only three Corps are located outside of the 
Punjab: V Corps in Karachi; XI Corps in Peshawar and XII Corps in 
Quetta. Equally, it should be noted that in the past, the Punjab 
government provided financial support to the organization.\12\ Taken 
together, Pakistan's claims that it is doing all that it can to counter 
these myriad threats are risible at best if not outright deception.
---------------------------------------------------------------------------
    \12\ Human Imtiaz, ``Illusions in Punjabi,'' ForeignPolicy.com Af-
Pak Channel, June 19, 2010. http://afpak.foreignpolicy.com/posts/2010/
06/19/illusions_in_punjab.
---------------------------------------------------------------------------
    In addition, LeT/JuD organization operates overtly: It holds 
rallies and anti-U.S. demonstrations, collects funds, and its leader 
(Hafez Saeed) frequently gives interviews to local and international 
media outlets. To give some sense of how openly it operates, in Figure 
2, I provide photographs that I took in the hill station town of 
Murree, about 1.5 hours from Islamabad by road, in May of 2013. I 
happened to be in Murree as a part of an election observation mission 
and noticed this while driving by. You will note that this 
advertisement for JuD is festooned across a set of buildings 
immediately in front of a military police station.
    The Pakistan government insists that JuD is a philanthropic 
organization and thus U.S. claims that it is a terrorist organization 
are false. However, this claim is patently absurd. The afore-noted CTC 
report is based upon a collection and subsequent analysis of over 900 
biographies of slain terrorists. We obtained these biographies from 
magazines and books published by Jamaat-ud-Dawa's publishing arm, Dara-
ul-Andalus at the LeT's headquarters in Lahore, Char Burji (Figure 3). 
In addition, in Figure 4, I provide a scanned image of JuD's volume Hum 
Kyon Jihad Kar Rahen Hain (Why We Wage Jihad?). A perusal of the volume 
will demonstrate that this is indeed about waging militarized jihad and 
dedicates no space whatsoever to ``philanthropic activities.''\13\ 
These publications are readily available throughout Pakistan.
---------------------------------------------------------------------------
    \13\ See exposition in Fair, ``Lashkar-e-Tayiba and the Pakistani 
State.''
---------------------------------------------------------------------------
    In addition, the organization has signage on public spaces (walls, 
bridges, rickshaws, etc.) advertising for events and campaigns.
                    lashkar-e-taiba: expanded goals?
    So far, we find continuing evidence that LeT's leadership exercises 
considerable control over the organization's operations and operatives. 
Our CTC effort revealed that LeT's leadership has often been intimately 
involved in selecting persons for training and for actual missions.\14\ 
What does this tell us, if anything, about LeT's desire to attack the 
homeland and if so, how could it do so?
---------------------------------------------------------------------------
    \14\ Rassler, Fair, Ghosh, Jamal, and Shoeb, ``The Fighters of 
Lashkar-e-Taiba.''
---------------------------------------------------------------------------
    As I argued in 2011, the LeT's primary utility to the Pakistani 
state is that it services its external goals in India and Afghanistan 
while remaining restrained and pro-state at home. This does not mean 
that all LeT activists have towed the party line: Indeed, it seems as 
if there is personnel movement between various militant groups. Thus 
some LeT personnel may defect and join other groups but this does not 
mean that the group is no longer loyal to the state. But it does raise 
definitional problems about who is a LeT member and what degree of 
sanction from the organization is necessary to define any given strike 
as a ``LeT attack.'' This raises further questions about how tightly 
Pakistan's military and intelligence agencies control all or even most 
of the organization's operations. Indeed, the Pakistani state has long 
benefited from plausible deniability and seems to even actively 
cultivate this. For example, Indian and American analysts alike believe 
that the Pakistani intelligence agencies have cultivated the Indian 
Mujahideen for years to add an additional layer of plausible 
deniability about the degree to which the Pakistani state is involved 
in any given attack in India.
    However, though the organization serves the state's domestic goals 
by mobilizing against groups that perpetrate anti-Pakistan violence, 
and serves the external goals of the state abroad, LeT walks a fine 
line between being a loyal agent of the state and being able to project 
itself as an organization with global jihadist goals against a presumed 
threat beyond South Asia. It--like other jihad organizations--has come 
under increasing pressure from its constituents to take the jihad to 
other infidels (kuffar in their language) beyond the confines of South 
Asia. How can the organization continue to satisfy its Pakistani state 
backers while also continue to compete for personnel, resources, and 
popular support without satisfying some demand to operate beyond South 
Asia?
    As a rational organization, I do not believe that the LeT would 
undertake a catastrophic attack outside of India or Afghanistan without 
ISI acquiescence. After all, the most important asset that the LeT 
enjoys is unfettered access to Pakistan's geography and people. This 
does suggest that some theatres of action for the LeT may be more 
palatable than others for international jihad. Both the United States 
and United Kingdom are of high value for the Pakistani state. An LeT 
attack in the United States could be devastating for Pakistan and thus 
the organization. However, other theatres such as European countries, 
may satisfy the organization's need to strike outside of the region 
while not being so provocative as to jeopardize the perquisites it 
enjoys in Pakistan. This does not preclude individuals with some degree 
of training from LeT from attempting such an attack however without 
explicit top-level organizational approval much less that of the ISI.
              thinking beyond let: threats to the homeland
    Irrespective of whether the threat comes from LeT or other 
organizations, there are a number of important risks that require 
political courage and preparedness to manage. We should recognize what 
made the Mumbai attack of 2008 as devastating as it was. As I have 
argued previously in Congressional testimony, there was little in that 
attack that was new. In addition, the U.S. Government provided India as 
much advanced warning as possible.\15\ While the Indian government 
responded as best as it could, the overwhelming evidence suggests that 
their state and federal efforts fell far short of what was needed.\16\ 
The National Security Guards took 9 hours to reach Mumbai and then had 
to travel by bus to the sites of the conflict.\17\ The security forces 
had antiquated weapons and personal protective equipment and the law 
enforcement personnel abjectly failed to secure the perimeter of the 
crime scene, among numerous other catastrophic failures detailed 
elsewhere.\18\ It is unlikely that American first responders would be 
so hindered and shambolic in their response, based upon recent 
management of disasters and terrorist attacks, most recently in Boston.
---------------------------------------------------------------------------
    \15\ Fair, ``Lashkar-e-Taiba beyond Bin Laden;'' Fair, 
``Antecedents and Implications of the November 2008 Lashkar-e-Taiba 
(LeT) Attack.''
    \16\ C. Christine Fair, ``Prospects for Effective Internal Security 
Reforms in India,'' Commonwealth & Comparative Politics, Vol. 50, No. 2 
(April 2012), pp. 145-170; Pradhan Committee. Report of the High Level 
Enquiry Committee (HLEC) on 26/11, 2009. http://www.scribd.com/doc/
23474630/Pradhan-Committee-Reportabout-26-11 (accessed 19 January 
2012).
    \17\ ``Why did NSG take 9 hrs to get there?'' Times of India, 
November 30, 2008. http://timesofindia.indiatimes.com/
Why_did_NSG_take_9_hrs_to_get_there/articleshow/3775003.cms.
    \18\ C. Christine Fair, ``Prospects for Effective Internal Security 
Reforms in India,'' Commonwealth & Comparative Politics, Vol. 50, No. 2 
(April 2012), pp. 145-170; Pradhan Committee. Report of the High Level 
Enquiry Committee (HLEC) on 26/11, 2009. http://www.scribd.com/doc/
23474630/Pradhan-Committee-Report-about-26-11 (accessed 19 January 
2012).
---------------------------------------------------------------------------
    However, other challenges to American security no doubt persist. It 
is a sad fact that most of the 9/11 hijackers either should never have 
been granted a U.S. visa or should have been picked up by an array of 
U.S. authorities for various other reasons once here. But, as is well 
known, they all fell through inter-agency data sieves that allowed them 
to enter and remain in the United States despite being identified as 
threats for various reasons. (Questions still linger about the degree 
of information provided to the United States by the Russians about 
Tamerlan Tsarnaev, the older of the two Boston bombers who was killed 
in a police shootout.) While the United States has made progress in 
this regard, there are still important loopholes that concern me.
    It is unlikely that LeT can recruit, train, and dispatch a 
terrorist directly to the United States; it is more likely that 
individuals from various diasporas in the United States, United 
Kingdom, Europe, and elsewhere may radicalize and seek training from 
the LeT or other numerous militant groups operating in Pakistan. 
American citizens or permanent residents are a particular risk. During 
fieldwork in 2006, I met two American children at a Karachi madrassah 
being held against their will. When I returned to the United States I 
was dismayed to learn that no U.S. agency had any responsibility for 
such Americans in such predicaments. Had those individuals been 
recruited by a militant organization, the only point at which they 
could have been intercepted was at the point of entry when they 
returned to the United States. (After the media broke their story, 
these two Atlanta-based Pakistani-Americans finally returned home.) 
Needless to say, persons from countries that can obtain American visas 
easily pose a similar concern.
    In the context of an Islamist militant attack, the communities of 
concern are diaspora Muslim communities who radicalize at home and seek 
training in places like Pakistan, Yemen, Somalia, or elsewhere. It is 
important that U.S. authorities be able to recognize that certain 
communities pose more risk than others but it also important that they 
do so in ways that do not alienate the most important allies in this 
struggle: Those members of the same community who outnumber those who 
seek to do violence and who remain important sources of warning about 
potential terrorist activity. The diverse American Muslim community is 
replete with such examples of patriotic Muslim Americans who have 
cooperated with law enforcement to undermine terrorist plots.
    Local sources of information have been found to be critical in 
preventing terrorist events in the United States. Erik J. Dahl studied 
176 failed terrorist plots in the United States. He concluded that 
``precise intelligence needed to prevent attacks is not usually 
developed through the use of strategic-level tactics that get much of 
the public's attention . . . More typically, plots are disrupted as a 
result of tips from the public, informants inside home-grown cells, and 
long-term surveillance of suspects.''\19\ This suggests that the most 
important thing that U.S. agencies can do is ``focus on local and 
domestic intelligence, and to figure out how to gather the necessary 
intelligence while still maintaining the proper balance between civil 
liberties and national security.''\20\
---------------------------------------------------------------------------
    \19\ Erik J. Dahl, ``The Plots that Failed: Intelligence Lessons 
Learned from Unsuccessful Terrorist Attacks Against the United 
States,'' Studies in Conflict and Terrorism, Vol. 34, No. 8 (2011): p. 
635.
    \20\ Erik J. Dahl, ``The Plots that Failed: Intelligence Lessons 
Learned from Unsuccessful Terrorist Attacks Against the United 
States,'' Studies in Conflict and Terrorism, Vol. 34, No. 8 (2011): p. 
635.
---------------------------------------------------------------------------
    While much concern has been given to the threat that Pakistan's 
militant training infrastructure poses, research has shown that simply 
being trained by a terrorist organization in places like Pakistan does 
not necessarily confirm competence to the actors. A recent study of 
Islamist terrorists in the United Kingdom and Spain found that they 
lacked tradecraft and that the training they received did not translate 
well to the target countries. While terrorists in Pakistan can practice 
their craft, once in these environs (e.g. Britain, Spain, etc.) they 
were unable to continue ``learning by doing.'' Often their ideological 
zeal motivated them to focus upon more sophisticated attacks (e.g. 
suicide attacks) and thus fail to seize the opportunity for lower-
sophistication/higher-impact attacks.\21\ This again underscores the 
importance of cultivating local information while not alienating much 
less criminalizing the entire communities in which these terrorists may 
insert themselves.
---------------------------------------------------------------------------
    \21\ Michael Kenney, `` `Dumb' Yet Deadly: Local Knowledge and Poor 
Tradecraft Among Islamist Militants in Britain and Spain,'' Studies in 
Conflict and Terrorism, Vol. 33, No. 10 (2010): pp. 911-932.
---------------------------------------------------------------------------
    It should be stated forthrightly that Pakistan-based militants are 
not the only organizations that pose harm to Americans at home and 
abroad. Pakistan's intelligence, the ISI, has the ability to influence 
events here in the United States. My colleagues, peers, and journalist 
acquaintances suggest that this takes place through various means. 
First, the ISI wields influence by supporting individuals and 
organizations directly and indirectly in taking positions that are 
supportive of that of the Pakistan government.\22\
---------------------------------------------------------------------------
    \22\ For example, see the case of accused ISI operative Gulab Nabi 
Fai. U.S. Department of Justice, ``Virginia Man Pleads Guilty in Scheme 
to Conceal Pakistan Government Funding for His U.S. Lobbying Efforts,'' 
December 07, 2011. http://www.fbi.gov/washingtondc/press-releases/2011/
virginia-man-pleads-guilty-in-scheme-to-conceal-pakistan-government-
funding-for-his-u.s.-lobbying-efforts.
---------------------------------------------------------------------------
    Second, the ISI wields influence by threatening U.S. citizens here 
in the United States. In fact, in May 2011, after I testified on LeT 
before a Senate subcommittee, I received an email that likely was sent 
at the behest of a Pakistani intelligence agency. After receiving this 
note, I reached out to Ambassador Husain Haqqani because I had planned 
to avail of a grant I had received to work on my book in Pakistan 
during the summer of 2011. When at last he could contact me about this, 
he told me forthrightly that I should cancel my trip because ``the crew 
cuts are after'' me. In addition, I learned that the then-defense 
attache and ISI liaison (Brigadier Butt) sent a letter about me to 
personnel at the Pakistan embassy barring them from meeting with me. 
This gives some sense of the punitive approaches that this organization 
takes when it does not approve of one's scholarship on it and/or its 
proxies.
    I have heard disconcerting reports among expatriate Pakistanis that 
they or Pakistani-Americans have been intimidated. A few weeks back I 
heard a harrowing story about a New York journalist who was reportedly 
approached by such a man while on the subway platform. Reportedly, he 
told her in Urdu that he could easily push her. Obviously, I have no 
way to confirm or disconfirm this episode. However, I want to bring to 
your attention that very real possibility that individuals are being 
threatened and coerced here on American soil.
    This is in addition to the intrusive role that the ISI plays in 
granting U.S. citizens visas to Pakistan. U.S. scholars receiving 
Fulbright awards cannot get visas, reportedly due to ISI intrusions. (I 
also experienced this ISI interference before and even during my recent 
trip to Pakistan in May 2013. The previous Ambassador communicated to 
me that ``they have an objection'' due my co-authored report for the 
CTC and because of my public commentary about drones.) Of course, it is 
not unusual to oust foreign journalists from Pakistan--not because they 
have conducted themselves illegally--but because they report the truth, 
which is often unflattering and contributes to evolving public 
perception in the United States and elsewhere that Pakistan is at best 
a perfidious ally if not outright foe.\23\
---------------------------------------------------------------------------
    \23\ Expelled by Pakistan, The New York Times, May 10, 2013. http:/
/www.nytimes.com/2013/05/11/opinion/times-reporter-expelled-by-
pakistan.html.
---------------------------------------------------------------------------
    While these threats from Islamist terrorist and perfidious allies 
like Pakistan warrant your focus, it is critically important that the 
U.S. Government recognize the changing times our country's polity 
confronts. There a range of other religious and ideological movements 
which harbor a desire to inflict harm upon the United States and its 
citizens. It is important to balance what appears to be the perceived 
current threat with evolving near-term threats. Indeed, white 
supremacist, anti-Muslim, those who oppose even the most commonsensical 
of gun control and other bigoted organizations also threaten our 
society and have engaged in violence in recent years. The focus upon 
Islamist terrorist should not be at the expense of these other threats.
    In fact, given that individuals frequently perpetrate mass killings 
with easily-obtained guns and ammunition, it is a surprising fact that 
terrorist organizations of any ideological and religious moorings have 
not exploited this weakness in our domestic security. Just as it is 
important that the U.S. Government forthrightly name the groups that 
threaten us, it must also work to limit the harm that these groups can 
do. It is only a matter of time before a terrorist organization--of any 
ideological or religious background--understands that it can easily 
terrorize Americans by perpetrating mass killings at soft targets using 
munitions that are easily and readily available. It is unfortunate that 
various gun lobbies have worked assiduously to undermine common-sense 
approaches to circumscribing this threat and have successfully 
frustrated any Congressional activity to limit certain types of weapons 
and munitions in the service of protecting our collective security.
                              conclusions
    In short, while you consider the specific threat that LeT poses to 
the United States and its interests, I encourage you to expand the 
aperture of your query to look not only at this group but other 
Islamist militant groups based in Pakistan. While they may not be well-
situated to recruit and train a Pakistani to operate here, the diaspora 
seems a ready source of potential persons who are so situated. I also 
encourage you to look pro-actively at the activities of the ISI and its 
henchpersons here in the United States to intimidate Americans and 
others to acquiesce to their insidious demands and to cultivate 
information that is favorable to the Pakistani state.
    While most persons recognize that working with Pakistan is 
necessary due to its importance in wrapping up military operations in 
Afghanistan, I sincerely hope that after 2014 the United States will 
look very closely at Pakistan and evaluate that state's contribution to 
the degradation of U.S. security interests in South Asia and beyond. I 
hope that there will be a serious inquiry about the numbers of 
Americans and American allies in Afghanistan whose deaths and injuries 
can be attributed to the ISI's on-going support to the Taliban and 
their allies, despite continuing to benefit from U.S. financial 
assistance and military sales. In this regard, I was dismayed to learn 
that the State Department quietly issued a range of waivers that 
permitted all forms of security cooperation and military sales to 
proceed as if Pakistan has been a faithful, cooperative ally deserving 
of such emoluments.\24\ Oddly no American news outlet covered this 
quiet relaxation of U.S. laws and requirements for a country that so 
brazenly undermines U.S. interests.
---------------------------------------------------------------------------
    \24\ ``US issues fresh waiver for sale of major defence equipment 
to Pakistan,'' Times of India, April 5, 2013. http://
articles.timesofindia.indiatimes.com/2013-04-05/us/38306243_1_defence-
equipment-foreign-military-financing-pakistan.
---------------------------------------------------------------------------
    Finally, while considering the threat that specific religious, 
ideological, and expatriate communities pose to Americans' safety, I 
strongly urge you to examine the structural features of our society 
that makes violence relatively easy to perpetrate on a large scale, 
including the ready availability of weaponry as well as continued 
problems in the inter-agency data puzzle that allow some persons with 
ill-intent to slip into the country without detection until they do 
something deadly.
 figure 1. district-wise production of let militants and pakistan army 
                               officers 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  figure 2. jamaat-ud-dawa advertisement across from murree military 
                            police station 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 figure 3. jud/let's ``we the mothers of the lashkar-e-taiba vol. 3'' 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        figure 4. jamaat-ud-dawa's ``why are we waging jihad'' 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. King. Thank you, Doctor. Appreciate your testimony. I 
am aware of some of the circumstances you talk about. I commend 
you for that.
    Dr. Stephen Tankel is an assistant professor at American 
University, and a non-resident scholar in the South Asia 
program at the Carnegie Endowment for International Peace. His 
research focuses on terrorism, insurgency, and evolution of 
violent non-state actors, also as political and military 
affairs in South Asia.
    Dr. Tankel is also an adjunct staff member at the RAND 
Corporation where he has contributed to research assessing 
jihadist ideology and decision making. His latest book, 
``Storming the World Stage: The Story of LeT'' was recently 
published and examines that group's ideological, strategic, and 
operational evolution since the 1980's within the context of 
developments in Pakistan, India, and Afghanistan.
    Doctor, I appreciate you being here today and you are 
recognized for your testimony.

   STATEMENT OF STEPHEN TANKEL, PH.D., ASSISTANT PROFESSOR, 
                      AMERICAN UNIVERSITY

    Mr. Tankel. Thank you very much for having me here today. 
It is an honor to have an opportunity to testify about Lashkar-
e-Taiba, one of Pakistan's oldest and most powerful militant 
groups. I too would draw your attention to my submitted written 
testimony, as well as to testimony that I submitted several 
years ago about LeT. I would also like, Mr. Chairman, to join 
Dr. Fair in commending you for very lucid comments about some 
of the group's capabilities, which are robust.
    Now as Dr. Fair said, and you yourself have said as well, 
Mr. Chairman, Lashkar-e-Taiba is Pakistan's most reliable 
proxy, and it considers India to be its main enemy.
    It is not an al-Qaeda affiliate, but since 9/11 the group's 
anti-American rhetoric has turned into action. The primary 
threat to U.S. citizens from LeT terrorist attacks, I would 
argue, remains in South Asia, such as occurred with the 2008 
Mumbai attacks. Those were unilateral. Also working with groups 
like the Indian Mujaheddin to target foreign targets as 
occurred in Pune in 2010 where they combined to target the 
German bakery there. LeT can also act as part of a consortium, 
meaning it need not take a lead role in order for its 
capabilities to be used against the United States, as Dr. Fair 
has already said, there are myriad groups in Pakistan whose 
goals are expanding.
    In keeping with the subject of this hearing, I would like 
to focus my testimony on an LeT-led operation against the 
homeland, which could, but would not necessarily look like the 
Mumbai attacks. It certainly has the capabilities to launch 
such an attack, and I will focus the first part of my testimony 
just expanding on those briefly. Its intent to do so is hotly 
debated. I will focus the second part of my testimony on the 
group's intent. Then finally I would like to highlight just 
several courses of possible U.S. action.
    LeT's training camps remain open and the group boasts a 
stable of men who can provide instruction in small unit 
commando tactics, reconnaissance, which is critical, the 
construction and use of explosive devices, as well as a bevy of 
other specialized skills. While it continues to enjoy reach-
back capability into the Pakistani military and ISI, it has 
leveraged financial resources and the operational freedom it 
enjoys to develop an educated product that amplifies technical 
training and planning capabilities, especially in the areas of 
communications and information technology.
    Mr. Chairman as you mentioned, the group has trans-national 
network sections across South Asia, the Persian Gulf, and 
Europe and that reach into the United States and Canada. 
Historically Lashkar-e-Taiba has used its operative base in 
western countries to support its operations in South Asia. 
However, these networks can be redirected to execute or support 
terrorist attacks in the west. There are several examples of 
foreign LeT operatives doing so. It is unclear whether all of 
these activities were sanctioned by the Pakistan-based LeT 
leadership. Which gets to the importance of tensions within the 
group, and the ability for its capabilities to be used by 
various LeT factions.
    Finally, as was already mentioned, LeT has a long history 
of training people from Western countries including Americans, 
several of whom have conducted surveillance not far from here. 
Lashkar-e-Taiba has killed American citizens in Mumbai. It 
deploys fighters to Afghanistan where they continue to confront 
U.S. forces, and it previously sent members to Iraq as well. 
There is no evidence that it has ever attempted an attack 
against the U.S. homeland. The question is, what is stopping 
them?
    LeT's restraint has more to do, I would argue, with 
strategic calculation than ideological inclination. 
Ideologically it would be more than prepared to attack the 
United States. But it does not want to risk its position in 
Pakistan. As one of its members admitted to me, it remains 
tamed by the ISI. Why might that change? Put simply, key LeT 
leaders, not just Hafiz Saeed but also, and it is important to 
mention them by name, Zakiur Rehman Lakhvi who is the group's 
operational commander, and Sajid Mir, who oversees its foreign 
assets, might pursue an attack against the United States if 
they believed the group could avoid retribution, or that it 
could withstand the costs, and that these were outweighed by 
the benefits.
    Here it is important to remember the group is a patient 
organization. So when considering these calculations, I would 
like to note three variables. First, ISI's situational 
awareness of, and influence over, core LeT remains strong. If 
that relationship weakened, or LeT believed it could claim 
plausible deniability for an attack against the United States, 
then this could change the equation. Notably, unlike al-Qaeda, 
Lashkar-e-Taiba likely would do everything possible to hide its 
hand in an attack against the United States. Here it is 
important to note, its use of front groups such as the Indian 
Mujaheddin, and also during the 2008 Mumbai attacks when it 
created another front group out of whole cloth, the Deccan 
Mujaheddin, and claimed credit for the attacks through them 
initially.
    Second, if Pakistan were to crack down for real on LeT, 
then the group's cost/benefit calculus could change. That is 
not a reason why Pakistan shouldn't crack down, it is simply to 
say that it is something that we should be aware of. 
Alternatively though, if LeT leaders surmised that Pakistan was 
too weak to punish the group, and that the United States would 
be unable, or unwilling to do so, then they might also consider 
moving forward with an attack. Third, as I have mentioned 
already, one must consider the threat from factions within 
Lashkar-e-Taiba. It remains more coherent than most Jihadist 
groups, but internal tensions exist, over whether to sacrifice 
military adventurism, to protect its social welfare 
infrastructure, over how close to remain to the state, and over 
whether to stay locally-focused, or to go global. That is just 
to name a few.
    Where does that leave the United States? Any attempt to 
disarm and demobilize LeT without Pakistani support is destined 
to fail. Pakistan shows no sign of breaking with the group in 
the near term. However, there are steps that the United States 
can continue to take to degrade LeT, and areas where it could 
increase its efforts.
    First, barring a resurgent al-Qaeda central, the drawdown 
of U.S. forces from Afghanistan could create space for 
Washington to focus more on Lashkar-e-Taiba when allocating 
resources such as intelligence collection and analysts. This is 
critical. We must understand better the nature of the group, 
especially as it evolves, and the threats it poses. Second, the 
United States should continue to pursue actions necessary to 
degrade LeT's international networks. Counterterrorism 
cooperation with India has leveled off since a spike after 
Mumbai, and regenerating this engagement is in both country's 
interests.
    The arrest and deportation last summer by Saudi Arabia of 
two Indian LeT operatives suggests a greater focus has been 
given to monitoring and infiltrating Gulf networks used for 
recruitment and logistical support. This is to be applauded, 
but there is more to be done. Third, because Washington is 
unlikely to have success attempting to force strategic steps 
Pakistan is not yet ready or able to take, it should remain 
focused on containing LeT in the short term, while encouraging, 
assisting, and compelling Pakistan to create conditions for 
sustained and measurable action against militancy over the 
longer term.
    Containment does not equal inaction, or inattention. 
Although LeT should not drive U.S. policy towards Pakistan, the 
2014 drawdown in Afghanistan and success degrading al-Qaeda 
central create an opportunity to elevate the priority given to 
LeT. This includes continuing to make clear to the ISI that the 
United States will hold it responsible in the event that LeT is 
then involved in an attack on the homeland. It also means 
pressuring Pakistan to identify, arrest, and extradite any 
Westerners training, or attempting to train, with LeT.
    The United States should also be mindful of opportunities 
to weaken LeT, or separate the group from its support base. It 
must revise its counterterrorism architecture in South Asia in 
line with the decreasing threat from al-Qaeda central, and the 
evolving threats from regional actors like LeT against which 
unilateral direct action may have less utility. Finally, to 
echo what Dr. Fair said, we need new and better metrics when 
determining whether and how to engage with regard to giving 
military aid.
    Finally, the United States should prepare for the 
unexpected. It should develop a response plan in the event of 
an LeT-led attack against the homeland that includes a mix of 
inducements, rewards, retributive measures, and unilateral 
actions vis-a-vis Pakistan. It should also prepare for the 
possibility, albeit incredibly remote at this point, that 
Pakistan attempts to mainstream LeT or elements of it at some 
point. This includes exploring how the United States might 
assist overtly, or covertly in such an enterprise, the cost and 
benefits of doing so, and the possible outcomes that might 
eventuate.
    Let me conclude by saying that Lashkar-e-Taiba is clearly 
capable of threatening the homeland, but that threat must be 
kept in perspective. The United States must remain attentive to 
the evolving nature of the group and vigilant in taking steps 
to degrade it.
    Thank you again for inviting me to testify here today. I 
look forward to your questions.
    [The prepared statement of Mr. Tankel follows:]
                  Prepared Statement of Stephen Tankel
                             June 12, 2013
    Lashkar-e-Taiba (the Army of the Pure or LeT) is one of Pakistan's 
oldest and most powerful militant groups. India has been its primary 
enemy since the early 1990s and the group has never considered itself 
to be an al-Qaeda affiliate, but the United States is clearly on its 
enemies list. Since 9/11, the group's anti-American rhetoric has turned 
into action. LeT has been actively attacking U.S. and Coalition forces 
in Afghanistan since 2004-2005, its presence there increased in the 
last several years and it deployed a small number of fighters to Iraq 
following the U.S. invasion of that country. LeT has also killed 
Americans and other Westerners in terrorist attacks in India and 
contributed to other plots targeting them as well. The group has the 
capabilities to launch terrorist attacks outside of South Asia, 
including against the United States, and is likely working to augment 
those capabilities. However, the question of LeT's intent to engage in 
a unilateral attack against the U.S. homeland remains hotly debated.
    Before turning to LeT's capabilities and intent, it is important to 
recognize why Pakistan is unlikely to attempt dismantling the group in 
the near term. First, the Pakistani military and its Inter-Services 
Intelligence Directorate (ISI) have long considered LeT to be the 
country's most reliable proxy against India and the group still 
provides utility in this regard. Second, Pakistan is facing a serious 
jihadist insurgency. LeT remains one of the few militant outfits whose 
policy is to refrain from launching attacks against the Pakistani 
state. Fearing LeT's capability to execute or assist with terrorist 
attacks in Pakistan's heartland, the security establishment does not 
want to take any action to change this calculus. LeT has built a robust 
social welfare apparatus via its above-ground wing, Jamaat-ud-Dawa 
(JuD), and assorted other legitimate relief organizations. As a result, 
concerns also exist regarding its capability to provoke social unrest 
in strongholds such as Lahore. Moreover, LeT actually provides 
assistance at times against some of the groups involved in anti-state 
violence. This assistance includes challenging the ideological 
underpinnings of waging jihad against a Muslim government, providing 
intelligence regarding anti-state militants' activities, and in some 
instances even targeting anti-state militants directly.\1\ LeT has 
provided similar intelligence and direct action assistance against 
separatists in Balochistan as well. In short, the group has utility 
both externally and internally. Third, some of LeT's members enjoy 
strong personal relationships with members of Pakistan's armed 
forces.\2\
---------------------------------------------------------------------------
    \1\ Regarding LeT's ideological utility see, for example, Sermon by 
LeT cleric Mubashir Ahmad Rabbani entitled ``The Schism of 
Excommunication,'' undated. Al-Qaeda refuted points from ``The Schism 
of Excommunication,'' in a book entitled, Knowledgeable Judgment on the 
Mujrites of the (Present) Age. C. Christine Fair, ``Lashkar-e-Tayiba 
and the Pakistani State,'' Survival 53, no. 4, 2011. Information 
regarding LeT's intelligence gathering is based on field interviews in 
Pakistan. Regarding LeT direct action against anti-state actors see, 
for example, Stephen Tankel, Storming the World Stage: The Story of 
Lashkar-e-Taiba (New York: Columbia University Press, 2011), pp. 196, 
200-201. Tahir Khan, ``Mohmand Agency: TTP accuses rival groups of 
plotting attacks on its bases,'' The Express Tribune, June 9, 2013.
    \2\ For a detailed analysis of LeT recruiting patterns and overlaps 
with those of Pakistan's military see, Anirban Ghosh et al, The 
Fighters of Lashkar-e-Taiba: Recruitment, Training, Deployment and 
Death (West Point, NY: Combating Terrorism Center, 2013).
---------------------------------------------------------------------------
    The safe haven LeT enjoys within Pakistan has provided it the 
freedom of movement necessary to develop capabilities and capacity that 
enable it to threaten the United States. At the same time, its 
integration with the Pakistani state raises questions as to whether LeT 
leaders would risk their group's position to execute such an attack. 
The following focuses on a LeT-lead operation against the U.S. 
homeland. It is important to note, however, that the primary threat to 
U.S. citizens from LeT terrorist attacks remains in South Asia, either 
unilaterally as was the case with the 2008 Mumbai attacks or via 
operations executed in concert with the Indian Mujahideen.\3\ Further, 
LeT could act as part of a consortium, meaning it need not take the 
lead role in an attack in order for its capabilities to be used against 
the U.S. homeland.
---------------------------------------------------------------------------
    \3\ Networks associated with LeT were suspected of supplying the 
military-grade RDX used in the 2010 bombing of the German Bakery in 
Pune and an LeT commander (Mirza Himayat Baig) cooperated with the 
Indian Mujahideen to execute the attack. Praveen Swami, ``Lashkar-
linked terror charity raises fears,'' The Hindu, September 2, 2011. 
Chandan Haygunde, ``Aspiring teacher to terror accused,'' Indian 
Express, April 19, 2013.
---------------------------------------------------------------------------
  capabilities to launch an let-lead attack against the united states
    LeT's training camps in Pakistan remain open and the group boasts a 
stable of men who can provide instruction in small-unit commando 
tactics, reconnaissance, counter-intelligence and the construction and 
use of explosive devices. The group has transnational networks 
stretching across South Asia, the Persian Gulf, and Europe, with a 
particularly strong connection to the United Kingdom, and reach into 
the United States and Canada. LeT operates a robust above-ground 
infrastructure that, combined with investments in legitimate 
enterprises in Pakistan and fundraising networks abroad, has enabled it 
to operate independent of direct ISI financial support. While it 
continues to enjoy reach-back capability into the Pakistani military 
and ISI, LeT also has leveraged its financial resources and operational 
freedom to develop an educated cadre among its membership. 
Collectively, these individuals amplify technical, training, and 
planning capabilities.
Training Apparatus
    Soldiers on secondment from the military trained many of LeT's 
trainers, and some of them took early retirement to join the group. As 
a result, LeT militants and trainers are considered to be among the 
most tactically adept and its bomb-makers to be among the best in the 
region.\4\ Its own camps continue to operate in Pakistan-administered 
Kashmir, Mansehra, and elsewhere in Pakistan. As LeT has deepened its 
collaboration with other outfits, cross-pollination among trainers and 
trainees has occurred. At the same time, LeT does not enjoy 
historically strong ties with other groups in the region and actually 
suffers from a deficit of trust with some of them. This should not 
discount the possibility that LeT trainers or camps might be used to 
prepare militants from another group for attacks against the United 
States. However, the focus here is on the group's capabilities to plan, 
prepare, and execute a unilateral terrorist attack.
---------------------------------------------------------------------------
    \4\ The latter are reportedly responsible for building some of the 
improvised explosive devices used in Afghanistan as well as instructing 
others on how to do so. Tankel, Storming the World Stage, pp. 198-199.
---------------------------------------------------------------------------
    LeT's own training traditionally begins with the Daura-e-Suffa, 
which focuses on imbuing religious principles, including the obligatory 
nature of jihad, as well as proselytizing. It lasts approximately 3 
weeks, is often conducted at the group's compound in Muridke and 
includes lectures by senior leaders. This is followed by the Daura-e-
Aama, which consists of lectures, additional religious indoctrination 
and prayer, physical training, and some introductory weapons drills. It 
also lasts about 3 weeks and is typically conducted in Pakistan-
administered Kashmir. A small number of those who go through the Daura-
e-Suffa and Daura-e-Aama advance to the Daura-e-Khasa, which takes 
place at a higher elevation in Mansehra. This lasts approximately 2 to 
3 months and includes physical training, guerrilla warfare tactics, 
survival techniques, firing different types of light weapons, and 
instruction on the use of hand grenades, rocket launchers, and mortars. 
These time frames are not fixed and militants may train for 
considerably longer as well as skipping the initial Daura-e-Suffa and 
Daura-e-Amma in some instances.\5\
---------------------------------------------------------------------------
    \5\ For a detailed assessment of LeT's training infrastructure and 
programs see, Ibid, pp. 74-79.
---------------------------------------------------------------------------
    LeT also runs a bevy of specialized programs providing instruction 
on a range of skills. In addition to maritime training for those who 
operate at sea and commando training for individuals who will undertake 
fidayeen attacks, these include instruction on counter-intelligence, 
IED construction, sabotage and surveillance, conducting reconnaissance, 
communicating in code, and the use of sophisticated communication 
technologies.\6\ The focus on support activities such as reconnaissance 
and communication is crucial to LeT's capability to execute complex 
operations abroad, as evidenced by the 2008 Mumbai attacks.\7\
---------------------------------------------------------------------------
    \6\ ``Testimony of David Coleman Headley to the Indian National 
Investigative Agency,'' 3-9 June 2010.
    \7\ The Mumbai attacks were several years in the making and 
benefited from extensive surveillance by David Headley.
---------------------------------------------------------------------------
Attack Planning Capabilities
    LeT is a patient organization, known to perform surveillance of 
targets for the purpose of creating target packages that it could use 
in the future. For example, the 2008 Mumbai attacks began with 
surveillance of the Taj Mahal Hotel conducted 2 years prior and with no 
immediate attack in mind. David Headley, the Pakistani-American who 
undertook reconnaissance for the attacks, made multiple trips to 
Mumbai, conducting extensive surveillance of multiple targets. This 
included taking photographs and making video recordings. He was taught 
how to use a GPS and plotted out the future terrorists' movements 
around Mumbai, bringing that GPS with the coordinates back to Pakistan 
so the attackers could practice. LeT's close relationship with the 
Pakistani military enabled it to pull in a member of the navy to help 
plan the maritime insertion.\8\ The final operation also revealed 
several smart tactical decisions. Splitting the attackers into small 
teams made it more difficult to intercept all of them and also created 
the sense of a larger attack force. Exploding IED's away from the 
attack sites contributed to the confusion.
---------------------------------------------------------------------------
    \8\ At one meeting, the men examined nautical charts and discussed 
various landing options. The naval frogman directed Headley to explore 
the position of Indian naval vessels in order to avoid a gunfight 
before entering Indian waters, which Headley did upon his trip to 
Mumbai. Ibid.
---------------------------------------------------------------------------
    LeT used Voice over Internet Protocol (VoIP) during the Mumbai 
attacks and this made it more difficult (though clearly not impossible) 
to intercept its communications.\9\ According to Indian officials, LeT 
operatives based there now communicate almost exclusively with their 
handlers in Pakistan via VoIP or other technological means that are 
difficult to monitor. Notably, the group historically has focused 
significant resources on building up its technological capabilities, 
including sending members for graduate work in the field of Information 
Technology. This raises questions about LeT's capability to engage in 
clandestine communications with transnational operatives. Its 
significant financial assets likely enable the group to invest in 
sophisticated programs and to experiment with various technologies.\10\
---------------------------------------------------------------------------
    \9\ Transnational operatives were used to set up the VoIP, which 
also was intended to make it more difficult to trace.
    \10\ The group reportedly purchased para-gliders and commissioned 
an expert in their use to train a small cadre of members. ``Chinese 
training LeT men in paragliding: Abu Jundal,'' DNA India, July 3, 2012.
---------------------------------------------------------------------------
Transnational Networks
    LeT's transnational networks stretch across South Asia, the Gulf, 
and into Europe and North America. These are used primarily for 
fundraising and to support its regional operations, including attacks 
against India. However, LeT operatives have been known to operate in a 
number of European countries that participate in the Visa Waiver 
Program.\11\ Thus, it is believed to be capable of talent-spotting, 
recruiting, and vetting radicalized Westerners. LeT's use of social 
media geared toward English-speaking audiences suggest the group also 
is attempting to position itself as a destination of choice for 
Westerners, especially members of the Pakistani diaspora in the United 
States and Europe, interested in associating with jihadist groups.\12\
---------------------------------------------------------------------------
    \11\ Tankel, Storming the World Stage, pp. 96-102, 164-167.
    \12\ The group is active through its above-ground organization, 
JuD, on Twitter and Facebook. JuD previously had a youtube page that 
featured various LeT attacks in India and Pakistan.
---------------------------------------------------------------------------
    It must be noted that LeT historically has used Western operatives 
to support its own operations in South Asia. Nevertheless, networks or 
operatives used for support purposes can be re-directed to support 
terrorist attacks. There are several notable examples of LeT foreign 
operatives suspected of supporting al-Qaeda-led attacks, though it is 
unclear whether the Pakistan-based LeT leadership sanctioned these 
activities.\13\ The one example of the group using one of its 
operatives to launch an attack against a Western country occurred in 
2002-2003. Sajid Mir, who is responsible for managing LeT's overseas 
operatives and oversaw the planning and execution of the 2008 Mumbai 
attacks, directed a French convert to Islam based in Paris to travel to 
Australia, where he was to assist an LeT-trained local to execute a 
terrorist attack.\14\ It is unclear from the open source whether the 
LeT-trained local in Australia was directed to execute the attack by 
LeT leaders or if he germinated the idea and reached out to the 
organization for assistance. If the latter, it is also not clear if the 
entire LeT leadership sanctioned deploying the Paris-based operative to 
assist or if Sajid Mir was acting independently or on behalf of a 
faction within the group. Thus, the operation illustrates not only 
LeT's capacity to project power far beyond South Asia, but also the 
difficulty of determining the dynamics behind the decision to do so.
---------------------------------------------------------------------------
    \13\ For example, activists in Paris associated with the group are 
suspected of providing some logistical support to the ``shoebomber'' 
Richard Reid. LeT operatives in the United Kingdom are also suspected 
of providing money to those involved in the 2006 attempt to bomb 
transatlantic flights from the United Kingdom using liquid explosives. 
Regarding assistance to Richard Reid see, Judgment in Republic of 
France vs. Rama et. al., Magistrates' Court of Paris, June 16, 2005. 
Regarding the 2006 bomb plot see, Dexter Filkins and Souad Mekhennet, 
``Pakistani Charity Under Scrutiny In Financing of Airline Bomb Plot,'' 
New York Times, Aug. 13, 2006. Joshua Partlow and Kamran Khan, 
``Charity Funds Said to Provide Clues to Alleged Terrorist Plot,'' 
Washington Post, Aug. 15, 2006. Henry Chu and Sebastian Rotella, 
``Three Britons convicted of plot to blow up planes,'' Los Angeles 
Times, Sept. 8, 2009. John Burns, ``3 Sentenced in London for Airline 
Plot,'' New York Times, July 12, 2010.
    \14\ Sajid Mir arranged for members of the group's network in Paris 
to provide money for the trip. Australian security officials said the 
men intended to select a suitable target and purchase the chemicals 
necessary to build a large bomb, though it remains unclear whether they 
intended to assemble it or LeT was planning to deploy another foreign 
explosives expert for that purpose. Regarding the role of LeT's French 
networks see, Jean-Louise Bruguiere, Ce que je n'ai pas pu dire (Paris: 
Robert Laffont, 2009), pp. 469-472. ``Committal Hearing of Faheem 
Khalid Lodhi,'' Downing Centre Local Court, Sydney, Australia, Dec. 17, 
2004. Natasha Wallace, ``Court Battle Over Secret Evidence,'' Sydney 
Morning Herald, Dec. 18, 2004. Judgment in ``Republic of France vs. 
Rama, et. al.'' Appeal Judgment in ``Fahim Khalid Lodhi vs. Regina,'' 
New South Wales Court of Criminal Appeal, Dec. 20, 2007. ``Frenchman 
Played `Major' Role in Australia Terror Plot, Court Hears,'' Agence 
France-Presse, Feb. 8, 2007. Information regarding activities in 
Australia from Australian security officials said the two men intended 
to select a suitable target and purchase the chemicals necessary to 
build a large bomb, though it remains unclear whether they intended to 
assemble it or LeT was planning to deploy another foreign explosives 
expert for that purpose. Interview with former member of the Australian 
security services. Appeal Judgment in ``Fahim Khalid Lodhi vs. 
Regina.'' Martin Chulov, Australian Jihad: The Battle Against Terrorism 
from Within and Without, (Sydney: Pan Macmillan, 2006), p. 143. Liz 
Jackson, ``Program Transcript: Willie Brigitte,'' ABC, Feb. 9, 2004.
---------------------------------------------------------------------------
Training Westerners
    Pakistanis constitute the majority of those trained in LeT camps, 
but the group has a history of training foreigners too.\15\ After the 
U.S. counterattack against Afghanistan destroyed the training 
infrastructure there, LeT stepped in to train local militants as well 
as foreigners who pre-9/11 would have trained in al-Qaeda camps, but 
now were looking for other avenues of instruction.\16\ Since the mid-
1990s, LeT has provided training to Indian Muslims for attacks against 
their own country, a practice that continues today. Some of these men 
have executed attacks on LeT's behalf, providing the group with 
plausible deniability, while others have proffered logistical support 
to Pakistani members of LeT who infiltrated India to carry out 
operations. Still others are associated with various indigenous 
jihadist networks, most notably the Indian Mujahideen, or have settled 
into life in India, essentially becoming sleeper agents the authorities 
fear could be activated at another time.\17\
---------------------------------------------------------------------------
    \15\ It claims to have trained recruits during the 1990s for combat 
in Afghanistan, Bosnia-Herzegovina, Chechnya, Kosovo, the southern 
Philippines, and, of course, Indian-administered Kashmir. MDI website, 
``A Brief Introduction to the Markaz and the Group X,'' undated.
    \16\ Chulov, Australian Jihad, p. 151. Mariam Abou Zahab, 
``Salafism in Pakistan: The Ahl-e Hadith Movement,'' in Global 
Salafism: Islam's New Religious Movement, ed. Roel Meijer (London: 
Hurst, 2009),p. 140. Amir Mir, The True Face of Jehadists (Lahore: 
Mashal Press, 2004), p. 70. Josh Meyer, ``Extremist group works in the 
open in Pakistan,'' LA Times 18 Dec. 2007.
    \17\ Regarding the Indian jihadist movement see, Stephen Tankel, 
The Indian Jihadist Movement: Evolution and Dynamics, Washington, DC: 
National Defense University, forthcoming (provisional title).
---------------------------------------------------------------------------
    LeT has long had a policy of training Westerners. The majority of 
them are members of the Pakistani and Kashmir diasporas in the United 
Kingdom, but the group has been training Americans since 2000.\18\ The 
first Americans known to have trained with LeT were from Virginia and 
were part of a coterie of would-be jihadists that ultimately became 
known as the Virginia Jihad Network. Sajid Mir, the commander in charge 
of overseas operatives, arranged for several of them to provide 
assistance to a British LeT operative who traveled to the United States 
on multiple occasions from 2002-2003 to procure military gear for the 
group. Although the men clearly were used in a support capacity, one 
concern about such networks is that their purpose can change over time. 
Indeed, Sajid Mir also asked two of the trainees to undertake missions 
involving information gathering as well as the dissemination of 
propaganda.\19\ One of them told the FBI in 2004 that he was asked 
specifically to perform surveillance on a chemical plant in 
Maryland.\20\ Precisely what LeT or elements within it planned to do 
with this information is unknown, though they clearly were interested 
in both surveillance and expanding the group's networks in the United 
States.
---------------------------------------------------------------------------
    \18\ Indictment in ``United States vs. Randall Todd Royer,'' The 
United States District Court for the Eastern-District of Virginia, 
Alexandria Division June 2003.
    \19\ Memorandum Opinion in ``United States vs. Masoud Khan et 
al.,'' The United States District Court for the Eastern-District of 
Virginia, Alexandria Division 4 March 2004.
    \20\ United States Attorney's Office Eastern District of Virginia, 
``Virginia Jihad Member Convicted of Perjury, Obstruction, '' Feb. 5, 
2007.
---------------------------------------------------------------------------
    In 2005, two men from Atlanta Georgia with ties to the ``Toronto 
18'' as well as to a British Pakistani who acted as a talent spotter 
for LeT identified possible targets for a terrorist attack in the 
United States.\21\ A month later the duo traveled to Washington, DC, 
where they shot video recordings of possible targets, including the 
U.S. Capitol; the headquarters building of the World Bank; the Masonic 
Temple in Alexandria, Virginia; and a group of large fuel storage tanks 
near a highway in northern Virginia.\22\ One of the men traveled to 
Pakistan later that year intending to study in a madrasa and then train 
with LeT.\23\ He arrived the week after the London Underground bombings 
that occurred on July 7 and was unable to realize his ambitions, 
possibly owing to the heightened security environment in Pakistan where 
two of the London bombers had trained. Notably, at least one of them is 
believed to have spent a night at Muridke, though there is no open-
source evidence suggesting LeT had any direct involvement in the 7/7 
attacks.\24\
---------------------------------------------------------------------------
    \21\ United States Attorney's Office Northern District of Georgia, 
``Terrorism Defendants Sentenced: Ehsanul Islam Sadequee Receives 17 
Years in Prison; Co-defendant Syed Haris Ahmed Receives 13 Years,'' 
Dec. 14, 2009.
    \22\ Indictment in ``United States of America vs. Syed Haris Ahmed 
and Ehsanul Islam Sadequee,'' United States District Court for the 
Northern District of Georgia, July 19, 2006.
    \23\ Ibid.
    \24\ Tankel, Storming the World Stage, p. 163.
---------------------------------------------------------------------------
    LeT has trained others living in America since then, none more 
famous than Daood Gilani, who took the name David Coleman Headley in 
2006 to help facilitate his reconnaissance trips in Mumbai and 
elsewhere for the group. He joined LeT in February 2002, participating 
in the Daura-e-Suffa that month. In August 2002 he went through the 
Daura-e-Aama and then in April 2003 the Daura-e-Khasa, LeT's 3-month 
guerrilla warfare training program. More specialized trainings 
followed, and in 2006 he began conducting reconnaissance in India that 
ultimately led to the 2008 Mumbai attacks. Headley was trained and 
handled jointly by LeT and Pakistani intelligence, and used in a 
support capacity. However, without his contributions in terms of 
reconnaissance, it is unlikely the 2008 Mumbai attacks would have been 
as operationally successful. Notably, despite his access to America and 
Americans, LeT used Headley overwhelming for operations against India. 
(Headley's involvement in an aborted plot against Denmark is discussed 
below.)
    Given the benefits Headley provided to the group, it is reasonable 
to assume LeT may have increased its efforts to recruit and train other 
Westerners or to find ways for Pakistani members to acquire citizenship 
or residency in Western countries. For example, in September 2011, the 
Federal Bureau of Investigation arrested Jubair Ahmad, a 24-year-old 
Pakistani immigrant living in Woodbridge, Virginia. Ahmed received 
religious training from LeT as a teenager, and later attended its basic 
training camp while living in Pakistan, before entering the United 
States in 2007 with other members of his family. After moving to the 
United States he provided material support to LeT, producing and 
distributing propaganda.\25\
---------------------------------------------------------------------------
    \25\ Stephen Tankel, ``Lashkar-e-Taiba's American Connections,'' 
Foreign Policy, Sept. 6, 2011.
---------------------------------------------------------------------------
    As should be clear, LeT has all of the tools necessary to strike 
the homeland. The group's instructors are very proficient for a non-
state actor, it has developed an array of sophisticated training 
programs and it enjoys significantly more freedom to conduct those 
programs than other groups in the region. LeT's transnational networks 
enable it to identify and vet possible Western recruits, including 
Americans or citizens from visa waiver countries in Europe. The group 
also has the operational space as well as the organizational 
wherewithal to build relationships in the Pakistani diaspora community. 
A cautious and calculating organization, LeT primarily has used its 
overseas operatives to support operations in South Asia. The danger of 
LeT's training apparatus and transnational networks, however, is that 
they can be redirected toward international attacks. As the 2008 Mumbai 
attacks demonstrated, given enough time and space to plan, LeT is 
capable of inflicting significant and spectacular damage once it 
decides to do so.
     intent to launch an let-lead attack against the united states
    LeT is a pan-Islamist group committed to defending the umma and 
avenging what it perceives to be the oppression of or violence against 
Muslims. The U.S. invasions of Afghanistan and Iraq as well as the use 
of unmanned aerial vehicles (drones) to launch missile strikes in 
Pakistan and elsewhere make it an obvious ideological target. India 
remains the group's main enemy and if the group could only attack one 
country then that likely would remain its target, but LeT is a robust-
enough organization to launch attacks against multiple countries. And 
it added America to its enemies list long ago. LeT has killed U.S. 
citizens in Mumbai in 2008, though they were not the main targets of 
the attack. The group has also deployed fighters to Afghanistan, where 
they directly confront U.S. forces, and previously to Iraq. Yet there 
is no evidence LeT has ever attempted an attack against the U.S. 
homeland, despite access to some of its citizens and residents. So 
what's stopping it?
    LeT's leadership retains an element of nationalism that is 
distinctly at odds with al-Qaeda and still finds common ground, as it 
has since the 1990s, with elements in the Pakistani military and ISI. 
LeT and its backers remain co-dependent: Each afraid of the 
repercussions that might stem from splitting with the other. 
Furthermore, unlike al-Qaeda Central, which confronts a challenging 
security environment, LeT controls a robust social welfare 
infrastructure and its leaders value the influence that comes with it. 
In the 1990s the group needed the state to build up its infrastructure, 
whereas now it is reliant on the state not to tear it down. It is worth 
highlighting the leadership's devotion to dawa through the delivering 
of social services and the fact that protecting its domestic 
infrastructure has at times limited its military adventurism. This 
leadership operates openly in Pakistan's settled areas, not from a 
hidden redoubt.
    This freedom of movement carries with it a number of benefits, but 
also serves as another leverage point that can be used to constrain 
LeT's activity. As a result, significant elements within the group are 
still ``tamed by the ISI'' as one former member observed.\26\ 
Pakistan's security services are believed to use this and other means 
of leverage to put pressure on LeT to refrain from striking Western 
interests abroad. Unless the Pakistani security establishment wants a 
showdown with the United States, this is unlikely to change. At the 
same time, cracking down on LeT is not the top U.S. demand made on 
Pakistan. The group does not want that to change, nor does it wish to 
invite greater unilateral American action against it.
---------------------------------------------------------------------------
    \26\ Author interview with former Lashkar-e-Taiba member, Jan. 2009 
in Pakistan.
---------------------------------------------------------------------------
    In short, LeT's restraint has more to do with strategic calculation 
than ideological inclination. If Pakistan were to crack down sincerely 
on LeT, then the group's cost-benefit calculus could change. However, 
key LeT leaders also might authorize a strike against the United States 
if they believed the group could avoid retribution or that it could 
withstand the costs and that these were outweighed by the benefits. It 
is also important to note LeT's history of using false names to claim 
its attacks and, in some instances, of training radicalized actors 
indigenous to their target country to carry them out. In other words, 
unlike al-Qaeda, the group is likely to do everything possible to hide 
its hand in any attack on the American homeland. It is impossible to 
predict with certainty whether the day will come when LeT changes its 
calculus or, if so, what the tipping point might be. A number of 
variables could inform such a shift. Two of the most important are 
inter-related: ISI situational awareness of and influence on LeT; and 
organizational dynamics within LeT.
ISI Situational Awareness and Influence
    The level of Pakistani control over LeT is hotly debated and it is 
arguably more useful to think in terms of situational awareness and 
influence. The ISI reportedly retains a liaison relationship with LeT, 
meaning that there are designated go-betweens, with senior leaders also 
having specific handlers.\27\ Local interlocutors in Pakistan, 
including one former and one current LeT member both of mid-rank, 
assert that the security services have informants within the 
organization and also engage in other forms of intelligence collection 
regarding its activities.\28\ This provides a significant level of 
situational awareness. However, given the uncertainties associated with 
most principal-agent relationships of this nature, it is also 
reasonable to assume that LeT has taken countermeasures to enable some 
clandestine activities. In terms of influence and guidance, the ISI 
leadership generally provides descriptive rather than detailed 
instruction. This means it sets broad guidelines and leaves 
implementation up to line-level ISI officers and, in some cases, LeT 
militants themselves.
---------------------------------------------------------------------------
    \27\ ``Testimony of David Coleman Headley to the Indian National 
Investigative Agency.''
    \28\ David Headley's testimony supports this contention. See, Ibid.
---------------------------------------------------------------------------
    According to David Headley, his handler, known to him as Major 
Iqbal, was aware of all the targets chosen for the 2008 Mumbai attacks. 
Moreover, Major Iqbal reportedly was the person who recommended LeT 
target the Chabbad House, believing (wrongly) that it was a front for 
the Israeli Mossad.\29\ Given the nature of relationships between LeT 
leaders and the ISI, it is reasonable to assume others were also aware 
of the operational details. This is reinforced by the fact that at 
times Headley met with Iqbal to brief him on information, which the 
latter already had.\30\ It is unclear whether the ISI leadership was 
aware of the scope and scale of the attacks. If not, this may have 
resulted from LeT's handlers not passing information all the way up the 
chain of command or from the turnover that was taking place in the ISI 
at the time.\31\ In October 2008, 1 month before the Mumbai attacks, 
LeT began plotting a terrorist attack in Denmark. Major Iqbal was 
present for the initial discussions that took place between Sajid Mir 
and David Headley.\32\ Several months later, in the wake of the fallout 
from the 2008 Mumbai attacks, Sajid postponed the operation 
indefinitely as a result of what he told Headley was ISI pressure to do 
so.\33\
---------------------------------------------------------------------------
    \29\ Sebastian Rotella, ``Witness: Pakistani Intel Officer Ordered 
Hit on Mumbai Jews,'' ProPublica, May 24, 2011.
    \30\ Superceding Indictment in ``United States of America vs. Ilyas 
Kashmiri, Abdur Rehman Hashim Syed [a/k/a `Major Abdur Rehman,' a/k/a 
`Pasha'], David Coleman Headley [a/k/a `Daood Gilani'], Tahawwur 
Hussain Rana.'' ``Testimony of David Coleman Headley to the Indian 
National Investigative Agency.''
    \31\ Ahmad Shuja Pasha became Director General of the ISI in 
October 2008, a month after the Mumbai attacks were originally 
scheduled to take place. He reportedly visited LeT's Operational 
Commander, Zaki-ur Rehman Lakhvi, in jail following the latter's 
detention in the wake of the attacks in order to ``understand the 
Mumbai attack conspiracy.'' ``Testimony of David Coleman Headley to the 
Indian National Investigative Agency.''
    \32\ Ibid.
    \33\ Plea Agreement in ``United States vs. David Coleman Headley 
[a/k/a `Daood Gilani'],'' The United States District Court for the 
Northern District of Illinois, Eastern Division, Mar. 18, 2010.
---------------------------------------------------------------------------
    In summation, regardless of what the ISI leadership may or may not 
have known about Mumbai, from LeT's perspective it was a sanctioned 
operation. And when the group allegedly was told to put an attack 
against a Western country on hold, its leaders apparently submitted. 
This suggests a reasonably high level of ISI situational awareness and 
influence. Yet with the 2014 drawdown of U.S. and Coalition forces from 
Afghanistan, there is cause for concern about how this might impact the 
LeT-ISI relationship.
    First, LeT is likely to attempt to keep a small presence in 
Northeast Afghanistan, where its members have worked to carve out 
territory. If it succeeds, then access to safe haven in Afghanistan for 
LeT conceivably could reduce ISI situational awareness of what its 
members there are doing. At the very least, it could increase plausible 
deniability for LeT and, thus, for the Pakistani state itself. Each 
could conceivably claim they did not sanction plots orchestrated from 
across the border, even if planned in Pakistan, with the result being 
to heighten the likelihood such attacks might occur.
    Second, LeT is likely to agitate for regenerating the jihad 
directly against India, both in the form of terrorist attacks against 
the mainland and increased activity in India-administered Kashmir. The 
latter has been torpid since the late 2000s. Several LeT-lead attacks 
there this year suggest attempts to regenerate the conflict, but it is 
highly unlikely to succeed in spurring violence on the order of 
magnitude of that which existed before the conflict began to ebb. If 
the Pakistani security establishment is not deemed supportive enough of 
these efforts and they fail to bear fruit, this could heighten the 
chance that LeT or factions within it undertake unsanctioned attacks 
either against India or Western targets.
    Third, if the situation in Pakistan continues to deteriorate, key 
LeT leaders could make the determination that the security 
establishment is in no position to severely punish the group or those 
individuals in it who are considered essential to keeping the rank-and-
file in line. They may also assume--rightly or wrongly--that as the 
American presence in the region shrinks, Washington will have less 
leverage over Pakistan and thus fewer options for responding to an 
attack against the U.S. homeland.
    Hence, these leaders could surmise that they, as individuals, and 
the group collectively were well-enough positioned to withstand the 
consequences of an attack against the United States. At the same time, 
a deterioration of the situation in Pakistan could mean that those 
anti-state jihadist groups with which LeT competes were going from 
strength to strength. Thus, attacking the U.S. homeland could bring 
significant prestige within the jihadist universe at a time when some 
LeT leaders felt the group needed a win. Such a decision would be 
inextricably linked to dynamics within the organization, discussed 
below.
Organizational Dynamics
    LeT remains more coherent than most groups in Pakistan, but 
internal tensions exist regarding where the group should focus its 
energies and how close it should remain to the state. The most obvious 
point of tension concerns whether to remain regionally focused (i.e. 
primarily fighting against India and in Afghanistan) or to expand the 
group's involvement in the global jihad. David Headley's account 
suggests there was debate over the decision to include targets such as 
the Chabbad House for the Mumbai attacks.\34\ Zaki-ur Rehman Lakhvi, 
the Operational Commander of LeT, and Sajid Mir, the man responsible 
for overseeing transnational operatives, were in favor and clearly won 
the day. In short, two of the group's most important militant leaders 
promoted expanding LeT's target set.
---------------------------------------------------------------------------
    \34\ ``Testimony of David Coleman Headley to the Indian National 
Investigative Agency.''
---------------------------------------------------------------------------
    Even those LeT leaders who favor a growing involvement in the 
global jihad against America do not believe this should come at the 
expense of war against India. However, this policy of attempting to 
have it both ways opens the group up to additional factionalism, which 
could be exacerbated if LeT is unable to regenerate its jihad against 
India post-2014 or it were to lose one or several of its founding 
members. LeT's involvement in Afghanistan has been a formative 
experience for some of those who comprise the next generation and 
possibly a transformative experience for some of the current crop of 
leaders. Just as more than 2 decades spent waging war against India 
hallowed that cause, almost 10 years spent fighting against U.S. forces 
in Afghanistan may have influenced the preference structure for some of 
the group's members. The rise of new leaders who cut their teeth in the 
post-9/11 world could have important implications in terms of LeT's 
future behavior.
    Another important point of tension concerns the degree to which LeT 
should sublimate its jihadist impulses in order to pursue a reformist 
agenda via its above-ground infrastructure. LeT and JuD are two sides 
of the same coin, but they also represent different sets of priorities. 
Hafiz Saeed may lead a militant organization, but he does so from his 
position as a cleric who lives comfortably in Lahore and values 
spreading his interpretation of the Ahl-e-Hadith faith and promoting 
reformism in Pakistan. Zaki-ur Rehman Lakhvi is a militant's militant. 
He has fought in Afghanistan and Indian-administered Kashmir, lost a 
son to jihad, and is currently on trial for his role in the 2008 Mumbai 
attacks. It is reasonable to assess that he is more committed to 
militancy than missionary outreach. Notably, these debates are about 
more than just ideological preferences. They are also about power 
within the organization.
    Additional variables could inform whether these tensions inflame or 
abate, as well as how that process impacts LeT's behavior. First, 
fighting in Afghanistan has not only provided an opportunity to 
confront U.S. forces directly, but also necessitated collaboration with 
an array of other militant actors including al-Qaeda. This has the 
potential to create conditions in which other actors with more extreme 
agendas can influence LeT members. It also means the group is competing 
with those other actors for credibility.\35\ Second, and related, LeT's 
close ties to the Pakistani state open up its leaders to criticism from 
the rank-and-file as well as other militant groups seeking to poach 
some of its members. Although organizationally opposed to attacks in 
Pakistan, it is a myth that no LeT member has ever been involved in 
violence there. Some occasionally get out of line.\36\ Others have left 
to join other militant groups engaged in violence against the 
state.\37\ The desire to reset the narrative that the group is fighting 
the ISI's jihad and not Allah's jihad, which striking the United States 
would help to do, is unlikely to change LeT's calculus on its own. Nor 
should one expect the group to cross the strategic Rubicon and launch a 
unilateral attack against the U.S. homeland out of concern that some 
members, no matter how valuable, are breaking away. However, these 
could be among a number of factors that influence LeT leaders or 
factions within the group when they are considering whether or not to 
expand the group's operational footprint.
---------------------------------------------------------------------------
    \35\ For example, after LeT acceded to ISI demands to delay the 
Danish plot, David Headley began working with al-Qaeda to execute the 
operation.
    \36\ See for example, Amir Mir, ``Lahore episode further blemishes 
Punjab govt's record,'' The News, Mar. 11, 2013. Tankel, Storming the 
World Stage, p. 202.
    \37\ See, for example, Tankel, Storming the World Stage, pp. 130-
131.
---------------------------------------------------------------------------
                            recommendations
    Any attempt made to disarm and demobilize LeT without Pakistani 
support, specifically from the military and ISI, is destined to fail. 
Without host country support, the United States would have to employ 
direct military action to target LeT's infrastructure, which is based 
in the settled areas of Pakistan near to population centers. Similarly, 
U.S. efforts to convince the Pakistani security establishment to break 
with its historical policy of supporting irregular outfits in general 
or LeT specifically are also unlikely to succeed in the short term. 
Nevertheless, there are steps the United States can continue to take to 
degrade LeT and areas where it could increase its efforts.
    First, barring a resurgent al-Qaeda, the draw-down of U.S. forces 
from Afghanistan could create space for Washington to focus more on 
LeT. Resource allocation should be realigned away from al-Qaeda Central 
and Afghan-centric militants, especially intelligence officers and 
analysts whose expertise will be essential for identifying emerging and 
evolving jihadist threats from LeT and other regional actors. This does 
not mean flooding Pakistan with clandestine officers focused on LeT. 
The Raymond Davis episode highlighted the dangers inherent in such 
activities. Rather, the United States could augment collection efforts 
in LeT's near abroad as well as increase analytical capacity further 
for intelligence collected. This might include commissioning a 
reassessment of LeT's historical involvement in international attacks 
in light of new information that has surely been gathered since the 
intelligence community enhanced its focus on the group post-Mumbai. 
Even this seemingly minor effort, could reveal important lessons about 
LeT's calculus at critical times in its evolution. Additionally, LeT 
has had the same leaders since the group was founded and these men are 
not getting any younger. It would be worthwhile to explore the 
scenarios that might eventuate were a battle for succession to occur. 
Finally, the United States should develop a response plan in the event 
of a LeT-lead attack against the homeland that includes a mix of 
inducements, rewards, retributive measures, and unilateral actions vis-
a-vis Pakistan. The United States should be prepared for a phased 
escalation in the event of Pakistani reticence and should develop 
oversight mechanisms to ensure Pakistan keeps any commitments it makes.
    Second, the United States should continue to pursue actions 
necessary to degrade LeT's international networks and contain its 
operations outside Pakistan. The U.S.-India Joint Working Group on 
Counterterrorism is more than a decade old, but counterterrorism 
cooperation between the two countries really accelerated immediately 
after the 2008 Mumbai attacks.\38\ However, engagement on 
counterterrorism has since leveled off. Regenerating this engagement 
and enhancing counter-terrorism cooperation is in both countries' 
interest, and efforts to do so should be supported. In the last several 
years, the United States, India, and the United Kingdom all took steps 
to facilitate counterterrorism efforts in Bangladesh. As a result, the 
LeT presence is reduced, and maintaining vigilance on that front 
remains important. The Persian Gulf is still fertile soil in terms of a 
support base for South Asian militancy. U.S. counterterrorism efforts 
vis-a-vis the Gulf historically focused primarily on terrorist threat 
financing. The arrest and deportation by Saudi Arabia of two Indian LeT 
operatives suggests a greater focus has been given to monitoring and 
infiltrating Gulf-based networks that could be used to recruit 
operatives or provide logistical support for terrorist attacks.\39\ The 
Gulf has not suddenly become a no-go area for LeT militants, but 
reducing their confidence that it is a guaranteed safe space for 
operations could have an impact on how militants conduct activities 
there. The United States should continue to press Gulf allies, 
especially Saudi Arabia, on these issues and to encourage their 
cooperation on counterterrorism efforts with India. Finally, the United 
States is already engaging in counterterrorism cooperation and 
intelligence sharing vis-a-vis LeT with allies in Europe. Some Western 
allies place a higher premium on these efforts than others, suggesting 
there is room for improvement.
---------------------------------------------------------------------------
    \38\ The two countries also launched a Homeland Security Dialogue 
Ministerial in May 2011.
    \39\ U.S. intelligence is believed to have played an important role 
in the capture and hand-over of at least one of the men. Stephen 
Tankel, ``Sharing is Caring: Containing terrorism in South Asia,'' 
Foreign Policy, June 20, 2012.
---------------------------------------------------------------------------
    Third, the LeT threat must be taken seriously, but should not drive 
U.S. policy toward Pakistan. At the same time, Washington's objectives 
vis-a-vis Pakistan need to expand. When tough choices have had to be 
made, Washington's priority has been killing al-Qaeda and countering 
Pakistan-based insurgents fighting in Afghanistan. The 2014 draw-down 
in Afghanistan and success degrading al-Qaeda Central create an 
opportunity to elevate the priority given to LeT. They also demand 
revising the U.S. counterterrorism architecture in South Asia in line 
with the decreasing threat from al-Qaeda and evolving threats from 
regional actors like LeT against which unilateral direct action has 
less utility.\40\ Any policies regarding LeT or counterterrorism more 
broadly must nest within a wider approach geared toward encouraging, 
enabling, and compelling Pakistan to address its myriad infirmities. 
Such an approach includes, but is not limited to, redressing the 
current civil-military imbalance and creating conditions for action 
against militancy that could bear fruit down the road. In the short 
term, this means gearing an overall approach toward maintaining a level 
of engagement and influence that allows Washington to execute 
transactions on narrow security issues, exploit opportunities to 
reinforce positive structural change within Pakistan when possible, and 
remain prepared to engage in crisis management should the need arise.
---------------------------------------------------------------------------
    \40\ While the United States should not abandon the option of drone 
strikes, it should use them in coordination with U.S. diplomats attuned 
to their impact on the broader political and security environment.
---------------------------------------------------------------------------
    Laying the groundwork for future action against LeT is complicated 
and does not promise satisfaction. However, Washington is unlikely to 
have success attempting to force strategic steps Pakistan is not yet 
ready or able to take. Given the ground reality, the United States 
should remain focused on containing LeT in the short term, but also 
mindful of opportunities that can be exploited to weaken it or separate 
the group from its support base. This means continuing to signal to the 
Pakistani security establishment the severe repercussions that would 
result were LeT, or elements within it, to attack the homeland. 
Additionally, Washington should increase pressure on Pakistan to 
identify, arrest, and extradite any Westerners training or attempting 
to train with LeT. While being mindful of the need to protect sources 
and methods of intelligence collection, U.S. officials should seize 
opportunities to enlighten their counterparts in Pakistan about the 
involvement of any current or former LeT militants in anti-state 
violence as well as about activities the group attempts to keep hidden 
from the ISI. The United States should also explore the viability and 
potential consequences of efforts to exploit aforementioned fissures 
within the group. Finally, the United States should prepare for the 
possibility, albeit unlikely in the near-term, that Pakistan attempts 
to mainstream LeT or elements of it. This includes exploring how the 
United States might assist, overtly or covertly in such an enterprise, 
the costs and benefits of doing so, and the possible outcomes that 
might eventuate.
    LeT is clearly capable of posing a threat to the United States, but 
one that must be kept in perspective. The group is not the proverbial 
shark in the water that must keep moving in order not to die. It has 
practiced a significant degree of strategic restraint given its 
capabilities, suggesting it can be deterred. This is not cause for 
indifference. LeT is also patient organization and one for which the 
current strategic calculus is not fixed indefinitely. The United States 
must remain attentive to the evolving threat and vigilant in taking 
steps to degrade the group.

    Mr. King. Thank you. Dr. Tankel.
    Our next witness, Dr. Jonah Blank is a senior political 
scientist at the RAND Corporation, and by the way Dr. Tankel 
and Dr. Blank are affiliated with RAND. If you would say hello 
to Brian Jenkins and thank him for the work that he has done 
and the assistance he has given us over the years. Prior to 
joining the RAND Corporation, Dr. Blank served as policy 
director for the South and Southeast Asia on the staff of the 
Senate Foreign Relations Committee from 1999 to 2011. So he 
understands Capitol Hill, for better or worse.
    [Laughter.]
    Mr. King. Before entering Government service, he served as 
senior editor and foreign correspondent for U.S. News and World 
Report where he reported from Indonesia, India, Nepal, and 
Pakistan. Dr. Blank began his career in Japan as a finance 
editor for Tokyo's Ashai Evening News and has been a reporter 
for Fortune Magazine. He has written for multiple publications 
including Foreign Affairs, The New Yorker, and The Washington 
Post.
    Dr. Blank, you are recognized for 5 minutes. Or for as long 
as you take.

STATEMENT OF JONAH BLANK, PH.D., SENIOR POLITICAL ANALYST, THE 
                        RAND CORPORATION

    Mr. Blank. Thank you very much Mr. Chairman. Should note 
that the part of my background that might be most relevant here 
today is my background as an anthropologist as well as a, sort 
of a student of, not only India but of wider South Asia.
    Mr. Chairman, Mr. Ranking Member, Members of the committee, 
it is an honor to appear before you here today. This hearing 
addresses two significant threats; Lashkar-e-Taiba and the 
potential for a Mumbai-style attack here in the United States. 
Both threats deserve very serious attention, but their linkage 
is indirect.
    Lashkar is primarily a threat abroad in my judgment, while 
there is a very real threat of a Mumbai-type attack here. The 
connection rests more in Lashkar's training and recruitment, 
than its direct action. So to be clear, I consider Lashkar-e-
Taiba a very serious threat to the United States, but the 
threat to the homeland I think rests primarily in its training 
and its recruitment.
    The Mumbai attack struck very close to home for me 
personally. During much of my ethnographic field work in India, 
I lived just a few blocks from the attack sites. One of the 
victims was a good friend of mine, a man without whom I could 
not have conducted my doctoral research.
    He was an elderly Muslim cleric, easily identifiable as 
such by his white beard and skull cap, but the gunman shot him 
down at close range. My friend survived the attack, but 166 
others, including 6 Americans, were not as lucky.
    I wish I could say this cannot happen here, but I am afraid 
it can. Lashkar-e-Taiba was responsible for the Mumbai attacks, 
but the next Mumbai, that is, an attack dramatic enough to 
install widespread terror even without weapons of mass 
destruction or a death toll in the thousands, that might be 
thought of as Boston squared. It wouldn't require the resources 
of Lashkar-e-Taiba or of al-Qaeda in order to achieve its aims, 
as Chief Pfeifer has so ably noted.
    Where does the Lashkar threat to the United States lie? 
First, it is one of the most capable and experienced terrorist 
groups in the world, and a de facto affiliate of al-Qaeda. 
Moreover, as the Chairman has rightly noted, Lashkar has long 
enjoyed support from elements of the Pakistani military and its 
spy service, ISI.
    Second, Lashkar has killed American citizens before, both 
in India and Afghanistan, and is likely to do so in the future. 
Third, Lashkar has a unique potential to precipitate a major 
war, possibly a nuclear exchange between India and Pakistan.
    Fourth and perhaps most dangerous from a homeland 
perspective, Lashkar remains a factory churning out violent 
extremists. Even if the group's central command refrains from 
launching attacks in the United States, its alumni network and 
splinter cells may not show such restraint.
    So why would Lashkar refrain from hitting the homeland? For 
the very same reason that it remains such a threat in South 
Asia. Its complex relationship with Pakistan's military. ISI 
has drawn a red line prohibiting Lashkar from attacks in the 
United States. As all mutual fund investors know, past 
performance is no guarantee of future results. But so far at 
least, that ban has stood.
    If Lashkar's threat--if Lashkar abides by its red lines, do 
we have to worry about a Mumbai-style attack in America? Yes we 
do, just not at least for now from Lashkar. What made Mumbai so 
shocking was not its body count or the fact that the attackers 
had infiltrated from abroad.
    By 2008, Mumbai had suffered at least seven major attacks 
in the prior decade-and-a-half, all of them with suspected 
links to Pakistan and two with significantly higher levels of 
fatality. A key difference between this attack and prior 
results was psychological impact.
    Two years earlier, serial railway blasts killed 209 
victims, but they lasted a total of 11 minutes. The 2008 
shootings took 43 fewer lives than these railway blasts, but 
they kept the entire population of Mumbai in a state of fear 
from Wednesday to Saturday.
    For half a week, the terrorists threw India's largest city 
into chaos. They humiliated all levels of government, showed 
the police and the military unable to maintain control. Mumbai 
is sometimes called the New York City of India. Lashkar-e-Taiba 
executed the equivalent of attacking the Empire State Building, 
the Statue of Liberty, and Grand Central Station all at once.
    Could that happen here? Not precisely. Our high-profile 
targets aren't as soft as Mumbai's were then. Even Mumbai's 
high-profile targets aren't as soft now as they were then. But 
in terms of iconic impact, actions not too far short of Mumbai 
already have occurred here.
    Less than 2 months ago, the Boston Marathon blasts had a 
similarly dramatic effect. As Congressman Keating knows better 
than most of us, they kept a city and a Nation on eggshells for 
4 days.
    In 2002, Washington, DC, Maryland, and Virginia were 
virtually paralyzed for 3 weeks by the Beltway snipers. These 
attacks together, one with pressure cooker bombs, one with 
firearms, may provide a glimpse of Mumbai in America.
    I would like to conclude with what a Boston squared attack 
might look like here. It might, like Mumbai in 2008, rely on 
small arms and simple explosives rather than chemical, 
biological, or other advanced weapons. It might, like Mumbai in 
2006, rely on simple improvised explosive devices requiring no 
special training. Like the Boston Marathon bombs and like 
Mumbai in 2006, pressure cookers were the device. But before we 
ban pressure cookers, let's remember how many different types 
of IEDs our troops have faced in Afghanistan and in Iraq.
    It might, like both of these Mumbai attacks, as well as 
bombings in 1993 and 2003, rely on multiple teams hitting 
several soft targets at once, as Chief Pfeifer has noted. Such 
an action could be accomplished by a particularly competent set 
of independent operators or by a terrorist group far less 
capable than Lashkar.
    Getting to Ranking Member Higgins's point, is this the only 
group we have to worry about? Definitely not. That is why 
Lashkar remains such a threat, in my judgment, not as an 
operator per se but as a producer of terrorists, terrorists 
that sometimes operate for Lashkar, sometimes for al-Qaeda, 
sometimes for groups that are spread all throughout the world.
    This really is why, in my view, Lashkar is a threat not 
only to U.S. interests and citizens abroad but to the American 
homeland. I thank you, and I look forward to your questions.
    [The prepared statement of Mr. Blank follows:]
                 Prepared Statement of Jonah Blank \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                             June 12, 2013
 lashkar-e-taiba and the threat to the united states of a mumbai-style 
                               attack \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT390.html.
---------------------------------------------------------------------------
    Mr. Chairman, Mr. Ranking Member, Members of the committee, it is 
an honor to appear before you today. This hearing addresses two 
significant threats to America's security and vital interests: Lashkar-
e-Taiba, and the potential for a Mumbai-style attack here in the United 
States. Both threats are timely, and receive far less attention than 
they warrant--but they are not necessarily related. Lashkar-e-Taiba 
(LeT) poses a grave danger to U.S. interests and citizens in South 
Asia, but is less of an immediate risk to the American homeland. A 
Mumbai-style attack--that is, an attack dramatic and shocking enough to 
inspire widespread terror even without the use of weapons of mass 
destruction or a casualty-count in the thousands--remains a realistic 
near-term threat to the homeland. Such an attack might be termed, 
``Boston Squared''--that is, an attack similar to the Boston Marathon 
bombing in April, but much larger in effect--and wouldn't require the 
resources of Lashkar-e-Taiba or al-Qaeda in order to achieve its aims.
    Before turning to lessons that the Mumbai attack of 2008 might hold 
for homeland security here (a topic on which my colleague Brian Jenkins 
has provided expert analysis), I'll spend a few minutes outlining why I 
regard Lashkar-e-Taiba as a very significant threat to American 
interests and citizens abroad--and less of a threat here at home.
    Lashkar-e-Taiba is one of the most capable, experienced, resourced, 
and politically-protected terrorist groups in the world. For more than 
two decades it has carried out acts of terrorism, as well as more 
traditional guerrilla warfare, in both India and Afghanistan. LeT 
enjoyed virtually open support from the Pakistani state throughout the 
1990s, and has received at least tacit protection (in my view, also 
active facilitation and guidance) from Pakistan's Inter-Services 
Intelligence Directorate (ISI) since the group was officially banned by 
Islamabad in 2002.\3\ In addition to whatever support it still receives 
from ISI, Lashkar has a global network of fundraising and recruitment 
that frees it from complete reliance on its traditional patron.
---------------------------------------------------------------------------
    \3\ For studies outlining ISI support to Lashkar-e-Taiba, as well 
as some of the other basic facts about LeT, see South Asian Terrorism 
Portal: http://www.satp.org/satporgtp/countries/india/states/jandk/
terrorist_outfits/lashkar_e_toiba.htm; Ashley J. Tellis, ``The Menace 
That Is Lashkar-e-Taiba,'' Carnegie Endowment for International Peace 
(Washington, DC: March, 2012): http://carnegieendowment.org/files/
LeT_menace.pdf; and Anirban Ghosh, Arif Jamal, Christine Fair, Don 
Rassler, Nadia Shoeb, ``The Fighters of Lashkar-e-Taiba: Recruitment, 
Training, Deployment and Death'' (West Point, NY: Combating Terrorism 
Center at West Point, April 4, 2013): http://www.ctc.usma.edu/posts/
the-fighters-of-lashkar-e-taiba-recruitment-training-deployment-and-
death.
---------------------------------------------------------------------------
    The bulk of LeT's terrorist actions have been carried out in India. 
Most of these have targeted Kashmir, but at least five major attacks on 
civilian targets have been credibly attributed to Lashkar elsewhere in 
India: Three in New Delhi, one in Varanasi, and two in Mumbai.\4\ Given 
this focus, why does LeT pose a threat to the United States?
---------------------------------------------------------------------------
    \4\ The five highest-profile Indian attacks credibly linked to LeT 
outside of Kashmir are: Delhi, Red Fort, 2000 (LeT operative Ashfaq 
Arif was convicted and executed; http://www.bbc.co.uk/news/world-south-
asia14471793 P); New Delhi, Parliament House, 2001 (LeT is believed to 
have cooperated with Jaish-e Muhammad for this attack: http://
www.longwarjournal.org/archives/2010/11/us_treasury_sanction_1.php); 
New Delhi, Diwali market bombings, 2005 (60 dead, 527 maimed. LeT 
denied responsibility, but is widely assumed to have orchestrated the 
attacks: http://www.abc.net.au/news/2005-11-01/diwali-begins-as-delhi-
mourns-bomb-victims/2136636; http://news.bbc.co.uk/2/hi/south_asia/
4395346.stm); Varanasi, 2006 (more than 20 dead, responsibility claimed 
by previously and subsequently unknown group Lashkar-e Qahab, believed 
to be LeT front: http://articles.timesofindia.indiatimes.com/2006-03-
09/india/27822334_1_varanasi-blasts-twin-blasts-outfit); Mumbai, July 
11 2006 railway blasts (Sometimes called the ``7/11'' attacks, for the 
date on which they occurred; 211 dead, about 400 maimed, over 768 
injured less severely; Lashkar-e Qahhar, also believed to be a front 
for LeT, claimed responsibility: http://www.idsa.in/
idsastrategiccomments/MumbaiSerialBlastsPortend- 
DangerousTrends_AKamboj_190706); Mumbai, November 2008 attacks: LeT 
operative David Headley outlined the group's role in U.S. court 
testimony (http://www.justice.gov/opa/pr/2013/January/13-nsd-104.html), 
and Pakistan's own investigation implicated LeT (http://
www.telegraph.co.uk/news/worldnews/asia/pakistan/9672494/Pakistan-
details-how-Lashkar-e-Taiba-2008-Mumbai-attack-gunmen-were-
trained.html).
---------------------------------------------------------------------------
    First, Lashkar-e-Taiba is a de facto affiliate of al-Qaeda, and is 
believed to have joined Usama bin Laden's International Islamic Front 
for Jihad sometime after the umbrella group's famous fatwa in 1998.\5\ 
When al-Qaeda's Chief Operating Officer Abu Zubaydah was captured in 
Faisalabad, Pakistan in 2002, the site where he was located was an LeT 
safe-house.\6\ In rhetoric, at least, LeT has openly declared itself to 
be a committed threat to America.\7\
---------------------------------------------------------------------------
    \5\ http://www.satp.org/satporgtp/usa/IIF.htm. Also http://
carnegieendowment.org/files/LeT_menace.pdf.
    \6\ http://www.cfr.org/pakistan/lashkar-e-taiba-army-pure-aka-
lashkar-e-tayyiba-lashkar-e-toiba-lashkar-taiba/p17882.
    \7\ http://www.worldaffairsjournal.org/article/next-al-qaeda-
lashkar-e-taiba-and-future-terrorism-south-asia.
---------------------------------------------------------------------------
    Second, LeT has killed American citizens in South Asia, and remains 
a threat to Americans in that region. In the 2008 attack on Mumbai, for 
example, four Americans were killed and two were seriously injured. In 
Afghanistan, LeT militants have fought in conventional and 
unconventional actions alongside cadres of the Taliban, the Haqqani 
Network, and al-Qaeda; for example, in July 2008, LeT fighters are 
believed to have been among a 400-strong insurgent force that nearly 
overran a Coalition outpost near Wanat in Nuristan, killing 9 U.S. 
troops and wounding 15 others.\8\
---------------------------------------------------------------------------
    \8\ http://www.longwarjournal.org/archives/2013/04/
isaf_captures_lashka.php.
---------------------------------------------------------------------------
    Third, Lashkar-e-Taiba has always been, and is likely to remain, a 
factory churning out violent extremists. Even if the group itself 
continues to limit its attacks to South Asia, its alumni network and 
splinter cells show no such restraint. Several terrorist plots in 
Europe--fortunately, most foiled well before completion--have had LeT 
linkages. One such plot was a proposed attack on a Danish newspaper and 
other sites in Copenhagen, in which American LeT operative David 
Headley conspired in 2009 with the high-level al-Qaeda commander Ilyas 
Kashmiri.\9\
---------------------------------------------------------------------------
    \9\ http://news.outlookindia.com/items.aspx?artid=700541. Ilyas 
Kashmiri had close ties to ISI during the 1990s, and his intelligence 
liaisons are said to have unsuccessfully tried to steer him towards 
joining Jaish-e Muhammad, a Pakistan-based terrorist group that has 
operated in concert with LeT in the past. He was killed in a drone 
strike on June 4, 2011. http://www.longwarjournal.org/archives/2009/10/
kashmiri_lashkaretai.php.
---------------------------------------------------------------------------
    LeT has contributed to terrorist recruitment in Europe through what 
British counterterrorism authorities refer to as Lashkar's ``jihadi 
escalator'': Recruits are drawn to one of the training camps run by 
LeT, whether near its headquarters in Muridke (for purely ideological 
instruction) or in Pakistan's Azad Kashmir and Federally Administered 
Tribal Areas (for instruction involving weaponry and advanced combat 
skills). Many recruits get off at lower levels, but the most committed 
ride the escalator up to the top floor: Membership in LeT, al-Qaeda, or 
any of at least a dozen terrorist groups that draw from Lashkar's 
training and enlistment machine.
    Fourth, LeT has a unique potential to precipitate a major war 
between India and Pakistan. Due to its traditional sponsorship by 
Pakistan's military, an attack by LeT is regarded by India as nearly 
synonymous with an attack by the state of Pakistan. At least twice in 
the recent past--after the 2008 Mumbai attack, and after the 2001 
attack on India's Parliament--New Delhi came very close to launching a 
military strike across the border in response to an attack attributed 
to LeT. As the 1999 Indo-Pakistani combat at Kargil demonstrated, any 
serious military engagement between these two rivals runs the risk of 
nuclear escalation: During the Kargil episode, the Pakistani military 
began mobilizing the nation's nuclear assets without the knowledge of 
the civilian prime minister.\10\ Apart from the risk to tens of 
thousands of American citizens in India and Pakistan, the threat of a 
nuclear exchange anywhere in the world would obviously have a 
monumental impact on U.S. strategic and economic interests.
---------------------------------------------------------------------------
    \10\ Bruce Riedel, American Diplomacy and the 1999 Kargil Summit at 
Blair House, Policy paper series, Center for Advanced Studies of India, 
2002. p .11. The prime minister during that crisis, Nawaz Sharif, was 
sworn into office for a third term on June 5, 2013. http://
media.sas.upenn.edu/casi/docs/research/papers/Riedel_2002.pdf.
---------------------------------------------------------------------------
    So why is Lashkar-e-Taiba NOT an immediate threat to the U.S. 
homeland? For the very same reason that it is such a uniquely 
problematic threat in South Asia: Its sponsorship by Pakistan's 
military. According to former Directors of ISI and other retired 
Pakistani generals I have interviewed, the nation's military 
interlocutors have drawn a red-line prohibiting Lashkar from 
undertaking any attacks in the United States or Europe. Thus far, this 
ban has been respected by LeT's leadership: Relatively few plots 
outside of South Asia have been detected, and all have been the work of 
disaffected splinter cells.
    Based on interviews I have conducted in Pakistan, in Britain, and 
in India, there is wide-spread sentiment among counterterrorism 
professionals that LeT's top leadership--including the group's leader 
Hafez Saeed and his close associates--is likely to respect whatever 
restrictions are laid out by ISI. For Lashkar, the stakes for crossing 
ISI are too great to take the risk; for ISI, the risks of crossing the 
United States are too great to take the risk.
    This line of analysis was challenged by the revelation--on May 2, 
2011--that Usama bin Laden had been hiding in a safehouse next door to 
the Pakistan Military Academy in Abbotabad.\11\ If Pakistan's top 
generals could have sheltered America's most wanted terrorist (the 
counterargument goes), why would they hesitate to unleash LeT on 
America? The fact remains, however, that Lashkar's commanders have 
never authorized an attack in the United States, despite having 
operatives here. For example, in 2006 nine Virginia residents (Muhammed 
Aatique, Hammad Abdur-Raheem, Ibrahim Ahmed Al-Hamdi, Seifullah 
Chapman, Khwaja Hasan, Masoud Khan, Yong Kwon, Randall Todd Royer, and 
Donald Surratt) were convicted of conspiring to provide material 
support to LeT: The group played paintball and travelled to Pakistan 
shortly after 9/11 to attend LeT training camps, but only with the 
intention (according to the Department of Justice) of waging war 
outside the United States.\12\
---------------------------------------------------------------------------
    \11\ There is no direct proof linking implicating General Pervez 
Musharraf (who was Chief of Army Staff when bin Laden is believed to 
have taken up residence at Abbotabad) or General Ashfaq Kiyani (who was 
Director of ISI at the time, and is now Chief of Army Staff). But 
former ISI chief Gen. Ziauddin Khwaja is quoted by former National 
Security Council Senior Director Bruce Riedel as saying that Musharraf 
``knew Bin Laden was in Abbottabad.'' (Bruce Riedel, ``Pakistan's 
Musharraf Has Been Accused of Knowing Bin Laden's Hideout,'' The Daily 
Beast, Feb. 14, 2012: http://www.thedailybeast.com/articles/2012/02/13/
pakistan-smusharraf-has-been-accused-of-knowing-osama-bin-laden-s-
hideout.html). Moreover, it seems hard to imagine that bin Laden would 
choose to hide right next to a Pakistani military establishment--
leaving behind the safety and protection of his heavily-armed tribal 
hosts in Waziristan--without being convinced that he'd be sheltered by 
the very highest levels of the Army's leadership.
    \12\ According to the Justice Department's statement, Al Hamdi was 
convicted obtaining training ``for the purpose of enhancing his ability 
to train for violent jihad in Chechnya, Kashmir, or other places 
outside of the United States;'' Three others, ``Yong Kwon, Muhammed 
Aatique, and Khwaja Hasan--all of whom pled guilty--stated that they 
went to the Lashkar-e-Taiba camp to obtain combat training for the 
purpose engaging in violent jihad in Afghanistan'', http://
www.justice.gov/opa/pr/2004/April/04_crm_225.htm.
---------------------------------------------------------------------------
    LeT operations outside of India and Afghanistan have generally been 
focused not on attacks, but on fundraising, recruitment, and aid for 
operations back in South Asia. For example, in April 2012, an 
electrician named Jubair Ahmad, was sentenced in Alexandria, Virginia, 
to 12 years in prison after pleading guilty to providing material 
support to LeT by producing an internet recruitment video.\13\ This 
pattern shows no immediate sign of changing--but I'll offer the same 
disclaimer that mutual funds give to investors: Past performance is no 
guarantee of future results.
---------------------------------------------------------------------------
    \13\ Ahmad lived in Woodbridge, VA. He reportedly also tried to 
recruit LeT operatives, received LeT training himself, and sought 
donations for the group. He was born in Sialkot, arrived in the United 
States in 2007, and became a permanent resident. http://www.wjla.com/
articles/2012/04/jubair-ahmad-sentenced-to-12-years-behind-bars-
74909.html.
---------------------------------------------------------------------------
    If Lashkar-e-Taiba is not an immediate threat to the U.S. homeland, 
do we have to worry about a Mumbai-style attack in America? Not much--
if we define ``Mumbai-style attack'' as ``an attack executed much like 
that of LeT's 2008 operation in Mumbai.'' My colleague Brian Jenkins 
has outlined many of the reasons that such an attack would be unlikely 
to succeed in the United States, and witnesses from law enforcement are 
likely to reinforce this point. The tactical capabilties of most 
American counterterrorism responders is well above that of their Mumbai 
counterparts in 2008 (indeed, the capabilities of India's own 
responders, in Mumbai and elsewhere, is now well above the 2008 level). 
But the next Mumbai-style attack won't necessarily look like the last 
one.
    If we define ``Mumbai-style attack'' by its impact rather than its 
methods, however, such an action becomes far more plausible--and it 
wouldn't require a group as capable as Lashkar-e-Taiba to achieve its 
aims. What made Mumbai so shocking was not its body count, or even the 
fact that the perpetrator was a state-sponsored terrorist group. Mumbai 
has suffered at least 7 bombings since March 12, 1993, when 257 people 
were killed and 700 were injured in a series of 13 coordinated 
explosives; these attacks were attributed to Dawood Ibrahim, a self-
exiled Mumbai crime-lord with longstanding ties to ISI (since 1993, he 
is believed to have moved freely between Dubai and the Pakistani city 
of Karachi).\14\ Just 2\1/2\ years before the 2008 attack, there was 
another coordinated set of bombings, this one targeting Mumbai's 
railways: Like the Dawood action, this one killed a lot more people 
than the 2008 attacks--209 compared with 166--and injured over twice as 
many (more than 700, compared with about 308). The suspected 
perpetrator was identified by Mumbai police as affiliated with LeT, 
perhaps working in concert with an Indian extremist group.\15\
---------------------------------------------------------------------------
    \14\ http://www.hindustantimes.com/India-news/NewDelhi/Dawood-
Mumbai-blasts-mastermind-eludes-justice/Article1-1030228.aspx.
    \15\ http://www.theepochtimes.com/news/6-7-13/43897.html.
---------------------------------------------------------------------------
    So why has the 2008 attack become so iconic, both in India and 
around the world? A key difference was duration: The seven railway 
blasts on July 11, 2006, lasted a total of 11 minutes. The 2008 
shootings kept the entire population of Mumbai--at that time, 14 
million people, if suburbs are included--in a state of constant fear 
from Wednesday night to Saturday morning.
    During that period, the terrorists had succeeded in throwing 
India's largest city into chaos. They humiliated the municipal, state, 
and national governments, and showed that the police and military were 
unable to maintain control even over the country's financial and 
cultural center. Mumbai is sometimes referred to as the ``New York'' of 
India--and Lashkar-e-Taiba executed the equivalent of capturing and 
holding the Empire State Building, the Statue of Liberty, and Grand 
Central Station all at once.
    In terms of iconic impact (that is, impact that is itself so 
dramatic as to create a new expression of terrorism--attacks targeting 
cultural icons), actions not too far short of Mumbai already have 
occurred here. Less than 2 months ago, the Boston Marathon blasts had a 
similarly dramatic effect, and kept both a city and a Nation in a state 
of uneasy tension until the perpetrators were brought down 4 days 
later. In October 2002, Washington, DC and the surrounding areas were 
paralyzed for 3 weeks by the Beltway Sniper. Both of these attacks 
caused fewer deaths than other post-9/11 mass killings in the U.S. 
homeland: The Boston toll was 3 dead, while the Beltway snipers killed 
10. By contrast, mass shootings at Sandy Hook Elementary School in 
December 2012 and Virginia Tech in November 2007 killed 26 and 32 
respectively. The Tech shooting spree alone was more than ten times as 
deadly as the Marathon bombing--but the Boston attack spread wider 
terror. The shootings in Virginia were part of a long, tragic pattern 
of largely apolitical gun violence: Jonesboro, Columbine, Paducah, 
Aurora--the list goes on. But bombing a marathon was something new: It 
struck not only at Boston, and runners, at amateur athletes, at 
everyone who's come out to compete or cheer a loved one across the 
finish line.
    What might a Mumbai-style attack look like in America? Perhaps like 
``Boston Squared'':
  <bullet> It might, like the Mumbai attack of 2008, rely on small-arms 
        and simple explosives rather than chemical, biological, or 
        other more advanced weapons. The firearms used in Mumbai were 
        primarily AK-47s--perhaps the most widely-available firearm in 
        the world.\16\ Semi-automatic rifles are far more easily 
        available in America than in India, and can be modified to fire 
        fully-automatically without advanced training; one YouTube 
        video demonstrates the conversion technique in just over 2 
        minutes.\17\
---------------------------------------------------------------------------
    \16\ According to a World Bank report, assault rifles in the 
Kalashnikov family (AK-47s, AKM, AK-74, etc.) represent one-fifth of 
the 500 million small arms in the world, with AK-47's representing 
approximately three-quarters of the Kalashnikov total: Phillip 
Killicoat, ``Weaponomics: The Global Market for Assault Rifles.'' World 
Bank Policy Research Working Paper 4202 (Post-Conflict Transitions 
Working Paper No. 10: April 2007),p. 3. http://www-wds.worldbank.org/
servlet/WDSContentServer/WDSP/IB/2007/04/13/000016406_200704- 13145045/
Rendered/PDF/wps4202.pdf.
    \17\ Link is not provided in the interest of public safety, but 
this witness was able to find the site with less than half a minute of 
internet research.
---------------------------------------------------------------------------
  <bullet> It might, like the Mumbai railway attacks of 2006, rely on 
        simple improvised explosive devices, requiring no special 
        training to construct. The bombs for these attacks were made 
        from widely-available pressure cookers--just like the bombs in 
        Boston. The surviving suspect in the Boston attack, Dzhokhar 
        Tsarnaev, allegedly told police that he and his brother learned 
        how to construct their devices from an internet site set up by 
        al-Qaeda's Yemeni affiliate.\18\ Before banning pressure 
        cookers, we should remember the exceptional range of materials 
        used to construct IEDs deployed against our troops in 
        Afghanistan and Iraq.\19\
---------------------------------------------------------------------------
    \18\ http://www.dailymail.co.uk/news/article-2313782/Dzhokhar-
Tsarnaev-Boston-Marathon-bomber-admits-learned-build-bomb-Inspire-
magazine.html.
    \19\ http://www.globalsecurity.org/military/intro/ied.htm.
---------------------------------------------------------------------------
  <bullet> It might, like Mumbai, rely on a small team hitting several 
        soft targets simultaneously. While LeT engaged in considerable 
        reconnaissance and logistical effort prior to the Mumbai attack 
        (much of it by U.S. citizen David Headley), little of this was 
        strictly necessary. Site-selection required scant on-the-ground 
        expertise: The Taj Hotel is the city's most identifiable 
        landmark, the Oberoi is Mumbai's second-most prominent hotel, 
        and Chhatrapati Shivaji Rail Station has been the city's 
        transit hub ever since it was constructed in 1887 as Victoria 
        Terminus.\20\ None required any particular tradecraft or 
        surveillance to locate or breach. Soft targets abound in 
        Mumbai--as they do in every American city.
---------------------------------------------------------------------------
    \20\ The other targets were more peripheral: The Leopold Cafe, an 
establishment catering to budget-minded foreign tourists and C-list 
Bollywood hangers-on, may have been thrown in (like Metro Cinema) at 
the behest of local facilitators; the Chabad House was added as a 
target after the major sites at the insistence of LeT organizers 
seeking the global symbolism of a synagogue or Jewish cultural center; 
St. Xavier's College may have served a similar function for its 
Christian symbolism; Cama Hospital appears to have been a target of 
opportunity, accidentally embroiled when gunmen tried to flee the 
nearby rail terminal.
---------------------------------------------------------------------------
  <bullet> It might require little sophisticated training. This is a 
        difference from Mumbai's plan as executed--but didn't have to 
        be. LeT probably provided its 10 operatives with more 
        instruction than they needed. They are said to have received 
        both the group's basic course (Daura Aam) and its advanced 
        combat course (Daura Khaas), as well as instruction for 
        maritime operations and specialized commando drills.\21\ This 
        may well have been necessary to strengthen the operatives' 
        resolve: The psychological ability to execute mass killings is 
        not part of most individuals' make-up.\22\ From a purely 
        technical perspective, however, the basic skill-set necessary 
        to complete the mission was far more modest: Ability to fire 
        small arms, toss grenades, and read a map.
---------------------------------------------------------------------------
    \21\ Praveen Swami, ``A Journey Into the Laskar,'' The Hindu, 
Chennai, December 2, 2008. http://www.hindu.com/2008/12/02/stories/
2008120259961000.htm.
    \22\ One of the most widely-cited data-points in discussions of the 
psychology of combat is S.L.A. Marshall's 1947 classic Men Against Fire 
(current edition: University of Oklahoma Press, 2000), which reported 
that only one-quarter of U.S. infrantrymen who engaged in active combat 
during World War Two actually fired their weapons. Marshall's 
methodology and statistical conclusion have been criticized since his 
death in 1977 (see http://strategicstudiesinstitute.army.mil/pubs/
parameters/Articles/03autumn/chambers.pdf). The underlying premise, 
however--that most untrained individuals do not easily kill, even when 
societal norms and the laws of self-preservation give them sanction to 
do so--is the basis for much of the basic training in U.S. and other 
militaries.
---------------------------------------------------------------------------
  <bullet> It might, like Boston, require little sophisticated 
        infiltration, and no exfiltration. There was no infiltration 
        requirement for the suspected Boston bombers: One was an 
        American citizen, the other a legal resident. LeT opted for a 
        logistically-challenging infiltration method in Mumbai: By sea, 
        at night, employing GPS navigation, with a landing-point not 
        far from a major Navy and Army cantonment. But this may not 
        have been necessary: India has porous borders with Bangladesh 
        and Nepal (countries in which LeT has been active in the past), 
        and Lashkar had nearly two decades of experience infiltrating 
        its operatives by land into Kashmir. Once inside India, the 
        attack team could have reached Mumbai in the same way that 
        thousands of migrants, both internal and external, reach the 
        megalopolis every week: Bus, train, or car. As for 
        exfiltration: LeT (and possibly the Boston attackers) never 
        intended their journey to require an exit.
    What does this tell us about the possibility of a similar attack in 
America?
    First, that such an action is not beyond the capabilities of even a 
group far more modestly equipped, funded, and politically protected 
than Lashkar-e-Taiba: Such an attack does not require a state sponsor, 
does not require a major international terrorist organization, and may 
not (if one defines ``Mumbai-style'' by impact rather than by method 
used) require sophisticated planning, training, or execution. It could 
be accomplished by a particularly competent team of ``lone wolves'': If 
the Tsarnaev brothers had happened to befriend the Washington Sniper 
duo, those four men could have achieved ``Boston Squared.'' Two of 
these killers were U.S. citizens, one a legal resident, and the last 
was recruited after he'd already reached America; not one of them was 
linked to a foreign terrorist group, and the only one with real 
training in lethal arts (John Allen Muhammad) received his instruction 
in the United States Army.
    Second, that the key complicating factors for the terrorist team in 
Mumbai were largely of their own making, and may have stemmed from the 
planners' unwillingness to trust the operators.\23\ As Brian Jenkins 
correctly notes in his testimony, the challenge of assembling a 10-man 
team all fully committed to a professionally-run terrorist suicide 
operation is quite daunting. But if one defines ``Mumbai-style'' by 
impact rather than prior example, it wouldn't require a 10-man 
professional team. Even the actual Mumbai operation didn't rely on 
complete team compliance: If a few of the two-man teams had deserted at 
the last minute, the impact on the overall mission would have been 
arithmetic rather than geometric--that is, the attack would have been 
somewhat less devastating, but the terrible mission might well have 
proceeded largely intact. Mumbai reminded us how easy it is for a small 
band of killers to create widespread--but transitory--terror.
---------------------------------------------------------------------------
    \23\ LeT operators stayed in contact with the attack team 
throughout the operation, via cell phone and Voice Over Internet 
Protocol (VoIP). This does not seem, however, to have been an 
operational necessity: The controllers do not appear to have relayed 
any vital tactical information, merely to have urged the operators to 
maintain their pre-arranged targeting. Likewise, the risky infiltration 
method could have been avoided by sending the operatives in by land, 
whether in Kashmir or through Bangladesh or Nepal. Why did Lashkar 
choose to complicate its mission unnecessarily? One possible answer is 
that LeT did not have sufficient confidence in its operatives to permit 
them to carry out their mission unsupervised. Had the attack team been 
given its mission before a simple land infiltration and left to execute 
the orders without further contact, there may never have been proof of 
LeT (let alone ISI) involvement.
---------------------------------------------------------------------------
    So what can we do? On the issue of Lashkar-e-Taiba, we could try to 
work with the government of Pakistan to construct a glide-path to 
decommission the organization. This would have to be done with the full 
cooperation of the Pakistani military, because any attempt to do so 
without the partnership of Pakistan's army and ISI has no realistic 
chance of success. Would the Pakistani military agree to such a plan? 
At present, no. But there is a growing sentiment within the ranks of 
general officers I have interviewed that Lashkar and similar groups now 
represent a real danger to Pakistan's own interests--and, equally 
importantly, to the institutional interests of the military itself.\24\ 
From a U.S. perspective, it's simply unacceptable that for a Major Non-
NATO Ally to shelter and support a terrorist group officially committed 
to the killing of Americans.
---------------------------------------------------------------------------
    \24\ I have spoken with several retired top-level Pakistani 
generals who expressed these sentiments, and said that their concerns 
are shared among a growing minority of their brother-officers. As the 
U.S. withdrawal from Afghanistan proceeds, and as issues like supply 
lines through Torkum Gate and Spin Boldak recede in importance, we may 
be able to raise Lashkar-e-Taiba much higher on our priority list. 
Three years from now, it is possible that the number of U.S. troops 
killed by the Haqqani network will drop permanently to zero--but 
Lashkar-e-Taiba will present a serious threat to America for as long as 
it remains in operation.
---------------------------------------------------------------------------
    On the issue of dealing with a Mumbai-style attack, one thing we 
can do is take a lesson from the citizens of both Mumbai and Boston. 
The reason the attacks in these cities were so jarring was that they 
stripped away the illusion of safety. A few weeks ago, however, the 
citizens of Boston confronted an unspeakable evil--not with panic but 
with quiet, rock-solid resolve. That's what the citizens of Mumbai did 
in 2008--indeed, at least half a dozen times in recent years. 
Unfortunately, that is what other citizens, in the United States as 
well as elsewhere, will be called on to do in the future.
    The Mumbai attack had special meaning for me: I used to live in 
Mumbai, just a few blocks from the site of most of the attacks. I used 
to buy American newspapers from the Taj bookshop, stop by the Leopold 
Cafe for a cold beer, watch a movie at the Metro Cinema, take trains 
from the terminal that locals still call by its colonial-era initials 
of ``VT.''
    One of the victims of the Mumbai attack was a friend of mine. He 
was man without whom I wouldn't have been able to conduct my 
ethnographic fieldwork. He was an elderly Muslim cleric, easily 
identifiable as such by his white beard and skullcap--but the gunmen 
still shot him at close range.
    My friend survived the attack with relatively minor wounds, but 
nearly 200 others weren't as lucky. I wish I could say, ``It can't 
happen here,'' but it can.
    We can do everything in our power to lessen the likelihood, but we 
also have to steel ourselves for the fact that we will not always 
succeed. Thank you, and I look forward to your questions.

    Mr. King. Dr. Blank, thank you very much for your 
testimony, and thank all the witnesses for their testimony. My 
first question will be to Chief Pfeifer. Does the FDNY have 
access to sufficient classified information to stay informed 
about current threats to the homeland? Do you feel you are 
being kept updated?
    Chief Pfeifer. Right now we have two fire marshals that sit 
on the JTTF in New York. We have a fire lieutenant in the 
National Counterterrorism Center. Myself, along with a number 
of other people within the fire department, have top secret 
clearances.
    It is important that the fire service has intelligence. As 
Congressman Higgins mentioned, without intelligence, how are we 
going to know how to protect our homeland?
    Just recently, where a fully-funded position in NCTC, I was 
told was no longer going to be funded through NCTC. So we need 
to come up with our own funding source to maintain that 
position within the intelligence community. So we are in a 
position of looking for funds for that.
    But let me say one thing. It is not simply just about the 
FDNY. It is important that Buffalo has the information. So not 
only do we receive intelligence at the classified and 
unclassified level, we provide that to other parts of the city. 
So Buffalo right now gets our weekly intelligence paper called 
the Watchline, and that is able to be put in every fire house 
and police station.
    So I think as we look forward and try to define funding, it 
is how can we leverage those organizations like FDNY, a big 
fire department, how do we leverage that organization to the 
rest of the country? It is not simply let's give one city 
money. The city that receives the funding has a responsibility 
to provide information to the rest of the country.
    Mr. King. Thank you, Chief; ask the other three witnesses. 
The reality is there is going to be a U.S. withdrawal in 
Afghanistan by 2014. In that vacuum, specifically do you think 
LeT is going to play a role, is going to enhance their 
position? Also, as Dr. Blank saw LeT or some other group that 
can carry out a Mumbai attack in this country.
    Do you see anything we can be doing, directly referencing 
the 2014 withdrawal, to minimize the potential for either LeT 
or other groups to fill a vacuum to the extent that they can 
attack us? I will start with Dr. Fair and we will just work 
across.
    Ms. Fair. Now this is a really interesting question. So 
here is my take. As I said in my written testimony and 
elsewhere, Jamaat-ud-Dawa is very pro-state as an organization. 
If you read its publications, it actually takes on very 
directly those Deobandi organizations, which is a different and 
competitive interpretive tradition of Islam. It takes to task 
those groups that target Pakistanis.
    What is interesting in their book ``Why Do We Wage 
Jihad?'', you get to about page 33 and you get to this 
particular set of reasoning. They say that it is not 
appropriate to target Pakistanis and they offer a number of 
reasons.
    They then say that it is for that reason that we have to 
continue to fight what they call the external kufar, you know, 
basically us, the Indians, anyone who is not in Pakistan. They 
say that when we stop waging jihad on the external kufar, we 
will then turn our guns on Pakistan and the entire Pakistani 
project will basically be disintegrated.
    This points to a couple of paradoxes that confront the 
organization. On the one hand, they, like other Islamist 
terrorist organizations, they are under pressure to take their 
jihad outside of the theater of South Asia.
    But because they are, as I think all of us have agreed to 
one extent or another, are still very much as an organization 
under the thumb of the ISI, it seems that they have to 
calibrate this demand to operate abroad while continuing to 
enjoy access to the amenities that Pakistan itself offers.
    So if you were to think about what is the sweet spot for 
LeT to operate outside of South Asia but not do so in a way 
that is catastrophic that would be an act of war on the United 
States, I think European countries are actually perhaps more at 
risk than we are.
    Some of the Scandinavian countries have done things that 
have been very provocative to Islamists. They don't have the 
relationship with Pakistan. They are not a source of money in 
the way in which we are. So when I think about what are the 
other theaters where LeT could operate that would satisfy the 
requirement to operate outside of South Asia while retaining 
ties to the ISI, those are the theaters I think about.
    I think--now going back to this diaspora issue, it is also 
a fact that American Muslims, Muslims in other countries, 
converts in particular, continue to be radicalized by things 
that they see in Afghanistan. I do anticipate that we are going 
to see more, not less, of this diaspora involvement. Whether or 
not this ties to 2014 per se is really a different issue for a 
number of reasons.
    What I think we can do in the near term, given that we have 
this very real requirement to work with Pakistan, is, I do 
think we need to think about signaling to the Pakistanis very 
clearly that this stuff is just not acceptable.
    The last time an American official said to Pakistanis in 
public, ``Your government harbors terrorists,'' was Secretary 
Clinton in 2010.
    There was never an explanation about the waiver. ``By the 
way, we are doing this waiver because--well, we need to deal 
with you. But there is going to come a time when this isn't 
going to happen.''
    So, I think we should be taking advantage of the space 
between now and 2014 to really think through how do we handle 
Pakistan? Also, while we sort of hold our breath to 2014, think 
about what we can do right now.
    I have said this in other forum. I have absolutely no moral 
qualms with going after ISI individuals who are linked to LeT 
attacks using every Department of Treasury tool at our 
disposal, denying them and their children visas. I don't even 
have a problem with putting LeT in the JASA targeting list.
    If we have to basically acquiesce to the reality that we 
can't really do much about JUD within Pakistan, they become 
dangerous when they leave Pakistan. So maybe we should really 
be thinking about our law enforcements and other more 
aggressive tools to deal with LeT operatives once they leave 
Pakistan, if we have to sort of acquiesce to the political 
requirement that we can't do anything within Pakistan.
    Thank you.
    Mr. King. Dr. Tankel.
    Mr. Tankel. Thank you very much.
    Let me take the 2014 question and--and draw attention to 
two theaters within South Asia first. Here, I would also draw 
your attention to an article I wrote not too long ago for 
Foreign Policy called ``The Militant Groups Next Door,'' 
talking about the impact of the draw-down in Afghanistan on 
various actors like Lashkar-e-Taiba.
    The first is that, as U.S. forces draw down in Afghanistan, 
LeT is likely to seek to regenerate the conflict in India-
administered Kashmir. They have had their eyes there for some 
time. They see the U.S. draw-down, you know, and in their eyes, 
the reduction potentially in pressure leveraged on Pakistan is 
an opportunity for them to do so.
    That doesn't mean that they will leave Afghanistan. They 
are a robust-enough and elastic-enough group, in my opinion, 
that they will be able to keep some people in Eastern 
Afghanistan, specifically, Kunar and Nuristan provinces, where 
they have been working to carve out safe haven, as well as 
regenerating their jihad in Indian-administered Kashmir.
    Now, what does that mean for the dynamics within the group 
and for the threat to us?
    First, if they are unable to regenerate the conflict in 
Kashmir to a suitable level, and if they don't see the ISI as 
forthcoming enough with support, that could create tensions 
within the organization, and spur them, and contribute to that 
pressure to look further afield.
    Second, if they are able to maintain some safe haven in 
Afghanistan, that doesn't mean that they will be able to plan 
attacks against the United States or in European countries from 
that area, but it does provide another layer of plausible 
deniability. Which is that LeT can say, ``It wasn't us, it was 
X or Y splinter group in Afghanistan that did this to you.''
    So, I think those are two areas where we really need to 
keep our eyes on it. Again, I come back to the need for greater 
collection and greater resource allocation in terms of analysts 
to look at some of these issues.
    I would finally add, in terms of our relations with 
Pakistan and what can we do, it is my sense that for the last 
however-many number of years, when we have sat down at the 
table, our top asks have been about al-Qaeda, about 
Afghanistan, and then, you know, perhaps weapons of mass 
destruction.
    As U.S. forces draw down, and with al-Qaeda Central 
degraded, LeT should elevate in priority. You know, with all of 
the different tools that people have outlined, I think we need 
to be more prepared to use those tools, and to make that clear 
to the Pakistanis post-2014.
    Mr. King. Thank you.
    Dr. Blank.
    Mr. Blank. Thank you.
    Let me pick it up from where Dr. Tankel left off, since I 
very strongly agree with that, that 2014 can be an opportunity 
for us.
    Up until now, our ask list for Pakistan has had GLOCs, the 
ground lines of communication, perhaps, is No. 1. Al-Qaeda is 
No. 2, or No. 1, depending on what day of the week it is. 
Haqqani is perhaps No. 3.
    Somewhere way down on the list is Lashkar-e-Taiba. Two 
years from now, nobody in the United States is going to care 
much about the Haqqani network, because as soon as our troops 
are no longer in Eastern Afghanistan, the Haqqani network is 
not going to be a real--a top priority for us. Likewise, the 
ground lines of communication are not going to be a top 
priority for us when we no longer need them.
    Al-Qaeda, hopefully, will continue to be less of a priority 
in the future than it has in the past. That provides us the 
opportunity to raise Lashkar-e-Taiba up on the bid list. I see 
at least a potential for some good news there. Because right 
now, the reason that Lashkar-e-Taiba is so dangerous is its 
continuing ties with the Pakistani state.
    But there is a growing feeling within the Pakistani 
military cadre at the top leadership that this is not 
necessarily a good deal for Pakistan, either. I have spoken 
with several former D.G. ISIs, commanders of ISI, and other 
retired Pakistani generals, who have candidly said, ``Time is 
not on our side here.''
    This is not an organization that is in a static situation 
with us. They are going to turn on us sooner rather than later. 
We should be developing a glide path for helping Pakistan turn 
the fiction of LeT. The fiction is that LeT is dead, and 
Jamaat-ud-Dawa is a social service organization.
    We should be looking for a way of turning that fiction into 
a reality.
    Mr. King. Thank you, Dr. Blank.
    Now, the Ranking Member, as much time as you require, sir.
    Mr. Higgins. Yes, just--the comment of Dr. Blank on the 
issue of Lashkar-e-Taiba as a producer of terrorists is cause 
for great concern, particularly in Pakistan.
    Pakistan's a large country of about 180 million people, a 
lot of Islamic extremists, and they have nuclear weapons. A 
major goal of al-Qaeda and other extremist organizations is to 
gain access to nuclear weapons.
    When you consider that the Taliban is virtually controlling 
the Swat Valley some 90 miles from Islamabad, the prospects of 
an increasingly influential Lashkar-e-Taiba is a great concern.
    So, talk a little bit about the relationship again between 
Lashkar-e-Taiba and the Taliban, al-Qaeda, and other groups 
that may be emerging.
    The other concern I have is, you know, Pakistan views India 
as an existential threat to its very existence, real or 
perceived. You know, the dynamics of that relationship as it 
evolves moving forward, particularly within the context of the 
United States withdrawal of Afghanistan in 2014. Anybody who 
wants to take that.
    Ms. Fair. So, on this relationship issue, it is all too 
often that these groups just get lumped into one category. 
These organizations spend a lot of time differentiating 
themselves from each other, both for recruitment purposes and 
fund-raising purposes. So, I take seriously their own efforts 
to differentiate themselves from others.
    Al-Qaeda--the connection between al-Qaeda and Lashkar-e-
Taiba--I am a skeptic of that evidence. There have been al-
Qaeda personnel found in LeT safe houses, but that is also true 
of Jamaat-e-Islami.
    In fact, one of the reasons why I think LeT has, even 
though ideologically has more affinity to al-Qaeda, has been 
more aloof, is that it always had its own training camps in 
Afghanistan. So, the reason why it is in Afghanistan in Kunar 
and Nuristan is that that is actually where it began.
    There is historical reasons. There have always been Ahl-e-
Hadith adherents to these parts of Afghanistan, and so that has 
been the home territory for Lashkar-e-Taiba in Afghanistan.
    In contrast, most of the organizations that operate in and 
from Pakistan are associated with a movement called Deobandi. 
It is very different than the Deobandi in India. But they, much 
more than LeT, which recruits a very well-educated cadre, as we 
demonstrate in the Combating Terrorism Senate Report that I did 
with my colleagues, these are--the Deobandi groups--they will 
rely much more heavily upon a network of madrassas and mosques.
    So, for example, the Deobandi organizations produced the 
Afghan Taliban. The Pakistan Taliban--the groups that are 
targeting Shia--like you might have heard the expression 
Lashkar-e-Jhangvi. These organizations, because of their 
association with bin Laden in Afghanistan, have had much more 
integral and organic ties.
    So, for example, the attack that occurred in the U.S. 
consulate in Karachi--that was al-Qaeda in conception, but it 
was executed by local Deobandi groups Jaish-e-Mohammed and 
Lashkar-e-Jhangvi.
    So, it is really important that we understand how these 
groups interact. That just because the organizations have 
certain affinities, we have to remember that these are--once 
they train a militant, they have recruited someone essentially 
who has a taste for violence. As Dr. Tankel said, let's say 
that you have been recruited by LeT, but you are frustrated 
that you can't go to a mission in India, or you haven't been 
selected to go to Afghanistan to kill Americans. Because, 
again, the leadership is so involved in selecting people for 
these missions. There is nothing that stops you from going and 
joining the Pakistan Taliban.
    But for purposes of our discussion, and for purposes of 
holding Pakistan accountable, we do have to be careful. When it 
says, ``We, Pakistan, are a victim of terrorism,'' the response 
should be, ``Yes, you are a victim of terrorists that you 
cultivated,'' right? This doesn't in any way, shape, or form 
mitigate the relationship that you have with groups like 
Lashkar-e-Taiba.
    So, I think these distinctions are really important. They 
take themselves seriously.
    Mr. Tankel. I would just add to that, you know, I think it 
is also important to recognize that Lashkar-e-Taiba, 
specifically, is historically dichotomous in some ways. It has 
been willing to train many, many, many people who, you know, 
were not members of the group.
    After 9/11, when the training infrastructure was destroyed 
in Afghanistan, LeT picked up a significant amount of the 
slack, because it continued to have standing training camps. 
That doesn't mean that everybody stayed with the group 
afterwards.
    At the same time, it is a historically selfish 
organization. So, when it has come across people like David 
Headley, for example, who are--you know, have a particular set 
of specialized skills--in this case, the ability to speak 
English and a U.S. passport--they have sought to hold onto 
them.
    That creates, you know, a degree of competition 
specifically with al-Qaeda, which is seeking the same types of 
individuals. As a matter of fact, when Lashkar-e-Taiba pulled 
back on the plot in Denmark, David Headley went over and began 
working with al-Qaeda. He didn't leave LeT. He was working with 
both organizations. So that is a danger.
    The other point I would make more broadly, is that all of 
these groups collaborate and compete, as Dr. Fair said. LeT 
competes more than most, because it is--and others are 
Deobandi, but also because it is much closer to the state. So 
unlike most of the groups, it hasn't turned its guns on the 
state.
    It has actually been used against some of these actors by 
the ISI, while at the same time, collaborating with them. So 
Lashkar-e-Taiba militants, some could be providing intelligence 
on the Pakistani Taliban, and others could be working with them 
at al-Qaeda across the border in Afghanistan.
    That creates a very, very dangerous dynamic. Because of 
course, the risks from collaboration are obvious. The risks 
from competition should be obvious as well, which is to say 
that if you are a group that is trying to hold the line on 
turning your guns against the Pakistani state, while all the 
other people that you are working with are doing that, you look 
for other avenues where you can gain credibility.
    That doesn't mean on its face that you go and you attack 
the homeland. But it is another sort of point that can drive 
you in the direction of seeking to expand not necessarily 
against the homeland, perhaps in Europe, perhaps by adding 
Western targets to your target set in South Asia.
    Those are the types of dynamics I think that we need to 
keep in mind. I think it is--your question, Congressman, is a 
very, very important one, and really goes to the heart of some 
of the fast-evolving developments that are taking place within 
the militant landscape.
    Mr. Blank. I agree with Doctors Fair and Tankel. So rather 
than restate what they have said, I will just make a quick 
point about Lashkar-e-Taiba recruitment, and how that actually 
could be of concern to us here.
    Some of the most dangerous recruits that Lashkar is looking 
for, they don't look like what a lot of Americans would think a 
Lashkar-e-Taiba operative looks like. They look like me.
    If you see a picture of David Headley, he looks like a--you 
know, he had one eye is green and one eye was gray. He could 
have not been out of place on any American street. That is why 
he was so highly sought.
    Sajid Mir, the Lashkar-e-Taiba operative who is in charge 
of finding foreign recruits, went out of his way to find not 
just diaspora recruits, but Westerners, people from East Asia, 
anybody who could not fit the profile.
    So when we are thinking who is the, you know, who is the 
guy you should be afraid of, it is not me as I look like when I 
was living in Lahore, when I had a long beard and a skullcap 
and tried to speak only in--it is me right now. If you are on 
an airplane, and someone is ordering the Halal meal, that is 
not the guy you should be afraid of.
    Mr. Higgins. Yield back.
    Mr. King. Ranking Member yields back. I now recognize Mr. 
Keating for as much time as he requires.
    Mr. Keating. Thank you, Mr. Chairman. I want to focus on 
comments from Dr. Blank and Chief Pfeifer for a second. You 
know--and it is about the areas you dealt with, the Mumbai-type 
attacks, fire, and incendiaries as a weapon. I understand 
iconic buildings and facilities as a symbol, and as a target.
    But one of the areas I am concerned about that you didn't 
address directly, is the idea that with this kind of fire as a 
weapon, or incendiaries as a weapon-type attack, what about 
places that contain hazardous materials? What about places that 
have chemicals, or gases, or petroleum-based products? There 
could be a tremendous damage done in that respect.
    Now, yesterday I was with firefighters throughout our 
State, including firefighters in Boston. I was talking to them 
about their level of preparedness. One of the things that 
concerned me directly--and if you can comment on this, Chief, 
that would be helpful--is the fact that--now there is Boston, a 
top-tier city in terms of the ranking to terrorist attack.
    They are not having utilization of the grant money right 
now directly for their own training. I was told that they were 
getting help from New York with some training.
    But otherwise, they are taking their personnel and going to 
places like Alabama to get trained there, which I think you 
know, Chief, is impractical to be able to train enough people, 
and spend the grant money, to go down to Alabama to get trained 
and come back.
    So how important is this, you know, for our major cities in 
particular, to be able to have this kind of training in HAZMAT? 
Because I see this as an enormous threat. If Dr. Blank can 
comment on the enormous threat that it might present. If the 
chief--if you could, Chief Pfeifer, talk about exactly the 
level of preparedness, and the fact that we are, as the 
Homeland Security, as a committee, and as a Congress, we are 
sending funds for training. But I am worried it is not getting 
utilized so that it really is any great help to our cities like 
Boston. Either one of you can go first.
    Chief Pfeifer. I was just up in Boston a couple weeks ago 
talking to Commissioner Fraser, and also to the police 
department, and OEM. I understand very much what they went 
through with the Boston Marathon.
    We have a very good relationship with Boston Fire 
Department. You are correct in saying that training is critical 
to first responders. Hazardous-material training, particularly 
critical when we are talking CBRN-type of attacks.
    The interesting thing we must note about training is that 
it is a perishable skill. If we don't keep training, if we 
don't keep testing ourselves, we lose that.
    The other thing with first responders is that the people 
rotate in and out. People retire and new folks come on. So 
training must continue--be a continuing process. That takes 
funding. It takes a lot of funding.
    For New York City Fire Department, to train everyone within 
the department for 1 hour, it costs $1 million. But without the 
training, we can't deal with a hazardous-material event, or we 
can't deal with a Mumbai-style attack.
    Both types of attacks, CBRN or Mumbai-style, is a high-
consequence, low-frequency. We don't see it a lot. It is not 
something we get to practice. Therefore, the training is 
important.
    The other element is for us to share information, and to 
share information particularly on the East Coast. How do we 
collaborate together? How do we do that amongst fire 
departments? But how we also do it incorporating fire, police, 
and emergency medical is certainly a challenge for all of us.
    Mr. Keating. Chief, in New York, because of your size and 
the fact you are a target, you are able to have your own 
training. My concern going forward is these other cities and 
these other communities, they don't have their own.
    What is happening with Homeland there, my understanding 
from the firefighters is, they are centralizing training in 
places that, frankly, these cities can't afford to send people 
to.
    Dr. Blank, what do you think about the dangerousness of 
that kind of combined fire attack with hazardous materials? I 
just think the danger of that is enormous.
    Mr. Blank. Thank you, Congressman. I completely agree. I 
think from a tactical perspective, we have chemical plants 
around the country that are WMD waiting to be deployed.
    You don't have to bring WMD to the United States. All you 
have to do is use the WMD that is lying around here.
    The same week, right after the Boston Marathon bombings, we 
saw an explosion at a chemical plant in Texas, which 
fortunately, was not a terrorist action. But that doesn't 
matter to the people who died there. If I were a member of 
Lashkar-e-Taiba, or another terrorist group, I would be looking 
very seriously at that.
    I think also, Congressman, your larger point about, we have 
got to be looking forward rather than back, is critically 
important. The next Mumbai is not going to look like the last 
one. The opportunities for iconic attacks, by which I mean not 
attacks on icons, but attacks that are themselves icons, that 
is immense.
    Why was Boston such a blow to all of us, not just those of 
us who have lived in Boston, but everybody who is a runner, 
everybody who is an athlete, everybody who loves someone who is 
a runner or an athlete, or has been to Boston, or just 
identifies with people who suffered such terrible things?
    It is because people are always coming up with new ideas. 
Last summer, I drove from Congressman Keating's district to 
Congressman King's district, and of course, I took the Long 
Island ferry from New London to Orient Point. I don't want to 
give anybody ideas, but that would be a soft target that would 
have enormous iconic impact.
    We have got to be thinking about these things, not just 
about making soft targets harder, but also recognizing that the 
future is not going to look like the past.
    Mr. Keating. Yes. I just want to thank you. I think if you 
turn on a television news station on any given evening, if 
there is a fire in that community, they are covering it. 
Certainly, the attractiveness of these terrorist groups to 
getting media, optimizing the media exposure is very real, too.
    So I want to thank all of you. Dr. Fair, thank you for your 
comments on information sharing. I think that is--these 
things--first responders, information sharing--remain among our 
priorities. With that, I yield back.
    Mr. King. Thank you, Mr. Keating. I really just have one 
question. I want to thank you all for your testimony. But as 
far as an affiliate of LeT, or faction of LeT, if there were an 
attack against us, American interests overseas, by one of these 
factions--of course, LeT would just claim--assume they would 
just claim responsibility--would ISI, do you believe, have 
control over the factions as well? Or could a faction carry out 
an attack against American interests without some sort of 
condoning by ISI?
    Mr. Tankel. Let me start by saying that as incredibly 
troublesome as the ISI-LeT relationship is for a host of 
reasons, I think one of the things that we need to be very 
concerned about is a reduction of ISI situational awareness and 
influence over LeT.
    Now, that said, I think it is important. One can divide 
this many different ways. I will choose just two. One is that 
this is a core LeT attack, but that it is claimed by a front 
group, you know, the same way Deccan Mujahideen was created to 
claim the 2008 Mumbai attacks.
    Arguably, you know, I think it is unlikely in my personal 
opinion that ISI would be aware of it. I think that there is--I 
would assume that core LeT is working to create compartments 
within the organization that are outside of ISI's purview.
    That this relationship, as close as it is, as long-lasting 
as it is, is still not a relationship where the two people are 
working together because they all the time like one another or 
always share the precise same goals.
    So I would assume that LeT is working to create 
compartments within the organization that are outside of ISI's 
awareness. My fear would be that the ISI does not recognize 
that, that it thinks it has the situation under control, or 
that LeT is benefiting as a result of benign neglect.
    The second is that this is an actual splinter. There, you 
know, I think if it is an actual splinter, you know, that is a 
much more complicated response for us in some ways, but it is a 
real threat.
    There, again, I would look at the ISI-LeT relationship from 
the perspective of the degree to which it has the potential to 
create some of those splinters.
    That the more the group, you know, tries to tow the line or 
reign in people, the more there is the potential for it to 
throw off viviparous units.
    Then, again, that is not to say that we want situational 
awareness or influence to cease or that we want the ISI to 
continue supporting LeT. We don't. We want it to gradually 
dismantle it.
    But it is to say that we need to be prepared for the 
potential consequences if that were to occur and, certainly, 
need to be aware of the dynamics of the relationship as it 
exists now.
    Mr. King. Dr. Fair.
    Ms. Fair. I actually find myself in disagreement with you, 
Dr. Tankel. We will have to take this to the bar.
    Mr. King. Let's not have a fight here now.
    [Laughter.]
    Ms. Fair. Right. So I actually do have a very different 
opinion about this. It is really important that we understand 
that of all of the dozens of terrorists groups operating in 
Pakistan against Pakistanis, the reason why Jamaat-ud-Dawa is 
so useful to the ISI is that in its literature it actually says 
this is a bad thing.
    There have been recent reports, in fact, that there might 
even be an actual militarized conflict between Jamaat-ud-Dawa 
and elements of the Pakistani Taliban.
    As 2014 comes into focus, the Pakistanis, in their own way, 
think that once we are gone that the Pakistani Taliban will go 
back to Afghanistan, that they will go back to their 
traditional theaters, that they will no longer be the target of 
the TTP because they are not going to be working with us.
    I think the Pakistanis are wrong in that calculation. I 
think that the TTP has morphed in a way that the Pakistanis 
don't understand. Because of that, I think Jamaat-ud-Dawa is 
going to become more important to the state than not because it 
will be the only organization that has an ideological argument 
against the TTP.
    Now, this doesn't mean that there won't be individuals 
within Jamaat-ud-Dawa/LeT that disagrees with the leadership, 
doesn't preclude factions.
    But this does go to I think there needs to be a discussion 
in the U.S. Government about how we respond. I am of the belief 
that anything we can do to shrink the space of plausible 
deniability is to our benefit.
    The Pakistanis, the ISI, the army, the militant groups 
themselves are constantly trying to expand this space for 
plausible deniability.
    I really don't care whether the organization that attacks 
the United States has the sanction of Muridke and LeT's 
leadership or for that matter, Rawalpindi or the ISI 
headquarters in Opara, we need to hold the Pakistani state 
accountable.
    They have nurtured these lunatics. They have done 
everything they can to help them and to expand their mission 
domestically. They have thwarted our every single opportunity 
to get the Pakistanis to come to their sense about this 
organization.
    I don't find any logical, compelling reason to indulge 
Pakistan's sense of plausible deniability. We need to tell 
them, you know what, this is your problem. You have raised 
these guys, this is your problem.
    I don't--I can't even understand why we would even give the 
Pakistanis even greater plausible deniability than they have 
already cultivated.
    Mr. Tankel. Can I just?
    Mr. King. And, now, rebuttal.
    [Laughter.]
    Mr. Tankel. Let me be clear----
    Mr. King. Yes.
    Mr. Tankel. Saying that Lashkar-e-Taiba is attempting to 
carry out operations without the ISI knowing does not mean that 
the ISI shouldn't be held responsible for that.
    Ms. Fair. Okay.
    Mr. Tankel. Okay, I mean that is an important distinction. 
To your question about whether the ISI would know about it and 
sanction it, you know my sense is we should continue to put 
enormous pressure on the ISI to put enormous pressure on LeT 
not to, you know, carry out an attack against the U.S. 
homeland.
    We should make clear that we will hold the ISI responsible 
for that. That is not to say that LeT won't attempt to 
compartmentalize information so that the ISI doesn't know.
    That is--I think we need to acknowledge that reality and 
that our discussions with the ISI and with Pakistan needs to be 
more nuanced. It needs to be: Hey, listen, we are going to hold 
you accountable.
    Therefore, you know, though publicly you may claim that you 
have no control over LeT, privately we all know that you do. 
You better have the control over it that privately we are all 
assuming because it is going to be problematic if you don't.
    Mr. King. Dr. Blank, you want to take a side, too?
    Mr. Blank. Yes. Well, actually I don't think there is----
    Mr. King. I agree----
    Mr. Blank. A huge area of disagreement because, to be 
honest, the accountability is already there. Anyone in ISI, 
anyone in Pakistani decision circles who thinks that if there 
is an attack in the homeland that has a return address in 
Pakistan that that is not going to lead to a tremendous 
response, well they were obviously asleep during Abbottabad 
that is for sure.
    I mean--also, we do have--I think I can say this now. We do 
have something called a drone program. It is--the idea that we 
would not hit back if there were a Lashkar attack in the United 
States I think is ridiculous.
    We would, and the Pakistanis know it and that is why there 
has never been a Lashkar attack in the United States. I don't 
think it is because they don't want to hit us. I don't think it 
is because they can't hit us.
    I think it is because, at least up until now, they have 
made a conscious decision to abide by ISI's red line. Will that 
happen in the future? So far, I think yes.
    But the real danger I think is that as long as Lashkar 
continues to be this factory churning out extremists, those 
extremists, as both Dr. Fair and Dr. Tankel have testified, 
they are going to go somewhere.
    Mr. King. Thank you.
    I was afraid if an argument did break out, Chief Pfeifer 
would think he was back in the firehouse.
    [Laughter.]
    Mr. King. Let me just thank all of you for your testimony. 
I found this particularly illuminating and it is important we 
build this record.
    Again, the effort that you made, the interest that you put 
into this and is--again, extraordinary, Chief Pfeifer, what you 
have done with the FDNY, the three of you with your 
intellectual pursuits and your academic pursuits and also 
willing to come forward.
    I know, Dr. Fair, it is particularly stressful at times. 
But, again, each of you contributed immeasurably to what our 
committee and subcommittee are trying to do.
    I know he is not here, but I do want to, again, thank the 
Ranking Member, who is not here, who had to make some serious 
changes in his schedule to be here.
    Again, I regret being late this morning. I was, as I said, 
caught in an NSA debate and, of course, my arguments were 
coherent and cogent as opposed to the opposition.
    [Laughter.]
    Mr. King. But, in any event, I want to just thank you for 
your testimony and, also, myself and other Members of the 
committee may have additional questions for you and if so, we 
will submit them to you in writing and ask for a response.
    So, without objection, the committee stands adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Statement of Brian Michael Jenkins, Senior Advisor to the RAND 
                  President, the RAND Corporation \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                             June 12, 2013
 the threat of a mumbai-style terrorist attack in the united states \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT391.html.
---------------------------------------------------------------------------
    I regret that circumstances prevent me from testifying in person at 
this hearing. I want thank Chairman King, with whom I have had long 
conversations on terrorism issues, Ranking Member Higgins, and Members 
of the committee for inviting me to submit this written testimony. The 
topic before the committee is the threat of a terrorist attack in the 
United States along the lines of the 2008 terrorist assault on the city 
of Mumbai, where 10 terrorists, armed with assault rifles, pistols, 
grenades, and improvised explosives, carried out coordinated attacks 
across the city, killing 162 people and paralyzing a metropolis of 14 
million people for 60 hours while mesmerizing the world's media.
    To provide background on this inquiry, I invite Members of the 
committee to read an early RAND analysis of the Mumbai attack,\3\ as 
well as my testimony before the Senate Homeland Security Committee on 
the subject.\4\
---------------------------------------------------------------------------
    \3\ Angel Rabasa et al., The Lessons of Mumbai, Santa Monica, CA: 
RAND Corporation, OP-249-RC, 2009.
    \4\ Brian Michael Jenkins, Terrorists Can Think Strategically: 
Lessons Learned from the Mumbai Attacks, Testimony before the Committee 
on Homeland Security and Government Affairs, United States Senate, 
January 28, 2009.
---------------------------------------------------------------------------
    My RAND colleague Jonah Blank has focused his testimony on the 
current threat posed by Lashkar-e-Taiba, the organization responsible 
for the Mumbai attack. Therefore I will focus my attention on the 
attack scenario.
    It is ironic that as I am preparing this testimony, neighboring 
streets in Santa Monica, California, are blocked off because of a 
shooting rampage by a heavily-armed lone gunman who killed five people 
and wounded four others before being killed by police. Insofar as we 
know now, political motives were not involved in this incident, but the 
occurrence of such episodes in the United States demonstrates the 
possibilities of similar terrorist assaults and at the same time has 
resulted in police being better prepared to respond to what are 
referred to as ``active shooter'' situations.
    The Mumbai assault was a complex operation involving five teams of 
two gunmen each. They arrived together at a seaside village in Mumbai 
and then deployed to attack various targets across the city. The 
assault required detailed planning and thorough reconnaissance of the 
targets, including learning the layouts of the luxury hotels that were 
the attackers' final objective. Team members had been carefully 
selected and trained for months--their skills showed in their 
disciplined fire control. Each man carried an assault rifle with a 
large quantity of ammunition, a semi-automatic pistol, and hand 
grenades. Their goal was to kill as many people as possible at iconic 
sites. In addition, the group had five improvised explosive devices. 
The terrorists attacked unguarded targets--the central train station, a 
hospital, a Jewish social center, a restaurant, and two hotels. During 
the assault itself, they received instructions from controllers in 
Pakistan who were watching the episode on television.
                            ample precedents
    Although the Mumbai assault was audacious and unprecedented in its 
scale, complexity, and consequences, the annals of terrorism provide 
ample precedents for armed assaults, going all the way back to the 1972 
terrorist attack at Tel Aviv's airport. The attack, which came to be 
known as the Lod Airport massacre, was carried out by the Japanese Red 
Army, acting for the Popular Front for the Liberation of Palestine, 
with whom the Japanese group had become allies. Three attackers, armed 
with automatic weapons and hand grenades, opened fire on passengers 
disembarking from a flight arriving from the United States. Twenty-five 
people were killed in the assault, and 80 were wounded. More-recent 
terrorist assaults include \5\
---------------------------------------------------------------------------
    \5\ These are strictly armed assaults. Additional assaults that 
also involved vehicle bombs are not included.
---------------------------------------------------------------------------
  <bullet> 1985.--The Abu Nidal organization carried out simultaneous 
        armed assaults at the Vienna and Rome airports, killing a total 
        of 19 and wounding 140.
  <bullet> 1997.--Six gunmen attacked tourists in Luxor, Egypt, killing 
        62.
  <bullet> 2001.--Six gunman opened fire on a church in Bahawalpur, 
        Pakistan, killing 15.
  <bullet> 2001.--Five gunmen attacked India's Parliament House, 
        killing 7.
  <bullet> 2002.--Jihadist gunmen attacked the American consulate in 
        Calcutta, India, killing 5.
  <bullet> 2003.--Four gunmen attacked multiple targets in Yanbu, Saudi 
        Arabia, killing 6.
  <bullet> 2003.--Gunmen attacked foreign housing compounds in Khobar, 
        Saudi Arabia, killing 22.
  <bullet> 2004.--Five armed attackers broke through the gates of the 
        American consulate in Jeddah, Saudi Arabia, killing 5.
  <bullet> 2004.--A large group of gunmen assaulted a school complex in 
        Beslan, Russia, killing and barricading themselves with 
        hostages, most of them children. The episode, the most 
        spectacular event listed here, lasted nearly 3 days and 
        resulted in 380 deaths.
               terrorist assaults since the mumbai attack
    Spectacular armed terrorist assaults have been made subsequent to 
the Mumbai attack, although none of them match the scale of that 
operation:
  <bullet> 2009.--Members of the Pakistan Taliban attacked the 
        Pakistani Army's General Headquarters in Rawalpindi, killing 6.
  <bullet> 2011.--A lone gunman opened fire on the American embassy in 
        Sarajevo, Bosnia, wounding 1.
  <bullet> 2011.--Pakistan Taliban gunmen attacked and waged a 16-hour 
        gun battle at the naval air base in Karachi, Pakistan, killing 
        12.
  <bullet> 2011.--Motivated by anti-Muslim sentiments, Anders Breivik 
        detonated a bomb in Oslo, killing 8, and then proceeded to gun 
        down people at a nearby youth camp, killing 69.
  <bullet> 2011.--A jihadist gunman opened fire on a bus carrying U.S. 
        military personnel at Frankfurt Airport in Germany, killing 2.
  <bullet> 2012.--A lone gunman, inspired by jihadist ideology, carried 
        out a series of shootings in Toulouse and Montauban, France, 
        killing 7 and wounding 5.
  <bullet> 2012.--A heavily-armed group of reportedly as many as 150 
        men attacked the U.S. consulate in Benghazi, Libya, killing 4, 
        including the American ambassador, and wounding 10.
  <bullet> 2013.--Terrorists claiming allegiance to al-Qaeda carried 
        out a major assault at Amenas, Algeria, killing 37.
          potential mumbai-style attacks in the united states
    The Mumbai attackers infiltrated the city from a hijacked fishing 
vessel. There are two ways a Mumbai-style attack could be carried out 
in the United States. First, terrorist planners could assemble and 
train a team of attackers abroad and attempt to infiltrate them into 
the United States individually over a period of time or as a single 
team. None of the major jihadist groups have attempted (or, insofar as 
we know, contemplated) large-scale armed assaults in the West.
    In the 9/11 attacks, al-Qaeda managed to infiltrate 19 attackers 
into the United States who remained committed to their suicidal mission 
even after months of residence here. However, al-Qaeda at that time 
operated in a more permissive environment and was able to draw upon a 
large reservoir of volunteers at its training camps in Afghanistan 
enabling it to select the best candidates. The terrorist organization 
also was better able to clandestinely communicate and transfer funds. 
Improved intelligence world-wide has since degraded the operational 
capabilities of al-Qaeda and has made its operating environment more 
hostile, making more likely that authorities would learn of 
preparations for a large-scale terrorist operation, but there is no 
guarantee that such a feat cannot be repeated, especially if the 
terrorists are allowed space to freely plan and prepare attacks.
    India's government accused Pakistani authorities of being complicit 
in the Mumbai attack, but Pakistan has different rules for dealing with 
India than for other nations. Defendants in three of the jihadist cases 
in the United States since 9/11 had connections to Lashkar-e-Taiba, but 
they were not plotting to carry out attacks in the United States.\6\ A 
major terrorist attack on the United States that could be traced back 
to Lashkar-e-Taiba or any other Pakistan-based group obviously would 
have serious consequences for Pakistan.
---------------------------------------------------------------------------
    \6\ These include the 2003 Northern Virginia cluster case, the 2005 
New York defendants case, and the 2009 David Headley case. For a 
detailed chronology of jihadist plots in the United States, see Brian 
Michael Jenkins, Stray Dogs and Virtual Armies: Radicalization and 
Recruitment to Jihadist Terrorism in the United States since 9/11, 
Santa Monica, CA: RAND Corporation, OP-343-RC, 2011.
---------------------------------------------------------------------------
    The second approach would be for home-grown terrorists to plot a 
Mumbai-style attack. Today's al-Qaeda has become far more 
decentralized, far more dependent on its affiliates and allies and on 
its ability to inspire home-grown terrorists to carry out attacks on 
its behalf. Although still dedicated to spectacular, ``strategic'' 
attacks, al-Qaeda has embraced a do-it-yourself strategy. On-line 
jihadist publications have exhorted terrorists to carry out bombings, 
shootings, stabbings, even ramming cars into crowds.
    In response to these calls, individual jihadist terrorists carried 
out shooting attacks, and more recently, stabbing attacks have taken 
place in Woolwich, England, and on the outskirts of Paris.
                          the u.s. experience
    The United States is not immune to such attacks. In preparing 
Congressional testimony on this topic, one cannot help but recall the 
1954 armed assault on Congress itself by four Puerto Rican separatists, 
in which five Members of Congress were wounded. Capitol security has 
increased since then.
    All of the more recent terrorist shootings in the United States 
have involved a single shooter:
  <bullet> 1994.--A heavily armed Lebanese immigrant opened fire on a 
        van carrying Jewish students on the Brooklyn Bridge in New 
        York, killing 1 and wounding 3.
  <bullet> 1997.--A Palestinian nationalist opened fire on spectators 
        on the observation deck of New York's Empire State Building, 
        killing 1 and wounding 6.
  <bullet> 2002.--An Egyptian limousine driver shot and killed 2 
        persons at the El Al ticket counter in the Los Angeles Airport. 
        (Although the attacker was labeled a terrorist, his precise 
        motives, beyond killing Jews, were not apparent.)
  <bullet> 2009.--Abdulhakim Mujahid Muhammad (aka Carlos Bledsoe) shot 
        and killed 1 soldier and wounded another at an Army recruiting 
        office in Little Rock, Arkansas.
  <bullet> 2009.--Motivated by white supremacist beliefs, a man opened 
        fire at the Holocaust Museum in Washington, killing 1 person.
  <bullet> 2009.--Major Nidal Hasan shot and killed 13 of his fellow 
        soldiers at Fort Hood, Texas; 31 others were wounded in the 
        attack.
  <bullet> 2012.--An army veteran linked to white supremacist groups 
        opened fire on members of a Sikh temple in Oak Creek, 
        Wisconsin, killing 6 and wounding 4.
  <bullet> 2013.--During their escape, following the Boston Marathon 
        bombing, the Tsaernev brothers engaged in a running gun battle 
        with police in which the older brother was killed and 1 officer 
        was wounded. (The Tsaernevs had earlier killed 1 police 
        officer.)
    Al-Qaeda's efforts to radicalize and recruit home-grown terrorists 
have thus far yielded only a meager turnout. Between 9/11 and the end 
of 2012, 204 persons were arrested or self-identified for providing 
material support to al-Qaeda and allied groups, including Lashkar-e-
Taiba; joining jihadist fronts abroad; or plotting to carry out 
terrorist attacks in the United States. Most of the plots involved 
improvised explosive devices, but 6 involved planned armed assaults, 2 
of which were carried out (Bledsoe and Hasan). These 2 attacks account 
for 14 of the 17 fatalities that have resulted from al Qaeda-inspired 
violence since 9/11.
    Sixty-eight of the jihadist terrorist plots uncovered in the United 
States have involved a single individual. The most ambitious plots 
involved 3 to 7 attackers. Few of the plotters had any training, 
although some were former soldiers. Only two of the plots definitely 
anticipated suicide attacks. None came close to the sophistication, 
determination, or personal skills demonstrated in the Mumbai attack.
                    non-terrorist shooting rampages
    Mass shootings are not uncommon in the United States, and this 
appears to be a growing problem since 2000. The following were some of 
the bloodier incidents:
  <bullet> 1999.--Two teenagers, armed with shotguns, a rifle, and 
        handguns, killed 12 classmates and wounded 24 others at a high 
        school in Colombine, Colorado. They had planned to kill 
        hundreds. This is a rare case in which there was more than one 
        shooter.
  <bullet> 2007.--A lone gunman at Virginia Tech killed 32.
  <bullet> 2009.--A lone gunman in Kinston, Alabama, killed 10.
  <bullet> 2009.--A lone gunman killed 13 in Binghamton, New York.
  <bullet> 2012.--A lone gunman killed 12 at a theater in Aurora, 
        Colorado.
  <bullet> 2012.--A lone gunman killed 26 at an elementary school in 
        Newtown, Connecticut.
    The perpetrators in almost all of these cases would be described as 
at least temporarily mentally disturbed, which speaks to their 
determination. Nonetheless, they demonstrate that 1 person, with little 
or no training, can acquire and effectively use firearms to achieve 
high body counts. In the above cases, 7 armed individuals killed a 
total of 105 persons, or an average of 15 per attacker, which is close 
to the results achieved in the Mumbai attack.
    The challenge of carrying out a Mumbai-style massacre is not 
providing individual firepower but, rather, assembling the attacking 
force. The 10 terrorists who carried out the Mumbai attack were no 
doubt selected from a larger pool and trained for months. The objective 
of the training was not simply to instruct them in the operation of 
their weapons; equally important was selecting the attackers and 
mentally preparing them for a suicide mission--in other words, 
duplicating the will displayed in the homicidal rages of crazed 
shooters.
    Since members of the attacking team at Mumbai were trained 
individually, the lone survivor was unable to tell authorities if any 
candidates for the operation were deselected because they exhibited 
insufficient zeal. That would be a limiting factor in any home-grown 
plot where there is no possibility of selecting volunteers from a 
larger pool. It is not simply a matter of getting 10 men together; it 
is necessary to persuade every single one of them to remain committed. 
Faintheartedness would reduce the size of the group and would also risk 
exposure of the operation. The Mumbai attack worked because a larger 
organization was in charge of it.
    The cases listed above are not typical of active-shooter incidents 
in the United States. Overall, the average number of deaths per attack 
is 3; the more-accurate median number is 2. Typically, the perpetrator 
is a male whose motives are retaliation for some perceived personal 
wrong or simply unknown. Forty percent of the perpetrators ended the 
attack with suicide; 46 percent of the attacks ended with bystanders or 
police forcefully subduing the shooter; only 14 percent ended with 
voluntary surrender. To end the killing, therefore, requires prompt, 
forceful intervention. Eight percent of the shooters were killed by law 
enforcement.
              american law enforcement is better prepared
    Analysis of the Mumbai attack shows that local police were poorly 
trained and equipped to handle such an incident, and the National 
response also had flaws. In contrast, police in the United States are 
better prepared and have gained experience as result of dealing with 
domestic shooting incidents, which have been carefully analyzed. The 
Mumbai attack itself provided further impetus for preparations. This 
does not mean that a Mumbai-style attack could not occur in the United 
States or that casualties would be prevented. It does mean that police 
would intervene more promptly to rapidly resolve the episode. A 
terrorist shooter would be confronted by a heavily-armed response, 
already on the scene in many venues. For example, a hypothetical 
terrorist shooter that chose a venue like New York's Penn Station would 
immediately face armed officers from the NYPD, MTA, PATH, NJRR, and 
Amtrak, and at times, TSA VIPR teams and National Guardsmen.
    In 1975, fleeing IRA terrorists in London ran into an apartment 
building, where they barricaded themselves with hostages, thereby 
initiating a lengthy siege. Imagine what would have happened had the 
fleeing Tsaernev brothers done the same. In Mumbai, the attackers' 
seizure of hostages, or the mere presence of potential hostages or 
victims in the hotels, posed a challenge to the counterterrorist 
responders. This also constrained authorities dealing with some of the 
other terrorist assaults.
    Barricade-and-hostage situations were a more common terrorist 
tactic in the 1970s than they are now, and they would complicate the 
response to a terrorist assault. The United States has experience here. 
In 1977, 12 members of an extremist Muslim sect, led by an individual 
with a history of mental illness, seized 149 hostages at three separate 
locations in Washington, DC, initiating a siege that lasted 39 hours. 
The event became known as the Hanafi siege. Two persons were killed 
during the initial takeover, but patient negotiations resulted in the 
peaceful surrender of the attackers without further bloodshed. 
Political extremism has become more violent since then, and a bloodier 
version of the Hanafi siege could occur.
                              conclusions
    What conclusions can be drawn from this brief survey of history?
  <bullet> A Mumbai-style attack is conceivable in the United States, 
        although probably not one at anywhere near the scale of the 
        2008 assault in India.
  <bullet> In the terrorists' current operating environment, it would 
        be difficult to export a 10-man assault team from Pakistan or 
        another location in the Middle East, North Africa, or South 
        Asia. The jihadist terrorist enterprise has not been able to 
        launch a significant terrorist operation in the West since 
        2005.
  <bullet> It is hard to imagine that a terrorist attack on the scale 
        of the Mumbai attack that was traced back to Pakistan or any 
        other country would not result in serious consequences for that 
        country's government.
  <bullet> There is at present no known terrorist group in the United 
        States that has the organization and human resources to 
        assemble an operation of the complexity and scale of the Mumbai 
        attack.
  <bullet> Smaller-scale armed assaults have been contemplated by home-
        grown terrorists, although these plans have been immature.
  <bullet> The most likely Mumbai-style scenario would involve one to 
        several shooters, who could produce significant casualties. The 
        Oslo attack underscores the killing capacity of one determined 
        individual.
  <bullet> American law enforcement is much better prepared than local 
        police in Mumbai to respond to active-shooter scenarios.
  <bullet> An armed assault combined with hostages at multiple 
        locations would present the greatest challenge.

                                 <all>

</pre></body></html>
